                                                    TABLE OF CONTENTS
                                       April 1, 1996 — September 30, 1996



LETTER TO THE SECRETARY........................................................................................... i

EXECUTIVE SUMMARY...................................................................................................... v

SECTION I-AUDIT ACTIVITY
     A. Introduction............................................................................................................................................... 1
     B. Audit Accomplishments............................................................................................................................ 1
     C. Requested Reviews.................................................................................................................................... 2
     D. Selected Significant Findings and Recommendations........................................................................... 2
     E. Management Decisions........................................................................................................................... 11
          1. Background ..................................................................................................................................... 11
          2. Status of Management Decisions................................................................................................... 11
          3. Summary of Departmental Efforts............................................................................................... 14
          4. Status of Unresolved Audit Recommendations Over 6 Months Old.......................................... 14
          5. Required Reports............................................................................................................................ 24
     F. Application of Audit Resources.............................................................................................................. 24


SECTION II-INSPECTIONS AND EVALUATIONS ACTIVITY
     A. Introduction ............................................................................................................................................ 27
     B. Inspections and Evaluations Accomplishments ................................................................................... 27
     C. Selected Significant Findings and Recommendations......................................................................... 27
     D. Application of Inspections and Evaluations Resources....................................................................... 31


SECTION III-INVESTIGATIONS ACTIVITY
     A. Introduction ............................................................................................................................................ 33
     B. Investigative Accomplishments.............................................................................................................. 33
          1. Results of Reactive Investigations................................................................................................. 33
          2. Results of Proactive Investigations................................................................................................ 40
     C. Application of Investigative Resources................................................................................................. 45


SECTION IV-OIG HOTLINE
     A. OIG Hotline Complaint CenterActivities............................................................................................ 47
     B. Selected Hotline Complaints.................................................................................................................. 47


SECTION V-LEGISLATION AND REGULATIONS
     A. Legislation............................................................................................................................................... 51
     B. Regulations.............................................................................................................................................. 51




                                                                                         iii

SECTION VI-ORGANIZATION AND MANAGEMENT

  A. Organization and Staffing...................................................................................................................... 53

  B. Congressional Testimony........................................................................................................................ 55

       1. Diversion of Airport Revenues...................................................................................................... 55

       2. Assessment of FAAInspections...................................................................................................... 55

  C. Processing Freedom of Information Act Requests ............................................................................. 55



APPENDICES

  Glossary of Acronyms and Terms Used in This Report ........................................................................ A-1

  Listing of Audit Reports Issued During This Reporting Period........................................................... B-1

  Reporting Requirements.......................................................................................................................... C-1




  NOTE: There have been no instances during this reporting period where information requested by OIG was refused by
        Department officials. Accordingly, we have nothing to report pursuant to Section 5(a)(5) of the Inspector Gen-
        eral Act of 1978, as amended.




                                                                                 iv
                                    EXECUTIVE SUMMARY

                                                                     needed to be made in the areas of: (i) access control valida-

   T
          his report, required by the Inspector General (IG)
          Act of 1978, as amended, summarizes the                    tion inspection data, (ii) access control inspection protocol,
          activities and accomplishments of the Office of            (iii) access control and challenge requirements, and
Inspector General (OIG) during the period April 1, 1996 to           (iv) detecting potential explosive devices at passenger
September 30, 1996. The report has been prepared in                  screening checkpoints. OIG recommended FAA: (i) incor-
accordance with Public Law (P.L.) 100-504, IG Act                    porate well-defined, realistic testing procedures and tech-
Amendments of 1988, which changed reporting definitions              niques into the inspection process and expand testing to all
for OIG and requires the reporting of management decisions           areas of aviation security; (ii) provide training to special
on OIG audit recommendations. Because the role of the IG             agents to ensure covert, realistic testing techniques are con-
is to identify problems and weaknesses and prevent fraud,            sistently and aggressively used; and (iii) report the material
waste, and abuse, our emphasis has been placed in the areas          weakness cited in OIG’s report to the Secretary for inclusion
most susceptible or vulnerable. The reader should not                in the Secretary's annual report to the President and Con-
assume from this report that the significance of findings and        gress. FAA concurred with two of OIG’s recommendations.
recommendations described are representative of the overall          The third recommendation was resolved during a July 1996
condition of the Department of Transportation's (DOT)                meeting between OIG and FAAofficials.
programs and operations.
                                                                         In a safety-related audit, OIG examined FAA’s Aging
OIG ACCOMPLISHMENTS                                                  Commuter Airplane Program and concluded the program
                                                                     was not effective (Report No. R7-FA-6-002). OIG found
   The Office of Assistant Inspector General for Auditing            FAAhad not been timely in implementing policy, and sever-
continued to focus on security and transportation safety             al factors had resulted in program delays. As a result, the
issues during the current semiannual period. In an audit             possibility of future structural failures has increased as the
related to airport security, OIG concluded Federal Aviation          commuter fleet continues to age. OIG recommended FAA:
Administration (FAA) had improved its testing of airport and         (i) emphasize timely completion of airworthiness directives
air carrier compliance with security requirements, but more          and the reevaluation of service bulletins, (ii) accelerate
progress is needed. In two separate audits related to                action to incorporate approved corrosion prevention and
transportation safety, OIG determined FAA’s program for              control programs in operators' maintenance programs, and
aging commuter airplanes was not effective, and United               (iii) complete rulemaking to implement inspection require-
States Coast Guard’s (USCG) required annual inspections of           ments of the Aging Aircraft Safety Act. FAAconcurred with
offshore facilities were either not performed or ineffective.        all recommendations.

    In an audit of FAA’s                                                                                     In another safety-
role in airport security                                                                                 related audit, OIG deter-
(Report No. R9-FA-6-
                                              OIG STATISTICAL RESULTS                                    mined USCG’s required
014), OIG concluded the                         (Dollars in Millions)                                    annual inspections of
effectiveness of current                                                                                 offshore facilities either
FAA testing of airport         AUDIT RESULTS                                                             were not performed or
and air carrier compli-             Number of Reports Issued                              295            were ineffective (Report
ance      with    security          Costs Questioned                                    $16.9            No.       R6-CG-6-012).
requirements has signifi-           Costs Unsupported                                   $20.2            OIG found USCG:
cantly improved over                Funds to Be Put to Better Use                      $126.5            (i) did not perform initial
what OIG reported in                Management Decisions to Seek Recoveries            $316.1            inspections of 84 percent
1993. Specifically, OIG                                                                                  of new offshore facili-
found FAA clearly iden-        INSPECTION AND EVALUATION RESULTS                                         ties, (ii) did not ade-
tified testing procedures;          Number of Reports Issued                               12            quately monitor the
developed more realistic,           Number of Projects Completed                           15            industry self-inspection
covert testing tech-                                                                                     program, and (iii) did not
niques; and established        INVESTIGATIVE RESULTS                                                     receive timely self-
specific testing parame-            Indictments                                            67            inspection reports from
ters     and     reporting          Convictions                                            63            facilities. In addition,
requirements. However,              Fines, Restitutions/Civil Judgments, and                             OIG found self-inspec-
OIG also discovered                   Federal and State Recoveries                       $4.8            tions did not always
additional improvements                                                                                  identify existing defi-




                                                                v

ciencies and that deficiencies were reported as corrected                   The Office of Assistant Inspector General for

although no corrective action was taken by facility owners.              Investigations pursued notable cases during this semiannual

Consequently, adverse safety conditions went undetected and              period. Separate OIG investigations led to: (i) the

uncorrected. OIG recommended: (i) initial onsite inspec-                 indictment of a former FAAair traffic controller in what may

tions be performed at each new offshore facility; (ii) enforce-          be the largest workers’ compensation fraud ever, (ii) the

ment actions be initiated, when necessary; (iii) a ticketing             sentencing of engineering firm officials for submitting

system be established for safety violations, and (iv) USCG               fraudulent claims on highway design contracts, and (iii) the

establish procedures for conducting annual inspections, and              conviction of two corporate officers from a major jet engine

user charges be levied for initial inspections of offshore facil-        repair station.

ities. USCG concurred with three recommendations and par-

tially concurred with the fourth.                                           In a joint investigation conducted with Department of

                                                                         Labor (DOL) OIG, a former FAA air traffic controller was
   The Office of Assistant Inspector General for Inspections             indicted on charges related to fraudulently receiving workers'
and Evaluations completed projects which addressed many                  compensation benefits of $325,000.             A review of
issues. For example, in response to a request from the Office            compensation records revealed that since 1973, the
of Management and Budget (OMB), the Inspectors General                   defendant has received more than $830,000 in Federal
from the Departments of Transportation and Commerce                      Employees' Compensation Act benefits. This is believed to
jointly reviewed the functions performed by the National                 be the largest workers' compensation case ever. Trial is
Oceanic and Atmospheric Administration's (NOAA) Office                   scheduled for November 1996.
of Aeronautical Charting and Cartography (AC&C). Several
operational and organizational options were analyzed to                     In a joint investigation with Environmental Protection
determine the best location for AC&C. The review conclud-                Agency (EPA), an engineering design firm was accused of
ed: (i)AC&C fits best into the mission and organization of               inflating costs on various EPA and DOT contracts. The firm
FAA, and (ii) consolidating AC&C's existing printing opera-              and its two principal owners pled guilty to conspiracy to
tion with that of U. S. Geological Survey (USGS) could save              defraud the Government with respect to claims, causing false
up to $2.9 million per year. The joint report contained six              claims to be filed with the Government, and false statements.
recommendations to improve the operating efficiency of                   The firm and its two principal owners received fines. In
AC&C. FAAdisagreed with the recommendation to transfer                   addition, the two owners were sentenced to a combination
the AC&C function to FAA, stating a performance-based                    of time in a half-way house, home-detention, probation, and
organization (PBO) is a better alternative. The OIGs agreed              community service.

that AC&C could be made into a PBO, but that the appropri-
ate location for the PBO is still within FAA. NOAA gener-                    With assistance from FAA's Civil Aviation Security

ally agreed with the recommendations, but did not agree to               (CAS) Division, and working jointly with Federal Bureau of

immediately transfer the printing operations to USGS.                    Investigation (FBI), OIG investigated allegations that a

                                                                         major FAA-certified repair station was conducting improper
   In another project, OIG reviewed allegations FAA abused               repairs on jet engine parts. Following an investigation and
procurement procedures, misused funds, and provided                      trial, one of the officers was convicted on counts of mail and
inadequate project oversight; and that a conflict of interest            wire fraud, false statements, and obstruction of justice. The
situation existed in the administration of a contract with               other executive vice president was found guilty of wire
Aeronautical Radio, Inc. This contract was awarded by FAA                fraud. Sentencing of the two former executive vice
through an Interagency Agreement (I/A) with Defense                      presidents is pending.
Information Technology Contracting Office (DITCO). After
determining FAA officials had inappropriately handled the                DOT PROGRAMS AND OPERATIONS THAT ARE
I/A, OIG made four recommendations. FAA agreed with the                  WORKING WELL
recommendations and either acted, or planned to act, on them.
                                                                            In the course of our oversight work, OIG also identified
   OIG reviewed allegations concerning an FAA agreement
                                                                         DOT programs and operations that worked well. Some
with Airborne Express (ABX) to provide no-cost

                                                                         examples follow:

government equipment, staffing, and other resources needed
to accommodate an ABX private radar system. The project

                                                                             •    Fiscal Year (FY) 1995 Federal-aid highway fund

revealed FAA did not adequately justify expending
                                                                                  apportionments were in compliance with statutory

government resources in excess of $1 million on supporting
                                                                                  formulas, related appropriations acts, and

the ABX system. OIG made four recommendations to FAA
                                                                                  applicable laws.

and received concurrence on all.
                                                                             •	   FAA effectively monitored the city and county of
                                                                                  Denver’s efforts to sell Stapleton International



                                                                    vi
     Airport at fair-market value and assured proper                •    USCG marine safety office personnel adequately
     accounting for revenues and expenses arising from                   followed up on outstanding deficiencies identified
     disposal actions.                                                   during prior boardings and assessed appropriate
                                                                         penalties for safety violations.
•	   Claims submitted by USCG to EPA for Superfund
     activities were accurate and adequately supported.         CONCLUSION
•	   The California DOT has given bridge seismic
                                                                   In conclusion, OIG oversight activity yielded substantial
     retrofit projects the highest funding priority.
                                                                results not only in terms of increased efficiency and economy
                                                                throughout DOT and its operating administrations (OA), but
•	   The USCG Supply Center in Baltimore had
                                                                also in terms of indictments, convictions, and fines. We look
     established adequate procedures and controls to
                                                                forward to continuing our work and our service to DOT, the
     prevent abuse. In addition, there were adequate
                                                                Federal Government, and the American people.
     procedures and controls over monitoring of
     contractor performance.




                                                          vii
This page left blank intentionally.
                                       SECTION I - AUDIT ACTIVITY

A. INTRODUCTION                                                     OIG's audit activities during this period
                                                                were responsive to management's needs while
   This section summarizes OIG audit activi-                    at the same time fulfilling the mandates of the
ties for the 6-month period ended September                     IG Act and the Chief Financial Officers (CFO)
30, 1996.                                                       Act. DOT programs and operations selected
                                                                for audit were based on the magnitude of Fed-
    Office of Assistant Inspector General for                   eral funds involved, past audit activity, and the
Auditing is responsible for conducting audits                   susceptibility of the activity to abuse and ille-
of programs and operations of DOT. The                          gal acts. Additionally, Secretarial, OA, con-
audits are intended to help managers improve                    gressional, and President's Council on Integri-
and enhance the effectiveness of DOT pro-                       ty and Efficiency (PCIE) concerns were
grams and operations. Audits are also                           considered in the application of OIG audit
designed to provide reasonable assurance of                     resources.
detecting abuse or illegal acts and generally
fall within the following two audit categories:                 B. AUDIT ACCOMPLISHMENTS
      •	   Financial audits — include financial                     DOT's programs and operations are primar-
           statement and financial-related                      ily carried out by departmental personnel,
           audits.                                              recipients of Federal aid (grantees), and con-
                                                                tractors. Accordingly, audits are conducted
      •	   Performance audits — include econ-                   from three distinct perspectives: (i) internal
           omy and efficiency and program                       reviews of DOT programs and operations,
           audits.                                              (ii) grantee assessments, and (iii) contractor
                                                                reviews. A statistical summary of audits com-
                                                                pleted in these categories is shown in Table 1.


                                                                   Table 1
                                              Completed Audits April 1, 1996 to September 30, 1996
                                                            (Dollars in Thousands)

                                                                                                                    Estimated Amounts*

                                                     Number of         Number of                  Costs                 Costs                Funds To Be
 Type of Review                                       Reports        Recommendations            Questioned           Unsupported           Put To Better Use

 Internal Audits:
      Program/Functional                                  22                    120                 $3,000              $20,200                 $98,900
           Total Internal Audits                          22                    120                 $3,000              $20,200                 $98,900

 Grant Audits:
     Audits of Grantees under
       Single Audit Act                                   41                     15                 $7,864                    $0                      $0
     Other Grant Audits                                   17                      0                      0                     0                       0
          Total Grant Audits                              58                     15                 $7,864                    $0                      $0

 Contract Audits:
     Preaward Proposal Audits                            69                      48                     0                     0                 $27,655
     Incurred Cost/Other                                146                      43                $6,003                   $43                       0
           Total Contract Audits**                      215                      91                $6,003                   $43                 $27,655
                TOTALS                                  295                     226               $16,867               $20,243                $126,555

 *     The dollars shown are the amounts reported to management. The actual amounts may change during final resolution, contract negotiations, or contract award.
 **    Most of the contract audits were performed by Defense Contract Audit Agency (DCAA). Costs associated with DCAAaudits will also be included in the
       Department of Defense (DoD) IG Semiannual Report to Congress.




                                                                                 1
SECTION I - AUDIT ACTIVITY




                             C. REQUESTED REVIEWS                                 be needed if Congress intends to limit
                                                                                  MARAD's ODS contract authority and the
                                Providing requested services to departmen-        availability of MARAD's appropriations.
                             tal, congressional, and other officials is an
                             important function of OIG. These services are           OIG found no restrictions currently existing
                             intended to provide management officials with        to prevent MARAD from entering into new
                             timely and meaningful advice and assistance          ODS contracts. Additionally, there were no
                             on Departmental and Governmentwide opera-            restrictions on extending existing contracts,
                             tions and activities. Examples of some of the        other than a statutory limitation restricting
                             requested services provided by the audit orga-       total ODS contract length to 20 years. Since
                             nization in this reporting period are discussed      ODS contracts constitute obligations binding
                             below.                                               on the United States, Congress had little choice
                                                                                  but to make the necessary liquidating appropri-
                                 1. Based on a request from the Chairman,         ations to fund any new or extended ODS con-
                             House Committee on Government Reform and             tracts. Therefore, if Congress intends to mini-
                             Oversight, OIG reviewed FAA's Notice of Pro-         mize the Federal Government's future
                             posed Rulemaking (NPRM) on Flight                    obligations to the ODS program, legislation
                             Crewmember Duty Period Limitations, Flight           must be passed to prohibit award of new ODS
                             Time Limitations, and Rest Requirements.             contracts and extensions of existing contracts.
                             OIG determined whether the NPRM was:                 The total existing unfunded liability was
                             (i) based on best available and relevant scien-      $473.78 million with six requests for $84 mil-
                             tific research, and (ii) drafted to address a spe-   lion under consideration.
                             cific identifiable safety problem that can be
                             measured with empirical data. Because of the            OIG concluded MARAD's funding sources
                             lack of documentation available, OIG could not       made it possible to avoid furloughing employ-
                             offer an opinion on the relevancy of the scien-      ees during the Government shutdowns in
                             tific data used in formulating the proposed rule.    November 1995 and December 1995 through
                             As stated in the NPRM, the proposal was              January 1996. Funding for MARAD employ-
                             intended to be a preventative measure and is         ees was provided by carryover of unused "no-
                             not based on specific accidents, but rather on       year" appropriations which are available until
                             extensive data which shows a relationship            expended and from unapplied reimbursements
                             between fatigue and a decrement in perfor-           received from DoD. Within DOT, the use of
                             mance. OIG recommended FAA identify, and             "no-year" funds for personnel costs is unique to
                             make available to the public, all scientific ref-    MARAD. OIG concluded congressional action
                             erences and studies that support National Aero-      would be needed to change MARAD payroll
                             nautics and Space Administration (NASA)              costs from "no-year" appropriations to a 1-year
                             Technical Memorandum, "Principles and                appropriation, consistent with the funding of
                             Guidelines for Duty and Rest Scheduling in           other DOT entities.
                             Commercial Aviation." In addition, OIG rec-
                             ommended FAA extend the comment period               D. SELECTED SIGNIFICANT FINDINGS
                             for this regulatory action to provide interested        AND RECOMMENDATIONS
                             parties with sufficient time to review and sub-
                             mit comments on the scientific data.                    The following examples are illustrative of
                                                                                  the types of findings and recommendations
                                2. In response to a Senate request, OIG           made to departmental officials during the past
                             reviewed the Maritime Administration's               6 months. These audits are presented by cate-
                             (MARAD): (i) authority to enter into new             gory of audit — PCIE, Departmentwide and
                             operating-differential subsidy (ODS) con-            Administrationwide, Financial Statement, and
                             tracts, and (ii) ability to avoid furloughs during   Facility/Regional. Due to the recent issuance
                             FY 1996 when they did not have an appropria-         of some reports, final disposition or resolution
                             tion. OIG concluded MARAD's award of new             may not be complete. OIG will evaluate the
                             ODS contracts was not contrary to existing           responses to final reports and, if disagreements
                             statute, and MARAD had sufficient unused             occur, will seek resolution through the Depart-
                             appropriations from prior years to fund opera-       ment's formal resolution process.
                             tions. OIG concluded new legislation would

                                                               2
                                                                                                     SECTION I - AUDIT ACTIVITY




 PRESIDENT’S COUNCIL ON INTEGRITY
 AND EFFICIENCY AUDITS
AUDITS ADDRESSING GOVERNMENTWIDE CONDITIONS OR PROBLEMS WHICH ARE
PERFORMED ON A COORDINATED BASIS WITH OTHER FEDERAL OIG OFFICES
   Over the past 6 months, OIG was actively       application software maintenance. No reports
involved in one project initiated by the PCIE.    were issued on PCIE projects.
This project is evaluating the management of




 DEPARTMENTWIDE AND
 ADMINISTRATIONWIDE AUDITS
AUDITS ADDRESSING A CONDITION OR PROBLEM THROUGHOUT THE DEPARTMENT
OR A PARTICULAR OPERATING ADMINISTRATION


IMPROVEMENTS ARE NEEDED IN THE MANAGEMENT OF THE ADVANCED
AUTOMATION PROGRAM (AAP).
(Report No. AS-FA-6-010)


OIG Findings                                      according to FAA program officials, TAP
                                                  funding will be eliminated if FAA's FY 1998
Note: This is OIG's sixth report addressing       Facilities and Equipment funding falls below
FAA's AAP.                                        $1.8 billion, thus eliminating the automation
   OIG reviewed the status of FAA’s correc-       platform for deploying SMA. Yet, FAA did
tive actions in response to recommendations to    not fully evaluate other potential alternatives
improve management of the AAP. OIG con-           before restructuring HAB TCCC. OIG pro-
cluded FAA has either completed or initiated      vided two examples of alternatives FAA
adequate actions to address all recommenda-       should evaluate.
tions except for those associated with the
tower segment. In May 1996, FAA restruc-          OIG Recommendations
tured the High Availability Basic Tower Con-
trol Computer Complex (HAB TCCC) Pro-                OIG recommended FAA: (i) complete
gram to the Tower Automation Platform (TAP)       comprehensive system engineering studies
because HAB TCCC lacked the operational           and human factors assessments of the tower
priority for funding in FYs 1997 and 1998.        environment. At completion, FAA should
FAA concluded the greatest benefit from the       make an informed decision on the most cost-
remaining FY 1996 funds would be to redirect      effective solution to satisfy the tower mission
the tower contract to accommodate the Sur-        need, and (ii) minimize continued develop-
face Movement Advisor (SMA). OIG report-          ment efforts for TAPuntil other potential alter-
ed two concerns with FAA’s decision to            natives for fielding SMAhave been evaluated.
restructure the HAB TCCC Program. First,
TAPwill not satisfy FAA's stated mission need     Corrective Actions
for high activity towers, and FAAhas not com-
pleted critical analyses to make an informed
                                                     OIG is awaiting FAA’s response to the
decision on the most cost-effective solution to
                                                  report.
satisfy the tower mission need. Second,


                                                                3
SECTION I - AUDIT ACTIVITY




                             FEDERAL TRANSIT ADMINISTRATION (FTA) CONTROLS DID NOT ENSURE BUSES
                             MET FEDERAL MOTOR VEHICLE SAFETY (FMVS) STANDARDS.
                             (Report No. R3-FT-6-008)

                             OIG Findings                                       OIG Recommendations

                                FTA controls were not adequate to ensure            OIG recommended FTA: (i) revise its reg-
                             transit buses purchased with Federal funds         ulations to comply with STURAA require-
                             conform to FMVS standards and grantee bid          ments to require independent verification of
                             specifications as required by Section 319 of the   manufacturer compliance with FMVS stan-
                             Surface Transportation and Uniform Reloca-         dards through independent reviews, and
                             tion Assistance Act of 1987 (STURAA). This         (ii) provide sufficient guidance for grantees to
                             occurred because FTA’s implementing regula-        perform inspections to ensure bus manufactur-
                             tion did not conform to STURAA regarding           ers comply with bid specifications.
                             independent inspections of manufacturer com-
                             pliance with FMVS standards, and FTAdid not        Corrective Actions
                             provide sufficient guidance for grantee inspec-
                             tors to check buses for conformity with all bid       FTA agreed with the finding, but proposed
                             specifications. As a result, FTAwas unaware        alternative actions to correct the problems
                             bus manufacturers could not provide adequate       OIG identified. FTAwill work with National
                             documentation to support self-certifications of    Highway Traffic Safety Administration
                             compliance with the FMVS standards. Addi-          (NHTSA) to seek a satisfactory resolution and
                             tionally, grantees did not inspect for compli-     obtain clarification from Congress as to the
                             ance with all bid specifications.                  adequacy of FTA's rule, if necessary; or other-
                                                                                wise seek statutory changes to conform the
                                                                                two requirements. FTAalso will review new
                                                                                bus inspection and specification standards
                                                                                developed by the American Public Transit
                                                                                Association. If FTA determines the standards
                                                                                are adequate and meet statutory requirements,
                                                                                FTAwould endorse the use of these standards.




                             BETTER MANAGEMENT CONTROLS AND A REFOCUSING OF THE SUSPECTED
                             UNAPPROVED PARTS (SUPS) P ROGRAM ARE NEEDED.
                             (Report No. R4-FA-6-026)

                             OIG Findings                                       prepared by aviation industry members OIG
                                                                                solicited for data on SUPs activity were not
                                Overall, OIG concluded better management        entered in the SUPs data base, nor were these
                             controls and a refocusing of the SUPs Program      10 reports investigated. For eight cases, FAA
                             with a clear purpose, dedicated organizational     inspectors failed to account for all SUPs
                             structure, standardized investigative require-     reported in the SUPs report or to identify and
                             ments, technical clarification, and inspector      review other unapproved parts involving the
                             training are needed. Of the 16 SUPs cases          suspect company. OIG also found 11 of 12
                             selected for detailed audit, OIG concluded 13      DoD aviation parts notifications issued
                             were not effectively investigated. OIG also        between February 1992 and February 1994
                             concluded that for 11 of the 16 cases, the FAA     had either not been recorded in the SUPs data
                             system of alerts and bulletins was not consis-     base and investigated or were delayed from
                             tently and effectively used to notify the avia-    being entered and investigated from 5 to 33
                             tion public of unapproved parts and purge          months.
                             unapproved parts from the aviation system. In
                             addition, OIG found 10 of 25 SUPs reports

                                                              4
                                                                                                         SECTION I - AUDIT ACTIVITY




OIG Recommendations                                  Corrective Actions

   OIG recommended FAA organizationally                 On August 8, 1995, FAA announced the
realign the SUPs Program to permit unob-             formation of a special task force to review the
structed access to all segments of FAA neces-        issue of unapproved aircraft parts. The task
sary to fully investigate and resolve a SUPs         force report, issued on October 6, 1995, made
case. OIG also recommended FAA clearly               many of the same recommendations as OIG
define the mission of the SUPs Program and           did in its report. FAA concurred with 25 of
adopt a policy that communicates the impor-          OIG’s 26 draft report recommendations and
tance of the program to all staff. OIG recom-        proposed acceptable alternative action for one
mended FAA provide SUPs investigative                recommendation        which       satisfactorily
training to affected inspectors and develop          addressed the condition identified in OIG’s
standardized inspection and reporting formats.       report. FAA formed a new independent SUPs
Further, OIG recommended management con-             Program Office and has agreed to revise FAA
trol changes to improve SUPs data gathering,         Order 8120.10 to implement the recommenda-
recording and analysis reliability, and develop-     tions of the SUPs Task Force and OIG. FAA
ment of controls to monitor the cleansing of         also agreed to provide quarterly status reports
known unapproved parts from the aviation             to Congress and OIG on the progress made to
industry.                                            improve the program.



REQUIRED ANNUAL INSPECTIONS OF OFFSHORE FACILITIES WERE NOT
PERFORMED OR WERE INEFFECTIVE.
(Report No. R6-CG-6-012)

OIG Findings                                         actions when facility owners fail to file self-
                                                     inspection reports or do not correct safety defi-
   USCG did not perform initial inspections of       ciencies timely, and (iii) establish a system for
84 percent of new offshore facilities, and did       "ticketing" facility owners for safety viola-
not adequately monitor the industry self-            tions.     OIG also recommended USCG:
inspection program. Self-inspections were            (i) establish procedures to ensure self-inspec-
due annually. Of the 50 offshore facilities          tions are conducted annually, and (ii) imple-
OIG reviewed, USCG had not received self-            ment a user charge for initial inspections of
inspection reports from 14 facilities in             offshore facilities.
FY 1994 and 20 facilities in FY 1995. For
10 of the 50 facilities, no self-inspection report   Corrective Actions
had been received in over 2 years. When
USCG performed independent inspections, it               USCG concurred in three recommendations
found self-inspections did not always identify       and concurred-in-part with the fourth. Correc-
existing deficiencies. The self-inspections          tive actions taken and planned included to:
also identified deficiencies that were reported      (i) provide internal policy guidance to conduct
as corrected although no corrective action was       initial inspections of new fixed facilities;
taken by facility owners. Consequently,              (ii) establish an effective tracking system to
adverse safety conditions went undetected and        monitor self-inspection reports, deficiencies,
uncorrected.                                         and due dates; (iii) request MMS to develop a
                                                     "ticketing" program; and (iv) evaluate the
OIG Recommendations                                  appropriateness of applying user fees and, if
                                                     deemed appropriate, implement such fees for
   OIG recommended USCG work with the                initial inspections of offshore facilities.
Department of Interior's Minerals Manage-
ment Service (MMS) to establish responsibili-
ty to: (i) ensure initial onsite inspections are
performed by either USCG or MMS of each
new offshore facility, (ii) initiate enforcement

                                                                   5
SECTION I - AUDIT ACTIVITY




                             FAA'S AGING COMMUTER AIRPLANE PROGRAM WAS NOT EFFECTIVE.
                             (Report No. R7-FA-6-002)

                             OIG Findings                                        grams, and (iii) complete rulemaking to imple-
                                                                                 ment inspection requirements of the Aging
                                 FAA has not been timely in implementing         Aircraft Safety Act.
                             policy to modify or replace parts in lieu of
                             repetitive inspections, and in detecting and        Corrective Actions
                             preventing failures due to aging. Delays have
                             occurred because of: (i) disagreements over            FAA concurred with all recommendations.
                             whether to exclude general aviation aircraft,       FAA agreed to emphasize timely completion
                             (ii) low priority of aging commuter aircraft        of aging aircraft airworthiness directive and
                             issues, and (iii) rulemaking revisions to           service bulletin actions by FAA and airplane
                             address continued airworthiness of older air-       manufacturers. FAA estimated those awaiting
                             craft. As a result, the probability of future       action would be closed by March 31, 1997.
                             structural failures has increased as the com-       FAA projects publishing a NPRM during
                             muter fleet continues to age.                       FY 1997 that would require persons operating
                                                                                 certain airplanes in air transportation to
                             OIG Recommendations                                 include an approved corrosion prevention and
                                                                                 control program in their aircraft maintenance
                                To raise the priority of the Aging Com-          or inspection programs. FAAprojects publish-
                             muter Airplane Program, OIG recommended             ing a supplemental NPRM during FY 1997
                             FAA: (i) emphasize timely completion of air-        that will allow operators to perform the
                             worthiness directives and service bulletins         inspections necessary to determine continued
                             reevaluations, (ii) accelerate action to incorpo-   airworthiness.
                             rate approved corrosion prevention and con-
                             trol programs in operators' maintenance pro-



                             PROGRESS MADE IN OVERSIGHT OF AIRPORT SECURITY, BUT IMPROVEMENTS ARE
                             STILL NEEDED.
                             (Report No. R9-FA-6-014)

                             OIG Findings                                        some airport and air carrier officials. Howev-
                                                                                 er, FAA tests demonstrated some airports and
                                 The effectiveness of current FAA testing of     air carriers were not complying with access
                             airport and air carrier compliance with security    control and challenge requirements, as well as
                             requirements was significantly improved over        additional security measures imposed through
                             what OIG reported in 1993. FAA clearly iden-        Emergency Airport Security Program Amend-
                             tified testing procedures; developed realistic,     ments or Security Directives. Furthermore,
                             covert testing techniques; and established spe-     even noncreative FAA tests demonstrated pas-
                             cific testing parameters and reporting require-     senger screening checkpoints failed to detect
                             ments. In contrast, FAA's access control vali-      potential explosive devices.
                             dation inspection data cannot be relied on to
                             reflect the true compliance posture of the avia-    OIG Recommendations
                             tion community. FAA's access control inspec-
                             tion protocol did not assure special agents con-       OIG recommended the FAAAdministrator
                             sistently and aggressively tested access control    require the Office of CAS: (i) continue to
                             points, and statistical data was not always sup-    incorporate well-defined, realistic testing pro-
                             ported by special agents' narrative results.        cedures and techniques into the inspection
                             New testing procedures resulted in a height-        process and expand testing to all areas of avia-
                             ened awareness toward compliance with secu-         tion security to ensure compliance with Feder-
                             rity requirements by individual employees and       al Aviation Regulations, and Security Direc-


                                                              6
                                                                                                         SECTION I - AUDIT ACTIVITY




tives or Emergency Amendments; (ii) provide            Corrective Actions
training to special agents to ensure covert,
realistic testing techniques are consistently             FAA concurred with Recommendations 1
and aggressively used; and (iii) report the mate-      and 2, and nonconcurred with Recommenda-
rial weakness related to the failure to detect rate    tion 3. However, Recommendation 3 was
cited in this report, to the Secretary for inclusion   resolved in a July 1, 1996, meeting between
in the Secretary's annual report to the President      FAA and OIG officials, and the Director of
and Congress as required by the Federal Man-           Office of Intelligence and Security, Office of
agers' Financial Integrity Act of 1982.                the Secretary of Transportation (OST). At this
                                                       meeting, it was agreed the Secretary of Trans-
                                                       portation would notify the President, through
                                                       the President's National Security Advisor, of
                                                       the deficiencies cited in this report.



 FINANCIAL STATEMENT AUDITS
 PERFORMED UNDER THE CHIEF
 FINANCIAL OFFICERS ACT OF 1990
    The CFO Act of 1990 was passed to: (i) bring more effective general and financial management
practices to the Federal Government; (ii) improve systems of accounting, financial management,
and internal controls; and (iii) provide for the production of complete, reliable, timely, and consis-
tent financial information and reports. During this semiannual period, OIG focused the majority of
its efforts on planning and initiating reviews of significant internal accounting and administrative
control systems associated with DOT's first consolidated Departmentwide financial statement,
which will cover FY 1996. In addition, OIG issued two supplementary reports on internal control
and compliance deficiencies identified during prior financial statement audits. These two supple-
mentary reports provided additional details on eight material weaknesses in internal controls, six
other reportable internal control deficiencies, and one instance of noncompliance with applicable
laws and regulations related to the FY 1994 and FY 1995 financial statements for USCG's seven
revolving and trust funds and Research and Special Programs Administration's (RSPA) Volpe
National Transportation Systems Center (Volpe Center) Working Capital Fund (WCF). Together,
these two reports contained 38 recommendations for correcting the problems identified.


SIGNIFICANT INTERNAL CONTROL WEAKNESSES IDENTIFIED IN AUDITS OF FY
1994 AND 1995 FINANCIAL STATEMENTS STILL NEEDED CORRECTION.
(Report Nos. R3-CG-6-011 and AD-RS-6-007)

   A total of 29 recommendations were made             initiated appropriate corrective actions. How-
to correct the material weaknesses, other              ever, the information USCG provided on cor-
reportable deficiencies, and the one noncom-           recting accounts receivable and strengthening
pliance issue related to USCG's support for            controls over oil spill cleanup disbursements
inventories, accounts receivable, accounts             was not sufficient for OIG to determine
payable, and property and equipment; posting           whether the actions planned would correct
of Yard Fund transactions; controls over oil           these two internal control weaknesses.
spill cleanup disbursements; administration of         Accordingly, OIG requested USCG provide
the Cadet Fund; reconciliation of fund balance         additional information on corrective actions
with Treasury; and accounting for unrealized           intended for these two areas.
holding gains/losses associated with periodic
inventory revaluation. USCG officials gener-             OIG had previously identified material
ally agreed with OIG's recommendations and             weaknesses and other reportable internal con-


                                                                    7
SECTION I - AUDIT ACTIVITY




                             trol deficiencies involving Volpe Center's             addressed to Volpe Center and two addressed
                             accountability for property and equipment,             to OST — were made to correct these deficien-
                             depreciation of property and equipment, sup-           cies. Volpe Center and OST officials generally
                             port for unfunded annual leave, netting of             agreed with OIG's recommendations and initi-
                             assets against liabilities and revenues against        ated or planned appropriate corrective actions.
                             expenses, accrual of year-end liabilities, and         In addition, Volpe Center may be able to earn
                             note disclosures in the financial statement            interest by investing a portion of its WCF cash
                             package. Volpe Center officials had corrected          balance in U.S. Treasury securities. OIG esti-
                             all of these problems except the two material          mated Volpe Center potentially could have
                             weaknesses related to property and equipment.          earned about $3.75 million during each of the
                             Accordingly, nine recommendations — seven              last 2 years had the cash balance been invested.



                              FACILITY/REGIONAL AUDITS
                             AUDITS ADDRESSING          A   P ROBLEM    OR     CO N D I T I O N   AT A   S P E C I F I C LO C A L I T Y   OR
                             FACILITY

                             PERSONAL PROPERTY PURCHASED FOR THE CENTRAL ARTERY/THIRD HARBOR
                             TUNNEL (CA/THT) P ROJECT WAS NOT PROPERLY CONTROLLED.
                             (Report No. R2-FH-6-015)

                             OIG Findings                                           purchased for the Project, and require an Asset
                                                                                    Manager be designated to ensure property is
                                Federal Highway Administration (FHWA)               managed according to state laws and proce-
                             did not provide effective monitoring to ensure         dures. OIG also recommended Project con-
                             Massachusetts maintained proper control over           trols be strengthened for property, security,
                             personal property purchased by the consultant          and subconsultants/subcontractor inventories.
                             for Boston's CA/THT Project. As a result,              OIG recommended FHWA seek reimburse-
                             FHWA and Massachusetts were not aware                  ment for sales tax and related costs paid by the
                             $677,165 of Project property was not recorded          consultant, and future purchases be made
                             accurately, stolen items at a cost of $39,151          through the State Purchasing Agent, when pos-
                             were not properly reported, and accountability         sible, or be made using the tax-exempt status
                             was not established for more than $500,000 of          provided. Finally, OIG recommended FHWA
                             property held by subconsultants.                       not participate in the $2.6 million sales tax, if
                                                                                    it is assessed.
                                In addition, the consultant unnecessarily
                             paid about $137,000 in sales taxes and related         Corrective Actions
                             costs on purchases of 90 motor vehicles for the
                             Project. The Project also faced a potential               FHWA concurred with the recommenda-
                             $2.6 million assessment by the Massachusetts           tions concerning personal property and sales
                             Department of Revenue for sales tax on pur-            tax matters, provided Massachusetts actively
                             chases the consultant made from 1986 through           pursues legislation to make Project purchases
                             1993.                                                  exempt from state sales tax. OIG took the
                                                                                    position Massachusetts should be fully respon-
                             OIG Recommendations                                    sible for Project costs which arise solely as a
                                                                                    result of local political or economic decisions
                                OIG recommended FHWA provide effec-                 and requested FHWAensure the Federal inter-
                             tive monitoring to ensure Massachusetts main-          est is protected in regard to payment of sales
                             tains adequate control over personal property          tax for Project purchases.




                                                             8
                                                                                                         SECTION I - AUDIT ACTIVITY




TWO STATE HIGHWAY AGENCIES (SHAS) DID NOT COMPLY WITH ASPHALT
CONSTRUCTION MATERIALS TESTING REQUIREMENTS.
(Report Nos. R4-FH-6-065 and R4-FH-6-068)

OIG Findings                                          reviewed was out-of-tolerance and 42 percent
                                                      was insufficiently tested. In the second state,
    FHWAproject monitoring oversight was not          21 percent of the asphalt material reviewed was
adequate to ensure asphalt material incorporated      insufficiently tested or not tested. For the two
in Federal-aid projects by two SHAs was in rea-       states, OIG estimated $18.6 million of material
sonably close conformity with applicable speci-       was out-of-tolerance and $31.0 million of mate-
fications. In this regard, FHWAdid not perform        rial was insufficiently tested or untested.
oversight reviews of asphalt paving projects in
sufficient depth to assure: (i) asphalt materials     OIG Recommendations
were tested in accordance with approved speci-
fications, (ii) the material was in reasonably           OIG made 12 recommendations to strength-
close conformity with the specifications, and         en FHWAoversight over materials testing and
(iii) appropriate reductions in Federal-aid partic-   acceptance in the two states reviewed. These
ipation were made for the value of all out-of-tol-    recommendations dealt with the need for the
erance material incorporated in the projects.         SHAs to comply with their materials testing
                                                      specifications and to prepare documentation
    OIG concluded the Portland cement con-            certifying that project materials had been test-
crete material placed on Federal-aid highway          ed and found to be in close conformity with
projects in the two states reviewed had been          applicable specifications. OIG also included
adequately tested and was in reasonably close         recommendations to strengthen construction
conformity with applicable specifications.            project monitoring by FHWA.
However, significant quantities of the asphalt
paving material placed on Federal-aid projects        Corrective Actions
in the two states were either outside design tol-
erances set forth in FHWAapproved specifica-
                                                         FHWA agreed with the recommendations
tions or insufficiently tested and not tested to
                                                      and has taken or planned appropriate correc-
determine the extent of conformity. In one
                                                      tive actions.
state, 26 percent of the asphalt material



INEFFECTIVE GRANT MANAGEMENT AFFECTED THE CLOSEOUT OF A TERMINATED
PROJECT.
(Report No. R5-FT-6-008)

OIG Findings                                          ed Federal grant obligations available for other
                                                      eligible projects. Further, audits required by
   Excess cash drawdowns totaling $11.2 mil-          terms of the consultant’s contract had not been
lion were not recovered timely by FTA follow-         performed and overhead rates had not been
ing the termination of a major new start transit      finalized. As a result, approximately $20 mil-
project. During the initial stages of this pro-       lion of overhead costs billed by contractors
ject, FTA had allowed the grantee to draw             and claimed under the terminated project were
down a higher percentage of Federal funding           not fully supported.
than established in the full-funding grant
agreement. Federal funds were to be repaid as         OIG Recommendations
local funds became available. Although local
funds sufficient to effect the pay back were             OIG recommended FTA: (i) recover
available at the time the project was terminat-       $11.2 million excess cash drawdowns from the
ed, FTA has not taken action to recover the           grantee, (ii) take necessary steps to make
excess Federal share. In addition, FTA has not        $48.7 million not needed for this project avail-
taken action to make $48.7 million of unneed-

                                                                    9
SECTION I - AUDIT ACTIVITY




                             able for other needed projects, and (iii) require   ment of the $11.2 million in excess draw
                             the grantee to obtain audits and finalize over-     down. FTA advised that it might actually be
                             head rates billed by contractors.                   liable for up to 80 percent of project costs.
                                                                                 FTA has a contract, in the form of a full-fund-
                             Corrective Actions                                  ing grant, with the city explicitly limiting Fed-
                                                                                 eral funding to 33 1/3 percent. If FTA does not
                                FTAstated it has required the city to obtain     strictly enforce the terms of its full-funding
                             audits of its consultants for the purpose of        grant, and limit the Federal share to 33 1/3 per-
                             finalizing overhead rates, and it will eventual-    cent, it can be precedent-setting and destroy
                             ly deobligate unneeded funds. FTA stated it         Federal protection on all existing and future
                             had not yet made a decision regarding recoup-       full-funding grants.



                             FAA DID NOT ENSURE THE STATE OF HAWAII DEPARTMENT OF TRANSPORTATION
                             (HDOT) COMPLIED WITH AIRPORT IMPROVEMENT PROGRAM (AIP) GRANT
                             REQUIREMENTS.
                             (Report No. R9-FA-6-015)

                             OIG Findings                                        FAA requires HDOT to comply with 49 Unit-
                                                                                 ed States Code (U.S.C.) Section 47107(b) and
                                 FAA Western-Pacific Region, Airports            use airport revenues only for airport purposes.
                             Division (region) did not: (i) ensure only eli-
                             gible costs were included in AIP grants,            OIG Recommendations
                             (ii) follow up on single audit findings, or
                             (iii) monitor the use of airport generated rev-         OIG recommended FAA: (i) recover about
                             enues. The region relied on their original pro-     $3 million for ineligible cost reimbursements;
                             ject eligibility cost determinations and sponsor    (ii) ensure only eligible projects receive AIP
                             self-certifications, single audits, and third-      funds; (iii) follow up on single audit findings;
                             party complaints. FAA did not follow up on          (iv) ensure HDOT Airports Division is reim-
                             single audit findings because FAAdid not con-       bursed $29.9 million for airport payments to
                             sider them material. As a result, FAA reim-         OHA and lost interest, as well as $6.5 million for
                             bursed HDOT $3 million in ineligible AIPpro-        sponsor occupied airport property; (v) review the
                             ject costs. In addition, HDOT Airports              Hana Highway widening and the new access
                             Division lost: (i) $28.2 million through pay-       road at Kahului Airport to ensure airport rev-
                             ments to the Office of Hawaiian Affairs             enues are recovered if necessary; (vi) ensure air-
                             (OHA) for which no airport-related services         port revenues are used only for airport purposes;
                             were provided, plus $1.7 million in lost inter-     and (vii) ensure the sponsor pays market rental
                             est as of June 30, 1995; (ii) $6.5 million from     rates for use of airport property.
                             now reimbursed sponsor use of airport proper-
                             ty; and (iii) $14.5 million through nonairport      Corrective Actions
                             related activities on the Hana Highway widen-
                             ing and on new access road and interchange
                                                                                    FAA did not provide a reply to our June 6,
                             projects at Kahului Airport. HDOT will con-
                                                                                 1996, draft report. Therefore, OIG has request-
                             tinue to lose about $9.2 million annually until
                                                                                 ed a reply to this final report.




                                                              10
                                                                                                     SECTION I - AUDIT ACTIVITY




E. MANAGEMENT DECISIONS                          vide statistical summaries of management
                                                 decisions on OIG reports. Included in these
   1. Background                                 tables are the number of reports, recommenda-
   Section 5 of the IG Act of 1978 requires an   tions, and dollar value of recommendations
identification of each significant recommenda-   reported for which:
tion described in previous semiannual reports
on which corrective actions have not been            •	   no management decision had been
completed. The IG Act Amendments of 1988,                 made by the commencement of the
P.L. 100-504, established new requirements to             reporting period;
report recommendations. The term “manage-
ment decision” means the evaluation by man-          •	   a management decision was made
agement of the finding and recommendation,                during the period, including: (i) the
including actions concluded to be necessary.              dollar value of agreed to or disal-
Section 5 of the Act was amended to require               lowed costs, and (ii) the dollar value
statistical tables on the status of management            of costs not agreed to or disallowed;
decisions, a summary of audit reports over                and
6 months old for which no management deci-
sion was made, a description of, and reasons         •	   no management decision had been
for, any significant revised management deci-             made by the end of the reporting period.
sions, and information on any significant man-
agement decision with which the IG is in dis-       In addition, although not required by the
agreement.                                       Act, Table 5 is included to show management
                                                 decisions for reports that recommended proce-
  2. Status of Management Decisions              dural improvements.
  Tables 2, 3, and 4 are required by P.L. 100-
504 (Section 5(a)(9) of the IG Act) and pro-




                                                              11
SECTION I - AUDIT ACTIVITY



                                                                Table 2
                             Inspector General Issued Reports With Recommendations That Questioned Costs
                                                         (Dollars in Thousands)

                                                               Number of                 Number of                  Questioned       Unsupported*
                                                                Reports               Recommendations                 Costs             Costs

 A.     For which no management decision had
        been made by the commencement of the
        reporting period                                            93                       109                      $134,397        ($14,554)

 B.     Which were issued during the reporting period               29                        36                        37,110         (20,243)
            TOTALS (A+B)                                           122                       145                      $171,507        ($34,797)

 C.     For which a management decision was made
        during the reporting period                                 40                        58                       $32,272         ($3,043)
             (i) dollar value of disallowed costs                   27**                      35***                    $19,040****     ($1,941)****
             (ii) dollar value of costs not disallowed              21**                      31***                    $13,381         ($1,237)

 D.     For which no management decision has been
        made by the end of the reporting period                     82                        87                      $139,235        ($31,754)

 *      Unsupported costs are also included in the figures shown as questioned costs.
 **     Includes reports where costs were both allowed and disallowed.
 ***    Includes recommendations where costs were both allowed and disallowed.
 ****   Management agreed to disallow costs in excess of the finding amount by $149,000 questioned and $135,000 unsupported.




                                                              Table 3
                      Inspector General Issued Reports With Recommendations That Funds Be Put To Better Use*

                                                                                       Number of                  Number of              Dollar Value
                                                                                         Reports               Recommendations          (in Thousands)

 A.     For which no management decision had
        been made by the commencement of the
        reporting period                                                                     13                         18               $369,674

 B.     Which were issued during the reporting period                                         3                          5                 $98,900
            TOTALS (A+B)                                                                     16                         23                $468,574

 C.     For which a management decision was made
        during the reporting period                                                           8                          6               $319,083
             (i) dollar value of recommendations that
                  were agreed to by management
                  – based on proposed management action                                       5**                        5**             $288,788
                  – based on proposed legislative action                                      0                          0                      0
             (ii) dollar value of recommendations that
                  were not agreed to by management                                            5**                        3**               $30,295

 D.     For which no management decision has been
        made by the end of the reporting period                                               8                         17               $149,491

 *      Does not include contractor proposal audits (see Table 4).
 **     Includes reports and recommendations where some costs were allowed and other costs were disallowed.




                                                                                12

                                                                                                                      SECTION I - AUDIT ACTIVITY



                                                               Table 4
                                    Inspector General Issued Reports of Contractor Proposal Audits

                                                                     Number of                     Number of             Dollar Value
                                                                      Reports                   Recommendations        (in Thousands)

A.   For which no management decision had been made
     by the commencement of the reporting period                        184                           228                $120,679

B.   Which were issued during
     the reporting period                                                37*                           48                 $27,655
           TOTALS (A+B)                                                 221                           276                $148,334

C.   For which a management decision
     was made during the reporting period                                 53                           73                 $53,252
          (i) dollar value of recommendations
                that were agreed to by management                         24**                         30***                  8,288****
          (ii) dollar value of recommendations
                that were not agreed to by management                     19**                         21***               19,835
          (iii) dollar value of unsuccessful bidders                      20                           30                  25,496

D.   For which no management decision has been
     made by the end of the reporting period
          Aging Unresolved Audits
              Less Than 6 Months Old                                     32                            40                 $26,396
              Between 6 Months and 1 Year                                19                            21                  10,369
              Between 1 Year and 18 Months                               42                            48                  15,570
              Between 18 Months and 2 Years                              53                            70                  31,070
              Over 2 Years                                               22                            24                  11,677
                   TOTALS                                               168                           203                 $95,082

*   Does not include reports that had no recommendations.
** Includes seven reports that had recommendations agreed to and not agreed to by management.
*** Includes seven recommendations where costs were both allowed and disallowed.
****Management agreed to disallow costs in excess of the finding amount by $367,000.




                                                              Table 5
                                 Inspector General Issued Reports With Procedural Recommendations

                                                                                          Number of                  Number of
                                                                                           Reports                Recommendations

A.   For which no management decision had been made
     by the commencement of the reporting period                                                74                      140

B.   Which were issued during the reporting period                                               39                     137
         TOTALS (A+B)                                                                           113                     277

C.   For which a management decision was made
     during the reporting period                                                                50                      173
          By Type of Audit
               – Internal Audits                                                                26                      140
               – Grant Audits                                                                    4                        8
               – Contract Audits                                                                20                       25

D.   For which no management decision has been made
     by the end of the reporting period                                                         63                      104
          By Type of Audit
               – Internal Audits                                                                17                       58
               – Grant Audits                                                                    1                        2
               – Contract Audits                                                                45                       44


                                                                           13

SECTION I - AUDIT ACTIVITY




    3. Summary of Departmental Efforts
    Departmental Order 8000.1C prescribes uniform definitions, requirements, and procedures for processing and resolving audit find-
ings and recommendations. It includes specific procedures for referring unresolved issues to the next higher organizational level and
to the Secretary, when necessary.

   Table 6 summarizes management decisions made during the past 6 months to resolve audit reports.


                                                               Table 6
                              Summary of Inspector General Issued Audit Reports With Recommendations
                                                       (Dollars in Thousands)

                                                      Number of           Number of              Questioned            Unsupported   Funds To Be Put
 Description                                           Reports         Recommendations             Costs                 Costs*       To Better Use

 Unresolved as of 3/31/96                                152                   268                $134,397             ($14,554)        $369,674
 Audits with Findings During Current Period               64                   178                  37,110              (20,243)          98,900
     Total to be Resolved                                216                   446                $171,507              $34,797         $468,574

 Management Decisions During Current Period
     Audits Prior Period                                  55                   114                  $21,575             ($3,000)        $319,083
    Audits Current Period                                 31                   124                   10,697                 (43)               0
    Total Resolved Reports/Recommendations                86                   238                  $32,272             ($3,043)        $319,083

 Unresolved as of 9/30/96**                              130                   208                $139,235             ($31,754)        $149,491

 Aging of Unresolved Audits
     Less Than 6 Months Old                               33                    54                 $26,412             ($20,200)         $98,900
     Between 6 Months and 1 Year                          33                    63                  16,016               (5,092)          30,963
     Between 1 Year and 18 Months                         17                    21                  35,491                   (0)           9,100
     Between 18 Months and 2 Years                        13                    15                  17,664                   (0)               0
     Over 2 Years Old                                     34                    55                  43,652               (6,462)          10,528
          TOTALS                                         130                   208                $139,235             ($31,754)        $149,491

 *    Unsupported costs are also included with the figure shown as questioned costs.
 **   Areport is considered unresolved if management decisions have not been made on all the report recommendations.



   4. Status of Unresolved Audit Recommendations Over 6 Months Old
   a. Background
   Section 5(a)(10) of the IG Act, as amended, requires a summary of each audit report issued before the start of this semiannual
reporting period for which no management decision had been made by the end of the period, including the date and title of each report
and an explanation of the reasons the management decisions were not made.

   b. Internal, Grantee, and Contractor Cost Audit Reports
   Identified in the following schedule are audits from previous semiannual reports containing findings and recommendations that
required further action as of the end of this reporting period. To facilitate referencing these "open" items to the previous reports, the
schedule identifies the applicable semiannual reports. In accordance with P.L. 100-504, IG Act Amendments of 1988, the current sta-
tus of management action regarding resolution of these reports is also shown.




                                                                              14
                                                                                                   SECTION I - AUDIT ACTIVITY




                                            STATUS OF UNRESOLVED AUDIT
                                        RECOMMENDATIONS OVER 6 MONTHS OLD

REPORT TITLE                         REPORT NUMBER        REPORT DATE    RESOLUTION STATUS

                                     SEMIANNUALAPRIL 1, 1989-SEPTEMBER 30, 1989
FHWA-Emergency Relief Program               R0-FH-9-095      06/29/89	   FHWAdisagreed with General Counsel
                                                                         opinions and provided additional information.


                                     SEMIANNUALAPRIL 1, 1990-SEPTEMBER 30, 1990
FTA-Boeing Aerospace & Electronics          UX-UM-0-106      06/18/90    Awaiting DCAAto complete audit of the
(Interim Closing Statement)                                              subcontractor's costs.


                                   SEMIANNUAL OCTOBER 31, 1992-MARCH 31, 1993
USCG-Neal & Company, Inc.                   UK-CG-3-176      02/26/93    In litigation process.

(Equitable Adjustment)

FTA-CRSS Constructors, Inc.                 UX-FT-3-210      03/11/93    Awaiting response from the contractor.

(Closing Statement)



                                     SEMIANNUALAPRIL 1, 1993-SEPTEMBER 30, 1993
FRA-Association of American Railroads       UX-FR-3-464      09/17/93    In contract negotiation process.

(Indirect Rates FY1990 FR-93-010A)

FAA-City of Clinton                         UX-FA-3-428      08/20/93    In contract negotiation process.

(Incurred Costs FYs 1990-1992)



                                     SEMIANNUAL OCTOBER 1, 1993-MARCH 31, 1994
FRA-Association of American Railroads       UX-FR-4-029      10/22/93    In contract negotiation process.

(Indirect Rates FY1992 FR-93-010C)

FRA-Association of American Railroads       UX-FR-4-084      12/01/93    In contract negotiation process.

(Indirect Rates FY1989 FR-93-010S)

FAA-Certification and Surveillance of       R4-FA-4-009      03/07/94    This report was referred to the Departmental

Domestic and Foreign Repair Stations                                     Resolution Official in February 1995.

FAA-Monitoring of Airport Revenues at the   R9-FA-4-001      10/18/93    This report was referred to the Departmental

Phoenix Sky Harbor International Airport                                 Resolution Official in June 1994.

FAA-CTA, Inc.                               UK-FA-4-044      10/22/93    In contract negotiation process.

(Proposed Rates)

FAA-AT&TCompany                             UK-FA-4-167      02/23/94    In contract negotiation process.

(Progress Payment No. 1)

FAA-Kendrick & Company                      UK-FA-4-202      03/18/94    In contract negotiation process.

(Voucher No. 87)

FAA-Westinghouse Electric Corporation       UK-FA-4-224      03/30/94    In contract negotiation process.

(Equitable Adjustment)

FAA-Galaxy Scientific Corporation           UX-FA-4-027      10/22/93    In contract negotiation process.

(Incurred Costs FY1990)

FAA-Science Applications International      UX-FA-4-043      10/22/93    In contract negotiation process.

Corporation (Proposed Rates)

FRA-Association of American Railroads       UX-FR-4-002      10/22/93    In contract negotiation process.

(Incurred Costs FY1991)

FTA-The Pennsylvania State University       UX-FT-4-183      03/18/94    In contract negotiation process.

(Incurred Costs 07/92 to 10/93)





                                                           15
SECTION I - AUDIT ACTIVITY




                                    SEMIANNUALAPRIL 1, 1994-SEPTEMBER 30, 1994
 USCG-Jamestown Marine Services, Inc.         UK-CG-4-338    07/29/94   In contract negotiation process.

 (Accounting System CG-94-585A)

 USCG-Vibtech, Inc.                           UK-CG-4-339    07/29/94   In contract negotiation process.

 (Accounting System CG-94-584A)

 (Change Order No. 66 FA-94-1526A)

 FAA-Unisys Corporation                       UK-FA-4-314    07/01/94   In contract negotiation process.

 (Change Order No. FA-94-558)

 FAA-Raytheon Company                         UK-FA-4-323    07/01/94   In contract negotiation process.

 (Change Order)

 FAA-TRW, Inc.                                UK-FA-4-345    07/29/94   In contract negotiation process.

 (Incurred Costs FA-94-814)

 FAA-Westinghouse Norden Systems              UK-FA-4-374    09/09/94   In contract negotiation process.

 (Equitable Adjustment Proposal FA-94-559)

 FAA-Flight Technical Programs, Inc.          UK-FA-4-422    09/23/94   In contract negotiation process.

 (Accounting System FA-94-579A)

 FAA-Imatron Federal Systems, Inc.            UX-FA-4-210    05/09/94   In contract negotiation process.

 (Incurred Costs FA-94-097)

 FAA-Data Transformation Corporation          UX-FA-4-216    05/09/94   In contract negotiation process.

 (Incurred Costs CYs 1987-1988)

 FAA-Interpacific Technologies, Inc.          UX-FA-4-238    05/20/94   In contract negotiation process.

 (Accounting System FA-94-048A)

 FAA-Data Transformation Corporation          UX-FA-4-272    06/17/94   In contract negotiation process.

 (Incurred Costs CY1989)

 FHWA-Computer Communications and             UX-FH-4-227    05/09/94   In contract negotiation process.

 Graphics (Final Voucher No. 63 FH-93-022)

 FHWA-Randolph & Company, Inc.                UX-FH-4-319    09/09/94   In contract negotiation process.

 (Equitable Adjustment FH-94-051)

 FHWA-S.A. Healy/Lodigiani,                   UX-FH-4-323    09/09/94   In litigation process.

 USAJoint Venture

 (Equitable Adjustment)

 FTA-Charles River Associates                 UX-FT-4-275    06/17/94   In contract negotiation process.

 (Incurred Costs FY1989 UM-89-020A)

 FAA-RMS Technologies, Inc.                   UX-FA-4-224    05/09/94   In contract negotiation process.

 (Incurred Costs FY1989 FA-90-031)



                                     SEMIANNUAL OCTOBER 1, 1994-MARCH 31, 1995
 FAA-Monitoring of Accountability and         R9-FA-5-005    03/21/95   This report was referred to the Departmental

 Use of Airport Revenues                                                Resolution Official in August 1996.

 McCarran International Airport

 FAA-Digital Equipment Corporation            UK-FA-5-010    10/14/94   In contract negotiation process.

 (Exemption Claim)

 FAA-World Computer Systems                   UK-FA-5-028    10/28/94   In contract negotiation process.

 (Final Incurred Costs FYs 1992-1993)

 FAA-E-Systems, Inc.                          UK-FA-5-199    03/29/95   In contract negotiation process.

 (Termination Settlement)

 FAA-Wilcox Electric, Inc.                    UK-FA-5-205    03/29/95   In contract negotiation process.

 (Termination Vouchers 35 Through 41)

 FAA-Wilcox Electric, Inc.                    UK-FA-5-206    03/29/95   In contract negotiation process.

 (Termination Voucher 31)

 FAA-RMS Technologies, Inc.                   UX-FA-5-058    12/16/94   In contract negotiation process.

 (Closing Statement)

 FRA-Association of American Railroads        UX-FR-5-087    12/30/94   In contract negotiation process.

 (Termination Settlement)

 MARAD-Norfolk Shipbuilding & Drydock         UX-MA-5-034    11/11/94   In litigation process.

 Corporation

 (Equitable Adjustment Claim MA-94-016)

 MARAD-Norfolk Shipbuilding & Drydock         UX-MA-5-035    11/11/94   In litigation process.

 Corporation

 (Equitable Adjustment Claim MA-94-016A)

 FAA-Wilcox Electric, Inc.                    UK-FA-5-030    10/28/94   In contract negotiation process.

 (Change Order)

 FAA-Unisys Corporation                       UK-FA-5-065    11/25/94   In contract negotiation process.

 (Modification No. 0053)



                                                            16
                                                                                            SECTION I - AUDIT ACTIVITY




FAA-GTE Government Systems                 UK-FA-5-202      03/29/95   In contract negotiation process.
(Change Proposal Modification No. 41)


                                   SEMIANNUALAPRIL 1, 1995-SEPTEMBER 30, 1995
FHWA-Industry Drug Testing Program         AS-FH-5-016      04/27/95   This report was referred to the Departmental
                                                                       Resolution Official in October 1995.
FTA-Useful Life of RailCars Washington       R4-FT-5-091    06/27/95   This report was referred to the Departmental
Metropolitan Area Transit Authority opinion.                           Resolution Official in August 1996.
FTA-Administration of Capital Grants         R4-FT-5-106    07/11/95   This report was referred to the Departmental
Metro Atlanta Rapid Transit Authority                                  Resolution Official in January 1996.
FAA-Limited Review of the State of           R9-FA-5-007    04/28/95   This report was referred to the Departmental
Hawaii Department of Transportation                                    Resolution Official in October 1995.
Use of Airport Revenues
FAA-Accountability and Use of Airport        R9-FA-5-015    09/14/95   This report was referred to the Departmental
Revenues Burbank-Glendale-Pasadena Airport                             Resolution Official in August 1996.
USCG-D.H. Lloyd & Associates, Inc.           UK-CG-5-262    09/14/95   In contract negotiation process.
(Accounting System CG-95-591)
USCG-University of Connecticut               UK-CG-5-284    06/30/95   In contract negotiation process.
(Change Order No. 9 FA-95-565)
FAA-Communications International, Inc.       UK-FA-5-226    04/28/95   In contract negotiation process.
(Termination Settlement FA-94-824)
FAA-Wilcox Electric, Inc.                    UK-FA-5-286    06/30/95   In contract negotiation process.
(Termination Settlement FA-95-809B)
FAA-SEB Sensitive                            UK-FA-5-353    08/25/95   In contract negotiation process.
(Estimating System Review)
FAA-Atlantic Science & Technology            UX-FA-5-183    05/12/95   In contract negotiation process.
Corporation (Vouchers FA-95-045)
FHWA-Law Engineering, Inc.                   UX-FH-5-174    04/28/95   In contract negotiation process.
(Incurred Cost FY1993)
FHWA-Law Engineering, Inc.                   UX-FH-5-198    05/12/95   In contract negotiation process.
(Incurred Cost FY1994)
FHWA-The Scientex Corporation                UX-FH-5-254    06/30/95   In contract negotiation process.
(Incurred Costs FYs 1989-1990)
FRA-Compuchem Laboratories, Inc.             UX-FR-5-175    04/28/95   In contract negotiation process.
(Accounting System FR-95-004)
FAA-Electronic Space Systems Corporation UK-FA-5-238        04/28/95   In contract negotiation process.
(Change Order Proposals FA-95-540)
FAA-Systems Corporation                      UK-FA-5-340    08/11/95   In contract negotiation process.
(Indirect Rate Increase FA-95-914)


                                    SEMIANNUAL OCTOBER 1, 1995-MARCH 31, 1996
FAA-Controls over Access to Aircraft for   AS-FA-6-004      02/20/96   This report was referred to the Departmental
Free Transportation                                                    Resolution Official in August 1996.
FTA-Useful Life of Railcars Summary Report R4-FT-6-027      03/19/96   This Report was referred to the Departmental
                                                                       Resolution Official in August 1996.
FAA-Use of Airport Revenues Stapleton      R6-FT-6-006      02/08/96   This Report was referred to the Departmental
International Airport                                                  Resolution Official in August 1996.
FAA-Voluntary Separation Incentive PaymentsR6-FA-6-009      02/09/96   Awaiting FAA's investigation
                                                                       and U.S. Attorney action.
FAA-Monitoring Accountability and Use of   R9-FA-6-001      10/30/95   This Report was referred to the Departmental
Airport Revenues Los Angeles                                           Resolution Official in August 1996.
FAA-Advisory Memorandum on Santa Ynez      R9-FA-6-003      12/06/95   This report was referred to the Departmental
Valley Airport Hotline                                                 Resolution Official in August 1996.
FAA-Advisory Memorandum on                 R9-FA-6-009      03/14/96   This report was referred to the Departmental
Buchanan Field                                                         Resolution Official in August 1996.
USCG-J. Kokolakis Contracting, Inc.        UK-CG-6-042      12/29/95   In contract negotiation process.
(Delay Claim CG-95-595)
USCG-J. Kokolakis Contracting, Inc.        UK-CG-6-054      02/09/96   In contract negotiation process.
(Equitable Adjustment CG-95-595A)
FAA-W.P. Dolan & Associates, Inc.          UK-FA-6-001      10/13/95   In contract negotiation process.
(Incurred Costs FY1989 FA-94-817A)
FAA-W.P. Dolan & Associates, Inc.          UK-FA-6-002      10/13/95   In contract negotiation process.
(Incurred Costs FY1990 FA-94-817B)


                                                           17
SECTION I - AUDIT ACTIVITY




 FAA-W.P. Dolan & Associates, Inc.           UK-FA-6-003    10/13/95   In contract negotiation process.

 (Incurred Costs FY1991 FA-94-817C)

 FAA-W.P. Dolan & Associates, Inc.           UK-FA-6-004    10/13/95   In contract negotiation process.

 (Incurred Costs FY1992 FA-94-817D)

 FAA-W.P. Dolan & Associates, Inc.           UK-FA-6-005    10/13/95   In contract negotiation process.

 (Incurred Costs FA-94-817)

 FAA-Kendrick & Company                      UK-FA-6-008    10/13/95   In contract negotiation process.

 (Incurred Costs FY1991 FA-94-800)

 FAA-System Management America              UK-FA-6-020     10/13/95   In contract negotiation process.

 Corporation

 (Incurred Costs FY1991 FA-94-825B)

 FAA-Martin Marietta Air Traffic Systems     UK-FA-6-021    10/13/95   In contract negotiation process.

 (Final Incurred Costs CY1991)

 FAA-Sequent Computer Systems, Inc.          UK-FA-6-027    11/10/95   In contract negotiation process.

 (Exemption Claim FA-95-569A)

 FAA-Raytheon Electronic Systems            UK-FA-6-041     12/15/95   In contract negotiation process.

 (Termination Settlement FA-95-1529)

 FAA-Martin Marietta Air Traffic Systems     UK-FA-6-046    12/29/95   In contract negotiation process.

 (Supplement FYs 1984-1989 Incurred Costs)

 FAA-Loral Defense Systems                  UK-FA-6-056     02/09/96   In contract negotiation process.

 (Overhead Rates 1995 FA-95-1501A)

 FAA-FWK, Inc.                               UX-FA-6-065    02/09/96   In contract negotiation process.

 (Incurred Costs FY1993 FA-95-024)

 FAA-VECO, Inc.                              UX-FA-6-077    03/08/96   In contract negotiation process.

 (Equitable Adjustment FA-95-066)

 FRA-DeLeuw, Cather & Co.                   UX-FR-6-053     01/12/96   In contract negotiation process.

 (Closing Statement Task Order T001)

 FRA-DeLeuw, Cather & Co.                    UX-FR-6-058    01/26/96   In contract negotiation process.

 (Direct Labor & Overhead Rates FR-95-007B)

 FTA-Marlaw System Technology, Inc.          UX-FT-6-015    10/13/96   In contract negotiation process.

 (Preaward Accounting System FT-95-015)

 MARAD-Eastern Technical Enterprises, Inc. UX-MA-6-024      11/10/95   In contract negotiation process.

 (Verification of Invoices MA-95-009B)

 MARAD-Eastern Technical Enterprises, Inc. UX-MA-6-028      11/24/95   In contract negotiation process.

 (Equitable Adjustment MA-95-009)

 MARAD-Marine Coating, Inc.                  UX-MA-6-048    12/29/95   In contract negotiation process.

 (Equitable Adjustment MA-95-012B)

 MARAD-Apex Marine Corporation               UX-MA-6-083    03/08/96   In contract negotiation process.

 (Termination Settlement MA-96-013)

 MARAD-Apex Marine Corporation               UX-MA-6-084    03/08/96   In contract negotiation process.

 (Termination Settlement MA-96-013A)

 RSPA-Jack Faucett Associates               UX-RS-6-031     11/24/95   In contract negotiation process.

 (Incurred Costs FYs 1988-1992 TS-89-066)

 FAA-Swanson General Contractors, Inc.       UX-FA-6-072    02/23/96   In contract negotiation process.

 (Change Order No. 003 FA-96-016)





                                                           18
                                                                                                                 SECTION I - AUDIT ACTIVITY




   c. Contract Proposal Audits
   Identified in the following schedule are the contract proposal audits from previous semiannual reports containing recommendations
that required further action at the end of this reporting period. Each report is referenced to the OA involved and the applicable prior
semiannual report. These audits are being used in procurement negotiations. In accordance with DOT Order 8000.1C, the OAs must
notify OIG within 60 days from contract award on the actions taken on proposal audit report recommendations.


                                           STATUS OF UNRESOLVED AUDIT
                                       RECOMMENDATIONS OVER 6 MONTHS OLD

 REPORT TITLE                       REPORT NUMBER             REPORT DATE                  RESOLUTION STATUS

                                    SEMIANNUAL OCTOBER 1, 1993-MARCH 31, 1994
 FAA-Norden Systems, Inc.                    UK-FA-4-141               02/24/94            In contract negotiation process.

 (Proposal)

 FAA-Research Management Consultants, Inc.   UK-FA-4-164               02/23/94            In contract negotiation process.

 (Proposal)

 FAA-Rates Concept Automation, Inc.          UK-FA-4-198               03/18/94            In contract negotiation process.

 (Proposal)

 FAA-Robotics Vision Systems, Inc.           UX-FA-4-172               03/18/94            In contract negotiation process.

 (Proposed Rates)

 FHWA-EISC, Inc.                             UX-FH-4-106               12/06/93            In contract negotiation process.

 (Proposal)



                                    SEMIANNUALAPRIL 1, 1994-SEPTEMBER 30, 1994
 USCG-M. Rosenblatt & Son, Inc.                 UK-CG-4-241            04/29/94            In contract negotiation process.

 (Proposed Rate)

 USCG-PRC, Inc.                                 UK-CG-4-255            05/20/94            In contract negotiation process.

 (Proposed Rate)

 USCG-Telephone Utilities of the Northland, Inc.UK-CG-4-273            05/20/94            In contract negotiation process.

 (Proposal)

 USCG-General Electric Company                  UK-CG-4-309            06/17/94            In contract negotiation process.

 (Proposal)

 USCG-Jamestown Marine Services, Inc.           UK-CG-4-337            07/29/94            In contract negotiation process.

 (Proposal)

 USCG-Allen's Landscaping Materials, Inc.       UK-CG-4-370            09/09/94            In contract negotiation process.

 (Proposal)

 USCG-Texas Instruments, Inc.                   UK-CG-4-373            09/09/94            In contract negotiation process.

 (Proposal)

 USCG-Sikorsky Support Services, Inc.           UK-CG-4-391            09/09/94            In contract negotiation process.

 (Proposal)

 USCG-Pro-Tech Security Network                 UK-CG-4-394            09/09/94            In contract negotiation process.

 (Proposal)

 FAA-Norden Systems, Inc.                       UK-FA-4-245            05/09/94            In contract negotiation process.

 (Proposal)

 FAA-Westinghouse Electric Corporation          UK-FA-4-270            05/20/94            In contract negotiation process.

 (Proposal)

 FAA-Exide Electronics Corporation              UK-FA-4-285            06/17/94            In contract negotiation process.

 (Proposal)

 FAA-Sinclair Radio Laboratories, Inc.          UK-FA-4-308            06/16/94            In contract negotiation process.

 (Proposal)

 FAA-AT&TCorporation                            UK-FA-4-324            07/01/94            In contract negotiation process.

 (Proposal)

 FAA-Sun Microsystems Federal, Inc.             UK-FA-4-355            08/12/94            In contract negotiation process.

 (Claim for Exemption)

 FAA-Imatron Federal Systems, Inc.              UX-FA-4-283            07/01/94            In contract negotiation process.

 (Proposal)

 FAA-Nichols Research Corporation               UX-FA-4-313            09/09/94            In contract negotiation process.

 (Proposal)





                                                                  19
SECTION I - AUDIT ACTIVITY




                                  SEMIANNUAL OCTOBER 1, 1994-MARCH 31, 1995
 USCG-Sulzer Escjer-Wyss                  UK-CG-5-004        10/14/94   In contract negotiation process.

 (Proposal)

 USCG-M&C Cumberland, Inc.                UK-CG-5-007        10/14/94   In contract negotiation process.

 (Proposal)

 USCG-Miller-Stephenson & Associates PC   UK-CG-5-032        11/11/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-045        11/25/95   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-073        12/16/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-074        12/16/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-075        12/16/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-077        12/16/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-078        12/16/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-079        12/16/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-080        12/16/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-105        12/16/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-107        12/30/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-108        12/30/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-109        12/30/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-110        12/30/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-111        12/30/94   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-114        12/30/94   In contract negotiation process.

 (Proposal)

 USCG-AlliedSignal, Inc.                  UK-CG-5-123        01/13/95   In contract negotiation process.

 (Proposal)

 USCG-National Association                UK-CG-5-125        01/13/95   In contract negotiation process.

 For Equal Opportunity

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-129        01/13/95   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-130        01/13/95   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-134        01/27/95   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-135        01/27/95   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-136        01/27/95   In contract negotiation process.

 (Proposal)

 USCG-Coe Truman Technologies, Inc.       UK-CG-5-137        01/27/95   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-139        01/27/95   In contract negotiation process.

 (Proposal)

 USCG-Sikorsky Aircraft Corporation       UK-CG-5-140        01/27/95   In contract negotiation process.

 (Proposal)

 USCG-AGI Technologies                    UK-CG-5-141        01/27/95   In contract negotiation process.

 (Proposal)

 USCG-Raytheon Marine Company             UK-CG-5-142        01/27/95   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-145        02/10/95   In contract negotiation process.

 (Proposal)

 USCG-SEB Sensitive                       UK-CG-5-152        02/10/95   In contract negotiation process.

 (Proposal)




                                                        20
                                                                                             SECTION I - AUDIT ACTIVITY




USCG-SEB Sensitive                       UK-CG-5-153         02/10/95   In contract negotiation process.

(Proposal)

USCG-Pacer Systems, Inc.                 UK-CG-5-165         03/17/95   In contract negotiation process.

(Proposal)

USCG-Microsystems Integration, Inc.      UK-CG-5-166         03/17/95   In contract negotiation process.

(Proposal)

USCG-GEC Associates, Inc.                UK-CG-5-170         03/17/95   In contract negotiation process.

(Proposal)

USCG-Mariner Engineering, Inc.           UK-CG-5-171         03/17/95   In contract negotiation process.

(Proposal)

USCG-AlliedSignal, Inc.                  UK-CG-5-184         03/17/95   In contract negotiation process.

(Proposal)

FAA-GTE Government Systems Corporation   UK-FA-5-027         10/28/94   In contract negotiation process.

(Proposal)

FAA-Unisys Corporation                   UK-FA-5-042         11/11/94   In contract negotiation process.

(Proposal)

FAA-SEB Sensitive                        UK-FA-5-054         11/25/94   In contract negotiation process.

(Proposal)

FAA-SEB Sensitive                        UK-FA-5-057         11/25/94   In contract negotiation process.

(Proposal)

FAA-SEB Sensitive                        UK-FA-5-058         11/25/94   In contract negotiation process.

(Proposal)

FAA-Aeronautical Radio, Inc.             UK-FA-5-064         11/25/94   In contract negotiation process.

(Proposal)

FAA-RMS Technologies, Inc.               UK-FA-5-083         12/16/94   In contract negotiation process.

(Proposal)

FAA-Westinghouse Norden Systems          UK-FA-5-096         12/16/94   In contract negotiation process.

(Proposal)

FAA-SEB Sensitive                        UK-FA-5-100         12/16/94   In contract negotiation process.

(Proposal)

FAA-SEB Sensitive                        UK-FA-5-104         12/16/94   In contract negotiation process.

(Proposed Rates)

FAA-Harris Corporation                   UK-FA-5-148         02/10/95   In contract negotiation process.

(Proposal)

FAA-Westinghouse Electric Corporation    UK-FA-5-175         03/17/95   In contract negotiation process.

(Proposal)

FAA-Martin Marietta Information Group    UK-FA-5-183         03/17/95   In contract negotiation process.

(Proposal)

FAA-Invision Technologies, Inc.          UX-FA-5-149         03/29/95   In contract negotiation process.

(Proposal)

FHWA-Teledyne Brown Engineering          UX-FH-5-100         01/27/95   In contract negotiation process.

(Proposal)



                                    SEMIANNUALAPRIL 1, 1995-SEPTEMBER 30, 1995
USCG-Maden Tech Consulting, Inc.         UK-CG-5-196         04/14/95   In contract negotiation process.

(Proposed Rates CG-95-563)

USCG-SEB Sensitive                       UK-CG-5-219         04/28/95   In contract negotiation process.

(Proposal CG-95-566)

USCG-Tryck Nyman Hayes, Inc.             UK-CG-5-221         04/28/95   In contract negotiation process.

(Proposed Rates CG-95-579)

USCG-Ship Analytics USA, Inc.            UK-CG-5-231         04/28/95   In contract negotiation process.

(Proposal CG-95-572)

USCG-Shannon & Wilson, Inc.              UK-CG-5-233         04/28/95   In contract negotiation process.

(Proposed Rates CG-95-580/581)

USCG-Security USA, Inc.                  UK-CG-5-241         04/28/95   In contract negotiation process.

(Proposal CG-95-574)

USCG-RMS Technologies, Inc.              UK-CG-5-253         05/12/95   In contract negotiation process.

(Proposal CG-95-576)

USCG-Delorenzo, Inc.                     UK-CG-5-255         05/12/95   In contract negotiation process.

(Proposed Rates CG-95-589)

USCG-Scientific Marine Services, Inc.    UK-CG-5-260         05/12/95   In contract negotiation process.

(Proposal CG-95-585)

USCG-AlliedSignal Aerospace              UK-CG-5-275         06/16/85   In contract negotiation process.

(Proposed Rates CG-95-593)





                                                        21
SECTION I - AUDIT ACTIVITY




 USCG-AlliedSignal, Inc.                      UK-CG-5-312        07/28/95   In contract negotiation process.

 (Proposal CG-95-554)

 USCG-Dassault Falcon Jet Corporation         UK-CG-5-314        07/28/95   In contract negotiation process.

 (Proposal CG-95-596)

 USCG-Quality Custodial                       UK-CG-5-315        07/28/95   In contract negotiation process.

 and Maintenance Service

 (Proposal CG-95-600)

 USCG-KCM, Inc.                               UK-CG-5-329        07/28/95   In contract negotiation process.

 (Proposed Rates CG-95-604)

 USCG-AlliedSignal, Inc.                      UK-CG-5-357        08/25/95   In contract negotiation process.

 (Proposal CG-95-701)

 FAA-Harris Corporation                       UK-FA-5-212        04/14/95   In contract negotiation process.

 (Proposal FA-95-701)

 FAA-Westinghouse Electric Corporation        UK-FA-5-258        02/12/95   In contract negotiation process.

 (Proposal FA-95-552)

 FAA-Denro, Inc.                              UK-FA-5-287        06/30/95   In contract negotiation process.

 (Proposal FA-95-529)

 FAA-Westinghouse Electronic Systems Group    UK-FA-5-296        06/30/95   In contract negotiation process.

 (Proposal FA-95-556)

 FAA-Universal Technical Resource Services    UK-FA-5-302        07/14/95   In contract negotiation process.

 (Proposal FA-95-563)

 FAA-Fowler Enterprises International, Inc.   UK-FA-5-311        07/14/95   In contract negotiation process.

 (Proposal FA-95-554)

 FAA-Mayflower Communications                 UK-FA-5-359        08/25/95   In contract negotiation process.

 Company, Inc.

 (Proposal FA-95-566)

 FAA-Counter Technology, Inc.                 UX-FA-5-158        04/14/95   In contract negotiation process.

 (Proposal FA-95-030)

 FAA-Artic Slope Consulting Group, Inc.       UX-FA-5-159        04/14/95   In contract negotiation process.

 (Proposed Rates FA-95-031)

 FAA-RSAEngineering, Inc.                     UX-FA-5-160        04/14/95   In contract negotiation process.

 (Proposed Rates FA-95-032)

 FAA-HMS, Inc.                                UX-FA-5-161        04/14/95   In contract negotiation process.

 (Proposed Rates FA-95-033)

 FAA-Duane L. Miller & Associates             UX-FA-5-162        04/14/95   In contract negotiation process.

 (Proposed Rates FA-95-034)

 FAA-SEB Sensitive                            UX-FA-5-180        04/28/95   In contract negotiation process.

 (Proposed Rates FA-95-054)

 FAA-SEB Sensitive                            UX-FA-5-189        05/12/95   In contract negotiation process.

 (Proposal FA-95-053)

 FAA-SEB Sensitive                            UX-FA-5-190        05/12/95   In contract negotiation process.

 (Proposed Rates FA-95-059)

 FAA-SEB Sensitive                            UX-FA-5-191        05/12/95   In contract negotiation process.

 (Proposed Rates FA-95-060)

 FAA-SEB Sensitive                            UX-FA-5-195        05/12/95   In contract negotiation process.

 (Proposal FA-95-077)

 FAA-SEB Sensitive                            UX-FA-5-209        05/12/95   In contract negotiation process.

 (Proposal FA-95-061)

 FAA-SEB Sensitive                            UX-FA-5-214        05/26/95   In contract negotiation process.

 (Proposal FA-95-083)

 FAA-SEB Sensitive                            UX-FA-5-215        05/26/95   In contract negotiation process.

 (Proposed Rates FA-95-073)

 FAA-SEB Sensitive                            UX-FA-5-221        05/26/95   In contract negotiation process.

 (Proposed Rates FA-95-047)

 FAA-SEB Sensitive                            UX-FA-5-222        05/26/95   In contract negotiation process.

 (Proposal FA-95-074)

 FAA-SEB Sensitive                            UX-FA-5-226        05/26/95   In contract negotiation process.

 (Proposal FA-95-072)

 FAA-SEB Sensitive                            UX-FA-5-235        06/16/95   In contract negotiation process.

 (Proposed Rates FA-95-080)

 FAA-Syport Systems, Inc.                     UX-FA-5-276        08/11/95   In contract negotiation process.

 (Proposal FA-94-100)

 FAA-Informatica of America, Inc.             UX-FA-5-296        09/15/95   In contract negotiation process.

 (Proposal FA-95-107)

 RSPA-Marcor Environmental, Inc.              UX-RS-5-303        09/27/95   In contract negotiation process.

 (Proposed Rates TS-95-063)





                                                            22
                                                                                                 SECTION I - AUDIT ACTIVITY




                                  SEMIANNUAL OCTOBER 1, 1995-MARCH 31, 1996
USCG-Coltec Industries                       UK-CG-6-017        10/13/95   In contract negotiation process.

(Proposal CG-95-613)

USCG-Powell Valley Iron & Equipment          UK-CG-6-025        11/10/95   In contract negotiation process.

(Proposal CG-95-602)

USCG-Ocean Technical Services                UK-CG-6-048        01/26/96   In contract negotiation process.

(Proposed Rates CG-96-505)

USCG-The Mitre Corporation                   UK-CG-6-049        01/26/96   In contract negotiation process.

(Proposed Rates CG-96-506)

USCG-AlliedSignal, Inc.                      UK-CG-6-055        02/09/96   In contract negotiation process.

(Proposal CG-96-502)

USCG-AlliedSignal, Inc.                      UK-CG-6-073        03/08/96   In contract negotiation process.

(Proposal CG-96-502A)

USCG-Giannotti Corporation                   UK-CG-6-076        03/15/96   In contract negotiation process.

(Proposal CG-96-525)

USCG-SEB Sensitive                           UK-CG-6-077        03/21/96   In contract negotiation process.

(Proposed Rates CG-96-519)

FAA-AlliedSignal, Inc.                       UK-FA-6-029        11/10/95   In contract negotiation process.

(Proposal FA-96-500)

FAA-Harris Corporation                       UK-FA-6-050        01/26/96   In contract negotiation process.

(Proposal FA-96-507)

FAA-Chugach Development Corporation          UX-FA-6-057        01/26/96   In contract negotiation process.

(Proposed Rates FA-96-006)

FAA-Fairchild Aircraft, Inc.                 UX-FA-6-078        03/08/96   In contract negotiation process.

(Proposal FA-96-010)

FTA-Williams Adley & Company                 UX-FT-6-030        11/24/95   In contract negotiation process.

(Proposal FT-95-016)

FTA-Harris Consulting                        UX-FT-6-088        03/15/96   In contract negotiation process.

(Proposal FT-96-004)

RSPA-Froehling & Robertson, Inc.             UX-RS-6-002        10/13/95   In contract negotiation process.

(Proposed Rates TS-95-065)

RSPA-Weston & Sampson Engineers, Inc.        UX-RS-6-020        10/27/95   In contract negotiation process.

(Proposed Rates TS-96-003)

RSPA-CETEnvironmental Services               UX-RS-6-034        11/24/95   In contract negotiation process.

(Proposed Rates TS-96-005)

RSPA-Groundwater Technical Government        UX-RS-6-035        11/24/95   In contract negotiation process.

Services, Inc.

(Proposed Rates TS-96-006)

RSPA-Moretrench Environmental Services, Inc. UX-RS-6-036        11/24/95   In contract negotiation process.

(Proposal TS-96-0007)





                                                           23
SECTION I - AUDIT ACTIVITY




                                5. Required Reports
                                Section 5(a) (11) of the IG Act, as amended, requires a description and explanation of the rea-
                             sons for any significant revised management decisions made during the reporting period. OIG per-
                             forms secondary follow-up on significant audit reports issued in prior periods to determine the sta-
                             tus of management actions to implement recommendations. During this follow-up, any instances
                             where management had significantly revised a decision would be identified and reported to OIG.
                             During this reporting period, there were no significant revisions of departmental management deci-
                             sions reported to OIG.

                                Section 5(a)(12) requires information concerning any significant management decision with
                             which OIG is in disagreement. At the end of this reporting period, there were no significant man-
                             agement decisions with which OIG was in disagreement.

                             F. APPLICATION OF AUDIT RESOURCES

                                At the end of the reporting period, OIG had an authorized staffing level of 290 full-time positions
                             involved in audit operations, of which 105 positions (36 percent) were located in Washington, DC,
                             and the remaining 185 (64 percent) were distributed among eight OIG regional offices. The organi-
                             zational structure and the distribution of OIG audit staffing authorizations are shown in Table 7.

                                                                         Table 7
                                                  Audit Staffing Authorizations as of September 30, 1996

                                       Office                                                                Total Personnel

                                       Assistant Inspector General (AIG) for Auditing                               2
                                       Deputy AIG for Auditing                                                      8
                                       Office of Transportation Program Audits                                     49
                                       Office of Information Technology, Financial, and Secretarial Audits         46
                                       Region II (New York)                                                        27
                                       Region III (Baltimore)                                                      23
                                       Region IV (Atlanta)                                                         27
                                       Region V (Chicago)                                                          21
                                       Region VI (Ft. Worth)                                                       26
                                       Region VII (Kansas City)                                                    14
                                       Region IX (San Francisco)                                                   28
                                       Region X (Seattle)                                                          19
                                            TOTAL                                                                 290




                                                               24
                                                                                                         SECTION I - AUDIT ACTIVITY




   The application of OIG audit resources by OAduring this semiannual period is shown in the fol-
lowing graph:



                          APPLICATION OFAUDIT RESOURCES
                           BYOPERATING ADMINISTRATION
                          APRIL1, 1996 TO SEPTEMBER 30, 1996

                                         OST (21%)




  FHWA (17%)



                                                                                        FAA (42%)




            USCG (15%)


                              FTA (3%)        FRA (1%)
                                         MARAD (1%)


                                      Time expended on NHTSA, RSPA, and SLSDC was less than 1 percent.




                                                                   25

This page left blank intentionally.
                              SECTION II - INSPECTIONS AND
                                 EVALUATIONS ACTIVITY
A. INTRODUCTION                                    reviews issues requiring a quick turnaround,
                                                   employs interview-intensive (versus paper-
   This section summarizes OIG inspections         intensive) data collection methods, and uses
and evaluations activities for the 6-month peri-   existing information as compared with con-
od ended September 30, 1996.                       ducting original research.

   The Office of Assistant Inspector General          OIG’s inspections and evaluations staff also
for Inspections and Evaluations provides inde-     responds to congressional requests, hotline
pendent and objective inspections and evalua-      complaints, and other referrals. Although
tions of DOT programs and operations. The          these requests occasionally warrant a formal
office reviews management, operational, poli-      inspection or evaluation, most take the form of
cy, regulatory, and/or legislative implications    smaller studies, requiring selective research
of transportation-related issues, providing the    and interviews.
Secretary, program managers within DOT, and
Congress with timely feedback.                     B. INSPECTIONS AND EVALUATIONS
                                                      ACCOMPLISHMENTS
   While supporting the overall OIG mission
to detect fraud, waste, abuse, and mismanage-         The inspections and evaluations staff com-
ment, inspections and evaluations are especial-    pleted a total of 15 projects (1 inspection,
ly designed for cases where a full audit is        1 evaluation, 5 congressional requests, and
unnecessary and a criminal investigation is        8 other referrals) resulting in 12 reports and
inappropriate. The inspections and evalua-         28 recommendations. In addition, a total of
tions staff addresses these “in-between”           13 projects are currently underway, including
issues, expending fewer resources — both in        5 inspections, 1 congressional request, and
personnel and time — than required by a full       7 referrals.
audit or criminal investigation. This staff


C. SELECTED SIGNIFICANT FINDINGS AND RECOMMENDATIONS


THE OFFICE OF AERONAUTICAL CHARTING AND CARTOGRAPHY NO LONGER FITS

WITHIN NOAA.
(Report No. E1-FA-6-014)

OIG Findings                                       a greater role. The OIGs concluded AC&C
                                                   fits best into the mission and organization of
   At the request of OMB, the Inspectors Gen-      FAA and should be transferred to FA Aw h e r e
eral of the Departments of Commerce (DOC)          it is clearly more associated through funding,
and Transportation conducted a joint review of     aviation safety, and program responsibility.
where the AC&C function should reside.             The OIGs also concluded that by consolidat-
AC&C, part of NOAA, prepares aeronautical          ing the existing AC&C and USGS printing
charts and maps for the Federal Government         operations, annual savings approaching
and the public based on FAA-provided infor-        $3 million could be realized. In addition, the
mation. FAA collects, validates, and dissemi-      OIGs found: (i) current legislation unneces-
nates aeronautical textual data as part of its     sarily restricts the ability of AC&C to develop,
mission to ensure the safe and efficient use of    print, and distribute new products for improv-
the nation's airspace.                             ing air safety; (ii) FAA in the past resisted
                                                   accepting the aeronautical charting program
   The joint DOC/DOT study team analyzed           from NOAA due to the perceived risk of not
several operational and organizational options     receiving full funding and adequate personnel;
to determine the best location for AC&C,           and (iii) NOAA and DMA need to resolve
including leaving it at NOAA, moving it to         problems concerning the DMA payment to
Defense Mapping Agency (DMA), USGS, or             support the aeronautical information database.
FAA; or allowing the private sector to perform     OIG Recommendations


                                                                27
SECTION II - INSPECTIONS AND EVALUATIONS ACTIVITY




                                     The OIGs recommended OMB, working                 FAAdisagreed with the recommendation to
                                  with NOAAand FAA: (i) transfer the respon-        transfer the AC&C function to FAA, stating a
                                  sibility for the functions currently performed    PBO is a better alternative. The OIGs agree
                                  by AC&C to FAA; (ii) develop legislation to       that AC&C could be made into a PBO, but that
                                  permit AC&C to retain receipts from chart         the appropriate location for the PBO is still
                                  sales to the public, and ensure adequate funds    within FAA. NOAAgenerally agreed with the
                                  and personnel are transferred to FAAto ensure     recommendations, but did not agree to imme-
                                  AC&C is fully functional; (iii) transfer the      diately transfer the printing operations to
                                  AC&C printing function to USGS; and               USGS. NOAAwould instead prefer to physi-
                                  (iv) negotiate with DMA to secure its contin-     cally relocate the printing operations to USGS,
                                  ued funding of aeronautical compilation and       but retain management and administrative
                                  database management.                              control. The OIGs reaffirmed the original rec-
                                                                                    ommendation, as efficiencies can only be
                                                                                    attained through combined operations.
                                  Corrective Actions



                                  FAA ALLEGEDLY PROVIDED EXCLUSIVE AIR TRAFFIC SERVICES TO A PRIVATE
                                  ENTITY NOT PROVIDED TO THE GENERAL PUBLIC.
                                  (Report No. E1-FA-6-011)

                                  OIG Findings                                      OIG Recommendations

                                     OIG reviewed allegations concerning an            OIG recommended FAA: (i) perform an
                                  FAA agreement with ABX to provide no-cost         analysis to determine if the expenditure to sup-
                                  government equipment, staffing, and other         port the ABX non-Federal radar is justified
                                  resources needed to accommodate an ABX            and warrants funding; (ii) develop criteria and
                                  private radar system. OIG found FAA did not       procedures showing how it will handle future
                                  adequately justify expending government           requests for providing such services, including
                                  resources on supporting the ABX privately         responsibilities for cost, to ensure preferential
                                  owned radar system. FAAdid not demonstrate        treatment does not occur; (iii) finalize a mem-
                                  that the benefits of the radar outweighed the     orandum of understanding (MOU) before
                                  projected government expenditures nor that        allowing the ABX non-Federal radar to inter-
                                  the expenditures represented the highest prior-   face with NAS; and (iv) update its internal
                                  ity in allocating limited FAA resources. Fur-     order on non-Federal navigational aids and
                                  thermore, by not providing adequate justifica-    ATC facilities, to specifically include radar as
                                  tion, FAA placed itself in the position of        non-Federally owned equipment.
                                  appearing to offer preferential treatment to
                                  ABX in the form of a subsidy in excess of         Corrective Actions
                                  $1 million. OIG did not substantiate allega-
                                  tions FAA improperly allowed the ABX non-            FAA concurred with the recommendations.
                                  Federal radar system to interface with the        FAA has agreed to: (i) perform an analysis to
                                  National Airspace System (NAS), or FAA            determine if the FAA expenditure to
                                  allowed ABX to have its own air traffic con-      accommodate ABX is justified, (ii) develop
                                  trol (ATC) specialists operate their private      policy and guidance for future requests to
                                  radar.                                            support privately-owned radars, (iii) execute
                                                                                    the MOU before providing any data to ABX,
                                                                                    and (iv) update the internal FAAorder on non-
                                                                                    Federal navigational aids and ATC facilities to
                                                                                    include radar and other systems.




                                                                 28
                                                                                    SECTION II - INSPECTIONSAND EVALUATIONS ACTIVITY




FAA OFFICIALS INAPPROPRIATELY HANDLED AN I/A WITH DITCO.
(Report No. E1-FA-6-012)

OIG Findings                                         OIG Recommendations

   OIG reviewed allegations FAA abused pro-              OIG recommended FAA: (i) continue to
curement procedures, misused funds, provided         prohibit the use of the I/A with DITCO to ini-
inadequate project oversight, and a conflict of      tiate research and development work,
interest situation existed in the administration     (ii) make necessary adjustments to correct the
of a contract with Aeronautical Radio, Inc. This     mischarged appropriations, (iii) continue the
contract was awarded by FAA through an I/A           procedures used to ensure operations dollars
with DITCO. OIG found: (i) FAA officials             cover year-end unfilled orders, and (iv) ensure
improperly initiated research and development        contracting officer technical representatives
projects under the I/A, (ii) about $4.5 million of   perform oversight of all contractors having
prior-year obligations under the agreement           projects under the DITCO I/A.
were not properly liquidated, and (iii) contrac-
tor invoices were inadequately reviewed before       Corrective Actions
payment authorization.
                                                        FAA agreed with the recommendations.
                                                     Actions taken and planned met the intent of
                                                     the recommendations.



FTA PROVIDED NO-COST TRAINING TO THE PRIVATE SECTOR THROUGH A GRANT
TO THENATIONAL TRANSIT INSTITUTE (NTI).
(Report No. E1-FT-6-006)

OIG Findings                                         OIG Recommendations

   OIG reviewed allegations FTA provided                OIG recommended FTA: (i) comply with
no-cost training to the private sector through a     Section 29 of the Federal Transit Act of 1992
grant to NTI at Rutgers University. OIG found        and restrict the use of funds for appropriated
FTA provided no-cost training to the private         purposes only, (ii) require course registration
sector on non-government premises, violating         forms to be corrected and non-government
Section 29 of the Federal Transit Act of 1992        employees to pay for future courses, (iii) take
which required no-cost training be provided          a more substantial role in managing course
only to Government employees. OIG did not            activities, (iv) direct NTI to establish proce-
substantiate other allegations: (i) training pro-    dures for verifying training attendee status,
vided was not competitively awarded, (ii) FTA        (v) reinforce management controls for the con-
improperly endorsed the contractor providing         tract-award process to avoid any potential
the training, and (iii) NTI wrongly claimed          appearance of conflict-of-interest or impropri-
ownership of intellectual property rights for        eties, and (vi) require NTI only use instructor
course manuals.                                      names and qualifications in Federal training
                                                     course descriptions to prevent the appearance
                                                     of improper contractor endorsement.

                                                     Corrective Actions

                                                        FTA did not agree with the first recommen-
                                                     dation. Although OIG requested FTA recon-
                                                     sider their position, the FTA position has
                                                     remained the same.



                                                                  29
SECTION II - INSPECTIONS AND EVALUATIONS ACTIVITY




                                  THE ASSISTANT ADMINISTRATOR FOR FAA OFFICE OF PUBLIC AFFAIRS
                                  ALLEGEDLY CREATED A HOSTILE WORK ENVIRONMENT.
                                  (Report No. E1-FA-6-010)

                                  OIG Findings                                       OIG Recommendations

                                     In response to a congressional inquiry on           OIG recommended: (i) FAA recoup the
                                  behalf of a constituent, OIG reviewed 12 alle-     compensatory time (or equivalent monetary
                                  gations concerning management practices            value) granted to the Office of Public Affairs
                                  within the FA AO ffice of Public Affairs. OIG      managers for time not actually worked while
                                  substantiated two allegations: (i) Office of       on call, and (ii) all managers and employees in
                                  Public Affairs managers were compensated for       the Office of Public Affairs who prepare or
                                  work not actually performed, and compensato-       approve time and attendance (T&A) records
                                  ry time was retroactively awarded to one           receive training in T&A procedures and
                                  employee; and (ii) a hostile work environment      recordkeeping requirements. No recommen-
                                  existed in the Office of Public Affairs. OIG       dations were made for the allegation concern-
                                  did not substantiate allegations concerning hir-   ing the hostile work environment because the
                                  ing practices, promotions, priority assign-        problem was largely attributed to the manage-
                                  ments and privileges, work hours, travel, and      ment practices of the former Assistant Admin-
                                  reduction-in-force procedures.                     istrator for Public Affairs.

                                                                                     Corrective Actions

                                                                                       OIG is awaiting FAA response for imple-
                                                                                     menting the recommendations.



                                  FAA IMPROPERLY REVERSED INFORMAL INVESTIGATION FINDINGS.
                                  (Report No. E5-FA-6-005)

                                  OIG Findings                                       OIG Recommendations

                                     OIG reviewed allegations FAA reversed its           OIG recommended FAA: (i) expedite
                                  findings of economic discrimination against        issuance of a new part to the Code of Federal
                                  the Lansing, Michigan, Capital Region Airport      Regulations (C.F.R.) outlining procedures for
                                  Authority (CRAA) as a result of congressional      addressing airport compliance complaints, and
                                  influence. The Detroit Airport District Office     (ii) issue guidelines to all ADOs on communi-
                                  (ADO) investigated an informal complaint and       cating informal findings of compliance defi-
                                  notified the complainant that CRAA was in          ciencies to airport sponsors and complainants.
                                  noncompliance with its grant agreements            OIG further recommended that guidelines
                                  because of economic discrimination. The            require ADOs to: (i) use correct language to
                                  ADO subsequently reversed its finding of non-      communicate potential compliance deficien-
                                  compliance. The complainant assumed con-           cies, (ii) describe a final determination of com-
                                  gressional pressure on FAA caused the rever-       pliance deficiencies can only be made by the
                                  sal. Although OIG did not substantiate the         FAADirector of Airport Safety Standards, and
                                  allegation, it found FAA lacked guidance for       (iii) inform the complainant how to file a for-
                                  communicating compliance deficiencies.             mal complaint.

                                                                                     Corrective Actions

                                                                                        FAA agreed with the recommendations.
                                                                                     Actions taken and planned met the intent of
                                                                                     the recommendations.



                                                                  30
                                                                                        SECTION II - INSPECTIONSAND EVALUATIONS ACTIVITY




IMPROPER INVESTIGATION OF PIPELINE AND LOW-FLYING AIRCRAFT COMPLAINTS.
(Report No. E5-OS-6-006)

OIG Findings                                             OIG Recommendations

    In response to a congressional inquiry on               OIG recommended: (i) OST ensure proper
behalf of a constituent, OIG reviewed allega-            disposition of misdirected FOIA requests by
tions concerning improper investigations con-            including them in the current OST tracking
ducted by RSPA and FAA of a pipeline and a               system; and (ii) FAA provide guidance to avi-
low-flying aircraft, respectively. OIG found:            ation safety inspectors on the characteristics
(i) RSPA did not ignore the constituent Free-            and limitations of GPS information, to include
dom of Information Act (FOIA) requests                   information on correcting altitude data.
because the requests were misdirected to the
OST FOIA Division, (ii) RSPAand FA Am i s-               Corrective Actions
takenly withheld information from the com-
plainant’s FOIA requests, and (iii) an FAA                   OST concurred with the recommendation
inspector investigating a complaint of low-              and has taken steps to include misdirected
flying aircraft correctly did not pursue an              FOIA requests in the OST tracking system.
enforcement action. However, in the course of            FAA also concurred with the recommendation
the investigation, the inspector used global             and has developed computer-based and video
positioning system (GPS) data incorrectly to             training on GPS. In addition, the FAA Satel-
validate his conclusion.                                 lite Operational Implementation Team is com-
                                                         prised of GPS experts who can respond to
                                                         questions from aviation safety inspectors.
                                                         Since the FAA actions are only partially
                                                         responsive to the recommendation, OIG
                                                         requested FAA specifically notify aviation
                                                         safety inspectors about: (i) the legal limita-
                                                         tions of using GPS information in investiga-
                                                         tions, and (ii) the GPS expertise within FAA.



D. APPLICATION OF INSPECTIONS AND EVALUATIONS RESOURCES

   At the end of the reporting period, OIG had an authorized staffing level of 26 full-time positions
involved in inspections and evaluations operations, of which 3 (12 percent) were located in Head-
quarters, Washington, DC, and the remaining 23 (88 percent) were distributed between 2 regional
offices. The organizational structure and the distribution of OIG inspections and evaluations
staffing authorizations are shown in Table 8.

                                           Table 8
        Inspections and Evaluations Staffing Authorizations as of September 30, 1996

          Office                                                                 Total Personnel

          Assistant Inspector General (AIG) for Inspections and Evaluations              2
          Deputy AIG for Inspections and Evaluations                                     1
          Region I (Washington)                                                         12
          Region V (Chicago)                                                            11
               TOTAL                                                                    26




                                                                        31
SECTION II - INSPECTIONS AND EVALUATIONS ACTIVITY




                                     The application of OIG inspections and evaluations resources by OA during this semiannual
                                  period is shown in the following graph:


                                            APPLICATION OFINSPECTIONS AND EVALUATIONS RESOURCES
                                                        BY OPERATING ADMINISTRATION
                                                       APRIL 1, 1996 TO SEPTEMBER 30, 1996

                                                                        FAA (80%)




                                                                                                  RSPA (1%)

                                                               OST (10%)                    FTA (4%)
                                                                                FRA (5%)




                                                               32

                    SECTION III - INVESTIGATIONS ACTIVITY

A. INTRODUCTION                                                  OIG investigations during this reporting
                                                              period resulted in $4,799,776 in monetary
   This section summarizes OIG investigative                  recoveries which included fines, court-ordered
activities for the 6-month period ended Sep-                  restitutions, civil judgments/settlements, and
tember 30, 1996.                                              Federal and state recoveries. Monetary recov-
                                                              eries are collected by the Federal treasury and,
    The Office of Assistant Inspector General                 in some instances, are returned to the Depart-
for Investigations conducts four types of inves-              ment. State monetary recoveries are retained
tigations: reactive, proactive, preliminary                   by the states.
inquiries, and hotlines. Reactive investigations
focus primarily on individuals or companies                      1. Results of Reactive Investigations
identified as subjects at the outset of the inves-               OIG reactive investigations were directed
tigation. Proactive investigations are OIG-ini-               toward specific individuals or companies
tiated efforts which focus on DOT operations                  based on alleged or suspected violations of
or activities vulnerable to fraud, waste, and                 law. Statistical summaries of reactive investi-
abuse. Preliminary inquiries are limited                      gations and synopses of selected significant
reviews where a factual basis for full investiga-             investigations are presented as follows:
tion does not yet exist. Hotlines consist of the
receipt, evaluation, and referral of complaints                  a. Reactive Investigation Activity
provided through various sources and offer                       The pending inventory of reactive investi-
anonymity to the complainant. Hotline activity                gations as of April 1, 1996, was 433. Seventy-
is outlined in Section IV. During this 6-month                nine cases were opened and 58 cases were
period, 76 percent of direct investigative staff              closed during the reporting period, resulting in
hours was devoted to reactive investigations,                 a pending reactive caseload of 454 as of Sep-
18 percent to proactive investigations, and                   tember 30, 1996.
6 percent to hotline activities.
                                                                b. Profile of Pending Reactive Cases
B. INVESTIGATIVE ACCOMPLISHMENTS                                Table 9 shows the types of cases pending
                                                              and the affected OAs.
    During the second half of FY 1996, OIG
continued to emphasize specific proactive ini-                   c. Prosecutive Referrals
tiatives such as OIG’s SUPs Program, motor                       During this 6-month period, 112 cases were
fuel excise tax (MFET) evasion, and haz-                      accepted and 10 were declined for prosecution.
ardous materials (HAZMAT) violations.                         The number of cases pending before prosecutive
                                                              authorities as of September30, 1996, was 77.

                                                 Table 9
                                Profile of Pending Reactive Investigations

 DOTOperating                       Number of                            Types of Cases
 Administrations                      Cases           Contracts       Employees        Grants        Other*

 FAA                                   204               17              61               6          120
 FHWA                                  112                7               8              25           72
 FRA                                     4                1               3               0            0
 FTA                                    29                6               2              17            4
 MARAD                                  16                3               9               1            3
 NHTSA                                   5                1               2               0            2
 OST                                    20                1              14               1            4
 RSPA                                   17                2               5               0           10
 SLSDC                                   1                0               1               0            0
 USCG                                   46               10              19               1           16
     TOTALS                            454               48             124              51          231

 Percent of Total                     100%              11%             27%              11%         51%

 *    Includes companies and individuals making false statements to departmental program elements.


                                                                              33
SECTION III - INVESTIGATIONS ACTIVITY




                                     d. Judicial and Administrative Actions              September 30, 1996. Table 10 shows judicial
                                     Investigative efforts resulted in the follow-       actions.
                                  ing actions during the reporting period ended


                                                                               Table 10
                                                               Judicial and Administrative Dispositions
                                                                 April 1, 1996 to September 30, 1996

                                            Judicial Action                                               Number

                                            Indictments                                                     67
                                            Convictions                                                     63
                                            Years Sentenced                                                 51
                                            Years Probation                                                112
                                            Fines                                                   $1,616,941
                                            Court-ordered Restitutions/Civil Judgments              $1,367,502
                                            Federal Recovery                                          $446,876
                                            State Recovery                                          $1,368,457
                                                 TOTAL                                              $4,799,776



                                     During this reporting period, OIG was advised of 27 administrative actions taken by the various
                                  DOT elements as a result of investigative activity. Shown in Table 11 below are administrative
                                  actions, including debarments, taken during this reporting period.


                                                                                  Table 11
                                                                          Administrative Actions
                                                                    April 1, 1996 to September 30, 1996

                                            Administrative Action                                          Number

                                            Employee Suspension                                              2
                                            Employee Reprimand                                               1
                                            Employee Resignation/Retirement                                  3
                                            Employee Restitution                                             1
                                            Employee Terminated                                              2
                                            Counseling/Other Employee Action                                 9
                                            Debarment/Suspension of Individuals                              2
                                            Debarment/Suspension of Corporations/Companies                   3
                                            Not Substantiated                                                1
                                            Other Remedial Action                                            2
                                            Audit Scheduled                                                  1
                                                 TOTAL                                                      27




                                                                    34
                                                                                                SECTION III - INVESTIGATIONS ACTIVITY




   e. Selected Reactive Investigations
   The investigations described below reflect the wide range of investigative efforts during this
reporting period.


FORMER FAA AIR TRAFFIC CONTROLLER INDICTED IN LARGEST WORKERS’
COMPENSATION FRAUD EVER.
   In a joint investigation conducted with         dant operated a shelving business for a num-
DOL OIG, a former FAA air traffic controller       ber of years as a self-employed businessman.
was indicted in the Eastern District of New        A search warrant resulted from the evidence
York, on counts of mail fraud and false state-     gathered during the covert operations phase
ments related to fraudulently receiving work-      and was executed upon the defendant's place
ers' compensation benefits of $325,000.            of business during 1996. A review of compen-
                                                   sation records revealed that since 1973, the
   The investigation disclosed that the defen-     defendant has received more than $830,000 in
dant repeatedly filed reports with DOL's           Federal Employees' Compensation Act bene-
Office of Workers' Compensation stating he         fits which are chargeable to DOT's funds.
was neither employed nor self-employed.            This is believed to be the largest workers'
Through the use of covert investigative tech-      compensation case ever. Trial is scheduled for
niques, special agents established the defen-      November 1996.



CIVIL COMPLAINT FILED AGAINST CORPORATION AND TWO OFFICERS FOR
MISCHARGING ON GOVERNMENT CONTRACTS.
    As a result of a hotline complaint received       The civil complaint alleged the defendants
by OIG, an investigation into alleged contract     conspired to shift costs from fixed-price
mischarging was opened in 1991. OIG review         government contracts that were over budget to
of contract materials disclosed that other agen-   other government contracts with USCG, DoD,
cies were potentially impacted and thus, a joint   and NASA, by directing corporate employees
investigation was coordinated with special         to charge their time to these contracts even
agents from NASAOIG and Defense Criminal           though the employees were actually working
Investigative Service (DCIS) with audit assis-     on other projects. The results of the misbilling
tance from DCAA. As a result of the ensuing        were overcharges to the United States of
extensive multi-agency investigation, a civil      approximately $600,000 during a 3-year
complaint was filed in Maryland Federal Dis-       period. If found liable, the corporation will be
trict Court charging the corporation and two of    subject to treble damages of $1.8 million, plus
its officers with violations of the False Claims   civil penalties of $5,000 to $10,000 for every
Act.                                               false claim. Total damages could exceed
                                                   $11 million.



FAA FAILURE TO ADHERE TO AUDIT RECOMMENDATIONS LEADS TO EMPLOYEE
EMBEZZLEMENT OVER $90,000.
   A joint investigation conducted with FBI        cashier. The schemes perpetrated by the
resulted in a former FAA employee pleading         defendant to accomplish and conceal the
guilty to theft of over $90,000 from the FAA       embezzlement from FAA regional officials
Eastern Region's Imprest Fund. The investi-        included forgery, falsification of receipts and
gation, conducted with assistance from OIG         disbursement documents, and falsifying vari-
auditors and FAA's CAS Division, uncovered         ous accounting reports.
a variety of schemes utilized by the employee
while acting in his capacity as the fund's


                                                                35
SECTION III - INVESTIGATIONS ACTIVITY




                                     A review of internal documents revealed             balances. The investigation disclosed that
                                  OIG had conducted an audit of the imprest              despite assurances from the FAA regional
                                  fund in 1989, and FAA had been advised by              office that the recommended financial controls
                                  the audit staff to improve its controls over the       would be implemented, they were adhered to
                                  imprest fund by undertaking specific actions           for only a limited duration. The defendant is
                                  to improve the fund's system of checks and             scheduled for sentencing in November 1996.



                                  FOR $63,000 EMBEZZLEMENT, DOT EMPLOYEE IS TERMINATED AND JAILED.
                                     In July 1995, upon referral from OST, OIG           conceal the thefts. The cashier was terminated
                                  initiated an investigation into the loss of over       from Federal employment in April 1996 con-
                                  $63,000 from a DOT imprest fund which                  sequent to a felony information filed in the
                                  expended cash advances to departmental offi-           U.S. District Court for Washington, DC,
                                  cials and processed reimbursement vouchers.            charging her with theft. In May 1996, the for-
                                                                                         mer employee pled guilty to one felony count
                                     The investigation disclosed the principal           of theft of government property and was sub-
                                  fund cashier embezzled in excess of $63,000            sequently sentenced to 4 months incarceration,
                                  over a 2-year period, created false documents,         followed by 4 months home detention, 3 years
                                  and destroyed government records in order to           probation, and full restitution.



                                  LARGEST CONSTRUCTION COMPANY, SIX INDICTED IN CONSTRUCTION-RELATED
                                  FRAUD IN PUERTO RICO.
                                     As a result of a joint OIG/FBI investigation           The corporation, its Chief Executive Offi-
                                  initiated at the request of FHWA, the largest          cer (CEO), and its project engineer were also
                                  construction company in the Commonwealth               charged with conspiracy and construction-
                                  of Puerto Rico along with six individuals, were        related fraud. In addition, the corporation, its
                                  indicted for construction-related fraud and            CEO, comptroller, and one of his assistants
                                  bank fraud regarding the $13million Federally-         were charged with bank fraud for submitting
                                  funded Jesus T. Piñero Expressway project.             falsified progress payment certificates to an
                                                                                         institution insured by Federal Deposit Insur-
                                     Those indicted include two employees of the         ance Corporation in support of the company's
                                  Puerto Rico Highway and Transportation                 line of credit. Charges of perjury before a
                                  Authority (PRHTA) who were assigned to                 Federal grand jury were also filed against the
                                  oversee the construction project. They were            company's CEO, its project engineer, and the
                                  indicted for conspiracy regarding false claims         two PRHTAemployees.
                                  and knowingly making a false statement, false
                                  representation, false report, or false claim with          All defendants have pled not guilty, and
                                  respect to the character, quality, quantity, or cost   trial is tentatively scheduled for early 1997.
                                  of work performed, or materials furnished, in
                                  connection with the construction of the project.



                                  ENGINEERING FIRM OFFICIALS SENTENCED FOR SUBMITTING FRAUDULENT
                                  CLAIMS ON HIGHWAY DESIGN CONTRACTS.
                                     In a joint investigation with EPA, an engi-         DOT auditors, along with a contracted Certi-
                                  neering design firm was accused of creating            fied Public Accounting firm, analyzed time
                                  false invoices to inflate their overhead rate,         sheets and expense reports obtained during a
                                  falsifying employee time sheets, and transfer-         search warrant. OIG's analysis determined the
                                  ring direct costs into administrative costs on         firm over-billed the Government in excess of
                                  various EPA and DOT contracts. EPA and                 $1 million.

                                                                     36
                                                                                                 SECTION III - INVESTIGATIONS ACTIVITY




   The firm and its two principal owners pled      One of the owners was sentenced to 5 months
guilty to conspiracy to defraud the Govern-        in a half-way house, to be followed by
ment with respect to claims, causing false         5 months of home detention, followed by
claims to be filed with the Government, and        3 years probation. The second owner was sen-
false statements. The firm, together with the      tenced to 3 years probation, and required to
two principal owners, was fined $1.34 million.     perform 500 hours community service.



FAA CONTRACTOR SETTLES FALSE CLAIMS ALLEGATIONS FOR $250,000.
   A confidential source alleged that a firm       remaining amount of its contract. The total
and its CEO submitted false claims to FAA on       estimated false claims amount was approxi-
a communications contract. The information,        mately $170,000.
corroborated by a second confidential source,
indicated program management costs for the            Subsequently, DOJ reached a settlement
contract were billed at FAA-approved salary        with the contractor which was approved by the
rates when, in fact, the contractor had deferred   bankruptcy court. As a result of negotiations,
50 percent of program management person-           the contractor released a claim it had pending
nel's salaries, but continued to bill the FAA on   before the DOT Board of Contract Appeals
monthly progress payment invoices for the          pertaining to a different FAA contract in
total salary amounts. The contractor filed for     exchange for the United States not pursuing
bankruptcy and began negotiations with FAA         the claim under the False Claims Act. As a
and Department of Justice (DOJ) for the            result, FAAreceived $250,000.



EXECUTIVE INDICTED FOR SELLING DEFECTIVE CHEMICAL PROTECTIVE
GARMENTS TO USCG FOR OPERATIONS DESERT SHIELD AND DESERT STORM.
   A 2-year joint investigation conducted by          According to the charges, the owner con-
OIG and DCIS resulted in mail fraud charges        cealed the true condition of the suits by failing
being brought against the owner of a textile       to disclose that the suits were part of a lot of
corporation. The indictment charged the            5,000 that had previously failed two inspec-
owner with having sold to USCG in 1991,            tions by DoD, and by falsely advising USCG
400 defective chemical protective suits for use    there were only minor color flaws in some of
by USCG personnel in Operations Desert             the protective suits. The owner has pled not
Shield and Desert Storm.                           guilty and a trial date is undetermined.



CIVIL FRAUD COMPLAINT FILED AGAINST GOVERNMENT CONTRACTOR FOR
FALSIFICATION OF EMPLOYEES’ EDUCATION.
   As a result of an OIG joint investigation       DOT and was tasked with developing comput-
with Naval Criminal Investigative Service          er software for DoD, including the U.S. Navy.
(NCIS), a civil complaint was filed by a Unit-
ed States Attorney's Office in U.S. District          The complaint alleged the defendant com-
Court alleging violations of the Federal False     pany and its proprietor knowingly submitted
Claims Act by a software development firm          claims for hours worked by employees in
and its sole proprietor. The subject firm was a    excess of the hours that had actually been
subcontractor to a company under contract to       worked. The complaint further alleged that
                                                   the defendants billed for employees with no




                                                                 37
SECTION III - INVESTIGATIONS ACTIVITY




                                  bachelor degrees in labor categories requiring      for their labor categories were approximately
                                  that degree per contract specification, and also    $700,000 over a 3-year period. In the com-
                                  billed for employees lacking advanced degrees       plaint, the Government seeks recovery of tre-
                                  in contractual labor categories requiring           ble damages plus civil penalties of $5,000 to
                                  advanced degrees. Total billings to the Gov-        $10,000 for each false claim submitted.
                                  ernment for employees who were not qualified



                                  TAXI OWNER FINED $71,000 IN TRANSIT SCAM.
                                     In a joint investigation with FBI, a taxicab     transportation to those in need and submit
                                  owner and operator was sentenced in U.S.            vouchers to the city for reimbursement. In this
                                  District Court, San Antonio, Texas, to 5 years      case, the defendant admitted he billed VIAand
                                  probation and was ordered to make restitution       was paid for trips he never took. The
                                  of $71,000 for submitting false claims to the       defendant acknowledged submitting thousands
                                  San Antonio Metropolitan Transit Authority          of vouchers over a 3-year period that included
                                  (VIA), in connection with a program to              fictitious names and trips that were never
                                  provide transportation to elderly and               taken. This is the second investigation in
                                  handicapped citizens. Taxicab owners enlisted       Texas involving taxi companies and drivers
                                  in this program agreed to provide                   defrauding this FTA partially-funded program.



                                  FAA AIRPORT EMPLOYEES INDICTED IN THEFT CASE.
                                     As a result of a joint investigation conduct-    for official purposes. According to the Federal
                                  ed with General Services Administration OIG,        charges, the defendants received the property
                                  DCIS, NCIS, and FBI, three FAA employees            under the guise of legitimately transferring it to
                                  based at a county airport in northern New           FAA for official Government use, but instead,
                                  York were charged with theft of Government          converted the property to their own use, or to
                                  property.                                           the use of others.

                                     The employees were charged for their partic-        To date, one defendant has pled guilty to
                                  ipation in a scheme that involved receiving         theft, awaits sentencing, and has been fired by
                                  large amounts of military surplus property from     FAA. The two remaining employees are
                                  DoD's Defense Reutilization Marketing Orga-         awaiting trial on conspiracy and theft charges
                                  nization (DRMO). DRMO allows agencies to            and have been placed on administrative leave
                                  receive surplus military property at no cost        without pay by FAA.
                                  under the condition the property will be utilized



                                  TRUCKING COMPANY PRESIDENT PLEADS GUILTY TO FALSE STATEMENTS CHARGE.
                                     As the result of a joint investigation with      ing in interstate commerce, had accepted false
                                  FHWA, Office of Motor Carriers (OMC), the           records of duty status and altered or false sup-
                                  president of a trucking firm entered a guilty       porting documents from company drivers.
                                  plea, on behalf of the firm, to a false state-      The firm's administrative staff then prepared
                                  ments charge. The firm had been the subject         false trip sheets to conceal excessive mileage
                                  of numerous OMC regulatory reviews and              and hours-of-service violations. The court
                                  civil penalties in the past. Based on docu-         sentenced the company to a $90,000 fine,
                                  ments seized from the execution of a search         320 hours of community service, and a
                                  warrant, it was apparent that the firm, operat-     $200 special assessment.




                                                                   38
                                                                                                 SECTION III - INVESTIGATIONS ACTIVITY




NATIONWIDE TEXAS TRUCKING FIRM AND THREE OFFICIALS INDICTED FOR
FALSIFYING DRIVER LOGS.
    A Federal grand jury in the Northern Dis-      vers to drive in excess of the number of hours
trict of Texas returned a 12-count indictment      allowed by Federal law and, in an effort to
against a nationwide trucking company, head-       conceal this from FHWA officials, falsified the
quartered in Texas, and three corporate offi-      driver logs with names of "second" drivers
cials, for conspiring to defraud the United        who either did not exist or who had left the
States and submitting false statements in con-     company. Federal regulations limit truck dri-
nection therewith. The defendants were             vers to 10 hours of driving, before taking at
charged with falsifying driver's logs, used by     least 8 consecutive hours off-duty. FHWA
FHWA to monitor the activities of interstate       periodically reviews these records to ensure
truck drivers and to prevent accidents caused      compliance with these safety regulations. This
by fatigued truck drivers. The indictment          investigation was a joint effort involving OIG
alleged the defendants encouraged their dri-       and Dallas FBI.



VIRGINIA TRUCKING COMPANY OWNER GUILTY OF FALSIFYING RECORDS.
    An investigation was initiated in              decided the matter should be pursued criminal-
November 1995 based on notification from the       ly. This case was worked jointly with OMC
Office of Regional Counsel, Baltimore, Mary-       and the Virginia State Police.
land, OMC, FHWA, of an ongoing enforce-
ment effort by OMC investigators and the              On December 1, 1995, OIG executed a
United States Attorney's Office, Western Dis-      search warrant at the company and obtained
trict of Virginia. Acommercial trucking com-       information which disclosed it falsified dri-
pany was the subject of several OMC enforce-       ver's logbooks and used drivers who had test-
ment actions and failed to take corrective         ed positive for drugs. On August 8, 1996, the
action and pay monetary penalties assessed by      owner and his company pled guilty to one
OMC. The most recent compliance review dis-        count of 18 U.S.C. 371 for conspiring to con-
closed the company had used drivers who had        ceal information from DOT. They were
tested positive for controlled substances. This,   charged in a one-count information with sys-
along with the company's refusal to cooperate,     tematically falsifying records relating to truck-
prompted OMC to contact the Assistant United       ing operations. Sentencing is pending. The
States Attorney in Abingdon, Virginia, for         owner faces a maximum penalty of 5 years
assistance. OIG was notified after it was          imprisonment and/or a fine of $250,000.




                                                                 39
SECTION III - INVESTIGATIONS ACTIVITY




                                     2. Results of Proactive Investigations
                                     Proactive investigations are generally directed toward DOT operations or activities vulnerable to
                                  fraud, waste, and abuse, with an emphasis on the development and refinement of preventive mea-
                                  sures. Typically, because of the complexity of these types of investigations, the different issues
                                  involved, and the seriousness of the potential offenses, numerous agencies have committed
                                  resources to various task forces formed around the country to resolve identified problems.


                                        OIG’S SUPS PROGRAM
                                      OIG continues to emphasize its SUPs program which resulted in this semiannual period in
                                  22 indictments and 16 convictions. These judicial actions are the realization of OIG's long-term
                                  investment in the area of SUPs investigations. These investigations are labor-intensive and time-
                                  consuming, and several multi-agency task forces have been formed to cooperatively address the
                                  law enforcement aspects of the SUPs problem. Additionally, in an effort to maximize the use of
                                  limited resources, OIG has focused on the most serious SUPs investigations. Consequently, there
                                  are 108 aviation SUPs cases in our current investigative inventory as compared to 219 at one point
                                  in time. OIG anticipates continued success in the SUPs program with the likely return of additional
                                  indictments.

                                     A listing of incarceration years, probation years, fines, restitution, and Federal recoveries for the
                                  previous and current reporting periods follows:

                                           October 1, 1995 to March 31, 1996                   April 1, 1996 to September 30, 1996

                                        Indictments                          14             Indictments                             22
                                        Convictions                          16             Convictions                             16
                                        Incarceration Years                  12             Incarceration Years                     16
                                        Probation Years                      43             Probation Years                         38
                                        Fines                        $1,806,376             Fines                             $179,441
                                        Restitution                   $788,584              Restitution                       $677,970
                                        Federal Recoveries                   $0             Federal Recoveries                      $0
                                        Dollar Recovery Total        $2,594,960             Dollar Recovery Total             $857,411

                                        Examples of SUPs investigations follow:


                                  MAJOR JET ENGINE REPAIR STATION CORPORATE OFFICERS FOUND
                                  GUILTY BY JURY.
                                     This joint investigation with FBI, with             jury convicted one of the officers on counts of
                                  assistance from FAA's CAS Division, was                mail and wire fraud and false statements, and
                                  opened in August 1992 to investigate                   obstruction of justice. The other executive
                                  allegations a major FAA-certified repair               vice president was found guilty of wire fraud.
                                  station was conducting improper repairs on jet
                                  engine parts.                                             At the time of the jury verdict, the lengthy
                                                                                         investigation had already resulted in a general
                                      Two former executive vice presidents were          manager in charge of turbine blade repair
                                  charged in 1995 with mail and wire fraud, false        pleading guilty to felony charges relating to
                                  statements, and conspiracy, and faced Federal          the improper repairs, the company making a
                                  trial in April 1996. An ensuing 5-week trial,          $5 million remedial payment to FAA, and
                                  in the Southern District of New York, focused          placing an additional $5 million in escrow for
                                  on the illegal and improper repair of an aircraft      parts testing in support of the investigation.
                                  engine's low-pressure turbine case for an              Sentencing for the former executive vice pres-
                                  international airline, and on several hundred          idents is pending.
                                  bearing seals for various airlines. A Federal

                                                                   40
                                                                                                        SECTION III - INVESTIGATIONS ACTIVITY




COMPANY OWNERS JAILED IN DEFECTIVE BOEING 727 PARTS INVESTIGATION.
   A joint undercover investigation in the            $150,000, placed on probation for 60 months,
Northern District of Texas involving OIG,             and ordered to submit to inspections by both
FBI, and DCIS resulted in the sentencing of           FAA and OIG during the period of this proba-
two corporations and two corporate officials          tion. Approximately 1,350 bogus slat track
for manufacturing and selling defective and           roller bolt assemblies were manufactured and
unapproved flight-control parts for Boeing            distributed by these defendants. A slat track
727 aircraft. The owner of the manufacturing          roller bolt helps hold the leading edge slats in
company was sentenced to 37 months in                 place, which extend and retract during take-off
prison, followed by 36 months probation. The          and landing by the Boeing 727. Over 1,000 of
company was fined $8,000. The owner of the            these bolt assemblies were purchased by a
company who sold the defective parts was              major air carrier operating in the United
sentenced to 48 months in prison, followed by         States, and over 400 had to be removed from
36 months probation. His company was fined            their aircraft.



AVIATION PARTS SUPPLY COMPANY FORMER OFFICER JAILED FOR WIRE FRAUD
AND ARSON.

    In an investigation with the Bureau of Alco-         The vice president was charged with arson,
hol, Tobacco, and Firearms involving the              conspiracy to commit wire fraud, and mail
alleged arson of a warehouse containing a large       fraud, in an indictment returned by a special
inventory of aircraft parts, it was discovered        Federal grand jury. The vice president pled
that those same parts were being offered for          guilty and admitted to providing cash kick-
sale to airlines. The resulting joint investigation   backs to purchasing agents in the airline indus-
determined the vice president of sales was brib-      try in an effort to induce business for his com-
ing airline purchasing agents to purchase air-        pany, and to setting fire to the warehouse by
craft parts at inflated prices from his company.      pouring gasoline through the interior, and by
The vice president of sales also "torched" the        igniting the gasoline with an open flame and
parts warehouse in order to collect the insur-        time-delay device. He was recently sentenced
ance proceeds on the value of the parts.              to 6 months incarceration, 6 months home
                                                      detention, and a fine of $150,000.



FAA-CERTIFIED REPAIR STATION OWNER JAILED FOR MAKING FALSE
STATEMENTS.
   The owner of an FAA-certified repair sta-          repairs had been made to flow control valves
tion was sentenced in U.S. District Court,            when, in fact, he knew he was not authorized
Wichita, Kansas, to 24 months in prison, fol-         to make such repairs. He also altered his cer-
lowed by 72 months probation, and was                 tificate to falsely represent he was authorized
ordered to make restitution of $15,000 for            to make such repairs. The FA As u b s e q u e n t l y
making false statements regarding the repair of       revoked his license. Flow control valves are
aircraft parts. The defendant admitted that he        considered flight-critical parts because they
knowingly and willfully signed FAA-required           control air-cabin pressure. This was a joint
maintenance reports reflecting that authorized        investigation with FBI and DCIS.




                                                                     41
SECTION III - INVESTIGATIONS ACTIVITY




                                  COMPANY EXECUTIVES SENTENCED FOR SUBSTITUTING COMMERCIAL GRADE FOR
                                  MILITARY SPECIFICATION FASTENERS.
                                     The former president and vice president of a        The defendants, including the now-defunct
                                  now-defunct fastener company were sentenced         company, had pled guilty in April 1995, admit-
                                  in Federal court as a result of their convictions   ting that the company had substituted com-
                                  for mail fraud in connection with the sale of       mercial grade fasteners for military specifica-
                                  substandard aviation fasteners to Federal Gov-      tion fasteners ordered by Government
                                  ernment contractors. The defendants had sup-        contractors for DoD-related projects. The
                                  plied the parts to contractors whose customers      defendants prepared documents which falsely
                                  included FAA, USCG, DoD, and NASA.                  certified the fasteners met all applicable speci-
                                                                                      fications. The 4-year investigation was con-
                                     The former president was sentenced to            ducted by a multi-agency area task force com-
                                  15 months incarceration and 2 years super-          posed of OIG, FBI, DCIS, Air Force Office of
                                  vised release. The former vice president was        Special      Investigations,      NCIS,      and
                                  sentenced to 21 months incarceration, 2 years       NASA/OIG.
                                  supervised release, and was ordered to pay
                                  $120,000 in restitution.



                                  TWO JAILED FOR SALE OF BOGUS GENERAL AIRCRAFT PARTS.
                                     Two men were convicted on state charges          eral aviation aircraft engines. A failure of
                                  of theft by deception for the sale of 14 unser-     these crankshafts could cause engine failure
                                  viceable aircraft engine crankshafts in the         and an imminent threat to public safety. One
                                  Southeastern United States. The men had             defendant received a 2-year jail sentence with
                                  made unauthorized repairs and attached false        3 years probation, while the other defendant
                                  maintenance release tags to unserviceable           was sentenced to 10 months jail, followed by
                                  crankshafts representing that the parts were        probation.
                                  serviceable and ready for installation into gen-




                                                                  42
                                                                                                    SECTION III - INVESTIGATIONS ACTIVITY




  MFET EVASION
   The investigation of cases involving suspected evasion of MFET remains an OIG priority. OIG's
involvement in multi-agency task forces demonstrates its commitment to this program. Of the nine
task forces formed around the country to combat the problem of MFET evasion, OIG is participat-
ing in eight. OIG currently has 36 pending proactive and reactive MFETinvestigations in its inven-
tory. OIG investigative efforts in the MFET area resulted in 12 indictments and 15 convictions,
with total sentences of 27 years jail and 25 years probation during this period. Examples of OIG
MFET investigations follow:

THREE DEFENDANTS RECEIVE LONG PRISON TERMS IN MFET EVASION SCHEME.
   A 4-year joint investigation ("Operation         over $60 million in MFET on sales of hun-
Red Daisy") conducted by OIG, Internal Rev-         dreds of millions of gallons of diesel fuel and
enue Service (IRS)-Criminal Investigative           gasoline. Earlier in this case, an organized
Division, FBI, and state agencies, resulted in      crime figure was sentenced in New Jersey to
three defendants receiving lengthy prison           20 years in Federal prison for his role in
terms for their involvement in the evasion of       orchestrating the conspiracy to evade the
over $60 million in MFET. The three defen-          taxes. The MFET were earmarked for ulti-
dants were sentenced in the District of New         mate deposit into the Federal Highway Trust
Jersey to 90 months, 45 months, and                 Fund and into the state's highway funds. Sev-
33 months of incarceration, respectively. The       eral other cases resulting from this major joint
three convicted felons, along with nine others,     investigation are awaiting trials, or are pend-
had been charged in May 1993 with evading           ing sentencing.

INTERNATIONAL TAX EVASION SCHEME BROKEN BY JOINT UNDERCOVER
OPERATION.
   An undercover operation was initiated in         of 14 simultaneous search warrants. Recently,
1994 as a joint effort by OIG, FBI, IRS, state      Canadian officials prosecuted one of the
police, and Canadian provincial authorities to      involved individuals for violations of Canadi-
identify entities in a north-central state who      an environmental and tax laws. The individ-
were evading MFET. Various schemes were             ual was sentenced to 4 years and 3 months
used to avoid U.S./Canadian import/export           incarceration, and a fine of $1 million. Three
duties and to blend non-taxed fuel with taxed       U.S.-based individuals have been sentenced in
fuel. The undercover operation purchased and        Federal and state courts for a combined
sold motor fuels to individuals suspected of        6 months of incarceration, 74 months of pro-
evading the excise taxes. The undercover            bation, and $261,000 in fines.
operation was terminated with the execution


OIL COMPANY OWNER PLEADS GUILTY TO DIESEL FUEL INCOME TAX EVASION
SCHEME.
   The owner of an oil company operating in         diesel fuel to retailers, representing that the tax
Louisiana and Mississippi pled guilty in the        had been paid. The invoices and bills of lad-
Eastern District of Louisiana to tax evasion for    ing falsely represented that he sold the fuel to
failing to report on his Federal income tax         another entity, for other than highway use,
return the sale of over 500,000 gallons of          when in fact, he sold it to retailers and should
diesel fuel. The defendant admitted he know-        have paid excise taxes on the purchases. Sen-
ingly and willfully evaded more than $86,000        tencing in this joint OIG/IRS investigation is
in excise taxes by failing to report these diesel   scheduled for October 1996. The defendant
fuel sales on his Federal excise tax return. The    faces a maximum sentence of 5 years impris-
defendant evaded these taxes by buying the          onment and a fine not to exceed $250,000.
fuel at the refinery "tax free", and selling the

                                                                  43
SECTION III - INVESTIGATIONS ACTIVITY




                                        HAZMAT VIOLATIONS
                                      Increased emphasis by OIG involving the investigation of violations of HAZMAT laws and regu-
                                  lations has resulted in an increase of investigative results during this semiannual period. OIG antici-
                                  pates such increases will continue as OIG involvement in these types of investigations grows. HAZ-
                                  MAT issues affect nearly every aspect of transportation including air, rail, highway, water, and
                                  pipelines. OIG is currently conducting several HAZMAT investigations, mostly in joint task force
                                  operations with EPA, FBI, and other Federal and state investigative organizations. OIG also intends
                                  to closely coordinate its efforts with DOJ to ensure criminal violations are prosecuted whenever pos-
                                  sible. OIG HAZMAT investigations resulted in the return of 17 indictments and 8 convictions dur-
                                  ing this reporting period. Examples of OIG HAZMAT investigations follow:

                                  HAZMAT TRANSPORT COMPANY CHARGED IN CONNECTION WITH FATAL
                                  ACCIDENT.
                                     A fatal motor carrier accident occurring in        MAT. A number of those false logs were pre-
                                  July 1994 in the state of New York resulted in        pared by the driver who was killed in
                                  an investigation being conducted jointly with         July 1994, when the propane transport trailer
                                  FHWA's OMC and FBI. As a result of the                he was driving struck a guard rail and explod-
                                  ensuing investigation, a felony information           ed. The information charged that at the time
                                  was filed in Federal court against a corpora-         of his death, the driver had been on duty
                                  tion engaged in the business of transporting          approximately 35 hours without the required
                                  and selling propane gas.                              8 consecutive hours off-duty. Several civil
                                                                                        suits have also been filed against the corpora-
                                     The information charged the company with           tion by private citizens as a result of the explo-
                                  making approximately 93 false driver daily            sion and fire, which occurred in a suburban
                                  logs in violation of Federal motor carrier safe-      neighborhood. Prosecution is pending.
                                  ty regulations applicable to carriers of HAZ-

                                  FIVE GUILTY PLEAS AND $22 MILLION IN FINES OFFERED IN NATURAL GAS
                                  PIPELINE CASE.
                                     In a complex and lengthy joint investiga-          ing investigation disclosed the company failed
                                  tion conducted in concert with a multi-agency         to comply with terms of construction permit
                                  task force consisting of Department of Energy         specifications, and had violated the Clean
                                  OIG, FBI, DCIS, EPA-Office of Criminal                Water Act.
                                  Investigations, Army Corps of Engineers, and
                                  state agencies, informations and guilty pleas             The company pled guilty to four felony vio-
                                  were entered in Federal court against a natural       lations of the Clean Water Act and agreed to
                                  gas pipeline operating company and four of its        four civil consent decrees in four judicial dis-
                                  officers and employees.                               tricts and to two administrative orders by
                                                                                        DOT and the Federal Energy Regulatory Com-
                                     The investigation involved the execution of        mission. The plea agreement, if accepted by
                                  several search warrants to inspect sections of        the court, calls for $22 million in fines,
                                  natural gas pipelines covering expansive tracts       approximately $20 million in lost consumer
                                  of land in the Northeast. The search warrants         "pass along costs" related to the construction
                                  were executed for purposes of gathering evi-          of the pipeline, and several administrative
                                  dence of the company's failure to install the         remedies to ensure that the pipeline is moni-
                                  required number of proper supports, called            tored over the next 20 years. Four officials of
                                  trench-breakers, on slopes and at the edges of        the pipeline company were also charged by
                                  wetlands, and its failure to remove fill from         informations with violations of the Clean
                                  wetlands and streams and to adequately con-           Water Act and have pled guilty. Sentencing of
                                  trol sediment. The search warrants and ensu-          the corporation and the individuals is pending.


                                                                  44
                                                                                                        SECTION III - INVESTIGATIONS ACTIVITY




TWO CONVICTIONS OBTAINED FOR HAZMAT TRANSPORTATION VIOLATIONS.
   As a result of a joint Federal and state task          firm transported the materials back to the orig-
force investigation, an officer and a West                inal property where the materials were illegal-
Coast company were convicted of violating                 ly dumped, buried, and covered with concrete.
HAZMAT transportation laws. The official                  The corporation and officer were prosecuted
used the trucking firm, which was not a regis-            by the state for the violations, and approxi-
tered HAZMAT transporter, to haul between                 mately $212,000 in criminal and civil penal-
70 and 90 tons of HAZMAT containing                       ties were obtained. In addition, the company
asbestos. This trucking firm illegally trans-             and the official were each sentenced to
ported the HAZMAT to a landfill. When the                 36 months probation.
landfill rejected the materials, the trucking


LOUISIANA FIRM FINED $250,000 FOR POLLUTING GULF OF MEXICO.
   A Louisiana firm was indicted, convicted,              operation, and interviews that followed. The
and sentenced in U.S. District Court for the              company owned nine vessels in the Southern
Southern District of Texas for knowingly dis-             Louisiana and Texas area that were used to
charging harmful quantities of oil into the               carry supplies to oil rigs in the Gulf of Mexi-
waters of the United States and into contigu-             co. Instead of legally disposing of the waste
ous areas that may affect the natural resources           oil, the defendant company dumped the oil
of the United States, in violation of the Oil             overboard into the Gulf of Mexico. The com-
Pollution Act. This conviction was the result             pany was ordered to pay a fine of $250,000
of a task force effort in Louisiana involving             and make restitution of $100,000 to the Gulf
OIG, FBI, EPA, USCG, and Louisiana State                  Coast Conservation Association. These are
Police. The evidence to support this convic-              the largest penalties levied to date against vio-
tion was gathered initially through an infor-             lators of the Oil Pollution Act.
mant and subsequently through an undercover



C. APPLICATION OF INVESTIGATIVE RESOURCES
   At the end of the reporting period, OIG had an authorized staffing level of 92 full-time positions
involved in investigative operations, of which 13 positions (14 percent) were located in Headquar-
ters, Washington, DC, and the remaining 79 (86 percent) were distributed among five regional
offices. The organizational structure and the distribution of OIG investigative staffing authoriza-
tions are shown in Table 12.

                                              Table 12
                   Investigative Staffing Authorizations as of September 30, 1996

          Office                                                             Total Personnel

          Assistant Inspector General (AIG) for Investigations                     2
          Deputy AIG for Investigations                                           11
          Region II (New York)                                                    23
          Region IV(Atlanta)                                                      14
          Region V(Chicago)                                                       15
          Region VI (Fort Worth)                                                   8
          Region IX (San Francisco)                                               19
               TOTAL                                                              92




                                                                        45
SECTION III - INVESTIGATIONS ACTIVITY




                                     The application of OIG investigative resources by OAduring this semiannual period is shown in
                                  the following graph:


                                                      APPLICATION OF INVESTIGATIVE RESOURCES
                                                           BYOPERATING ADMINISTRATION
                                                          APRIL 1, 1996 TO SEPTEMBER 30, 1996


                                                                          FAA (49%)




                                                                                                                      MARAD (2%)


                                                                                                                    RSPA (4%)

                                                                                                                 FTA (5%)

                                        FHWA (26%)
                                                                                                        USCG (6%)
                                                                                      OST (8%)

                                                                      Time expended on SLSDC, FRA, and NHTSAwas each less than 1 percent.




                                                                46

                                  SECTION IV - OIG HOTLINE

A. OIG HOTLINE COMPLAINT                                 control system. The remaining 58 complaints

   CENTER ACTIVITIES                                     required no action because they were either

                                                         misdirected or lacked specificity or applicabil-

   During this reporting period, OIG Hotline             ity. A statistical summary of the hotline com-

Complaint Center processed 299 telephone,                plaints and their disposition is shown in the

letter, and/or walk-in complaints. Of these              following table:

complaints, 241 were entered into the hotline


                                               Table 13
                                     Hotline Complaints Processed

          Disposition of Complaint                                          Number

          No Action Required                                                  58
          Referred for Audit Inquiry                                           2
          Referred for Inspections and Evaluations Inquiry                     4
          Referred for Investigative Inquiry                                  36
          Referred to Program Management                                     175
          Referred to Other Agencies                                           6
          Preliminary Investigative Review                                    18
               TOTAL                                                         299



B. SELECTED HOTLINE COMPLAINTS

DISCLOSURE OF PRICING DISCREPANCY LEADS TO SAVING OF FEDERAL FUNDS.
Hotline Complaint                                        OIG Results

    An anonymous complaint to the Hotline                   The hotline complaint was referred to
Complaint Center alleged that a helicopter fuel          USCG, the OAin possession of the helicopter
pressure regulator could be purchased cheaper            in question, for action. USCG's inquiry sub-
from the manufacturer than through the Feder-            stantiated the allegation, and the appropriate
al stock system. The complainant claimed the             officials responsible for procuring this part
regulator could be purchased from the manu-              were notified of the pricing discrepancy.
facturer for $358.60, whereas the Federal
stock system charges $1,046.64.



CHRISTMAS PARTY EXPENSES BILLED TO FAA BY CONTRACTOR.
Hotline Complaint                                        OIG Results

   Allegations were made through the Hotline                 The hotline complaint was referred to FAA
Complaint Center that an FAA contractor                  for action. FAA's inquiry disclosed travel
charged to an FAA contract the cost of two               expenses by the contractor were billed in error
employees to attend a company Christmas                  to the FAA contract and, as a result, FAA will
party.                                                   subtract the total of $342.26 from the next
                                                         invoice.




                                                                       47
SECTION IV- OIG HOTLINE




                          ALLEGATIONS REGARDING AN FAA SOLE-SOURCE CONTRACT.
                          Hotline Complaint                                   OIG Results

                             The Hotline Complaint Center received a             An OIG audit disclosed FAA may sole-
                          complaint on FAA’s Voice Switching and              source the switch contract as a result of a cost-
                          Control System (VSCS), alleging FAA was             benefit analysis which evaluates reasonable
                          unnecessarily sole-sourcing a contract for          alternatives. OIG’s review further disclosed
                          backup switches to a losing bidder at $10 mil-      the cost per switch will be less than $1 million,
                          lion a switch, as part of the existing contract.    and that the proposed sole-source contractor’s
                          VSCS provides air traffic personnel simulta-        switch satisfies a number of FAArequirements
                          neous access to many types of air and ground        which are currently not being met. OIG’s
                          communications.                                     review concluded FAA was performing the
                                                                              necessary analyses to make an informed deci-
                                                                              sion, and FAA concurred with an OIG recom-
                                                                              mendation that, if FAA makes a sole-source
                                                                              award to the contractor, it should be a firm-
                                                                              fixed-price contract.



                          MISUSE OF GOVERNMENT TIME AND EQUIPMENT RESULTS IN DISCIPLINARY
                          ACTION.
                          Hotline Complaint                                   OIG Results

                             The Hotline Complaint Center received a             The hotline complaint was referred to FAA
                          complaint alleging an FAA employee was using        for action. FAA's inquiry substantiated the
                          government time and equipment to send inap-         allegations. The employee was given a verbal
                          propriate messages over the government elec-        reprimand by his supervisor and directed to
                          tronic mail system (E-mail) using the Internet.     cease misusing the E-mail system and the
                                                                              Internet on government time and equipment.



                          ABUSES IN FAA’S OFFICE AUTOMATION TECHNOLOGY AND SERVICES (OATS)
                          PROGRAM.

                          Hotline Complaint                                   OIG Results

                             An anonymous hotline complaint alleged               An OIG audit fully or partially substantiat-
                          the FAAOATS program is inefficient and inef-        ed 8 of 10 allegations included in the com-
                          fective, and it offers a selection of overpriced,   plaint, which resulted in FAA: (i) strengthen-
                          defective products.                                 ing and expanding delivery of quality
                                                                              products, (ii) allowing cost-based waivers
                                                                              from the contract, (iii) taking steps to reduce
                                                                              reliance on the OATS contract, (iv) cancelling
                                                                              an OATS follow-on acquisition, and (v) con-
                                                                              sideration of cancelling the designation of the
                                                                              OATS contract as the mandatory source for
                                                                              office automation procurements.




                                                           48
                                                                                                   SECTION IV- OIG HOTLINE




CONTRACTOR FOUND IN VIOLATION OF LEASE AGREEMENT.
Hotline Complaint                                 OIG Results

   A complaint was made to the Hotline Com-          The hotline complaint was referred to FAA
plaint Center that a Midwestern city had been     for appropriate handling. FAA's inquiry dis-
defrauding FAA regarding contract/lease           closed the city was not in compliance with the
obligations to maintain the old FAA flight ser-   terms of the lease agreement, and corrective
vices building at the local municipal airport.    action was taken.




                                                                49
This page left blank intentionally.
                               SECTION V - LEGISLATION AND
                                      REGULATIONS
    Section 4(a)(2) of the IG Act provides that the IG shall ". . . review existing and proposed legis-
lation and regulations relating to programs and operations . . ." of DOT, and make recommenda-
tions in the semiannual report regarding: (i) the impact on the economy and efficiency in the admin-
istration of programs and operations administered or financed by DOT, or (ii) the prevention and
detection of fraud, waste, and abuse in such programs and operations. During the reporting period,
OIG reviewed 12 legislative proposals and 44 proposed regulations.

   Highlights of existing and proposed legislation and regulations reviewed during the reporting
period follow:


A. LEGISLATION
FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT OF 1996.
   OIG continues to nonconcur with this pro-          could significantly, and adversely, affect OIG's
posal based upon the bill's requirement that          ability in obtaining agreement on audit findings
each audit report produced by OIG contain the         and recommendations and in obtaining cooper-
names and positions of those individuals              ation in future audits. OIG also expressed con-
responsible for any noted substantive noncom-         cern that the Department would probably be
pliance. Noting that such reporting is not            unable to comply with the provisions of the Act
required by any other Act, including the IG Act,      requiring increased audit coverage of automat-
OIG expressed concern that such a requirement         ed financial management systems.



B. REGULATIONS
CIVIL AVIATION SECURITY USER FEE.
   OIG nonconcurred with FAA's proposal to            tax, frequently referred to as the "ticket tax.”
amend 14 C.F.R. Part 187, relating to a fee to        Second, since FAA is currently funded for
be charged passengers enplaning in the United         such activities by the Aviation Trust Fund and
States for security services provided by the          direct appropriations, the users, those choos-
FAA, allowing FAA to reasonably recover the           ing to purchase airline tickets, are therefore
costs it incurs in performing security services.      already paying a user fee. OIG would support
OIG's concern is that such a user fee when            a fee to be used by airports and air carriers for
added to the user fee for airport and air carrier     security costs and increased levels of airport
costs will create a perception of "double taxa-       security effectiveness.
tion" and would, in fact, duplicate the excise




                                                                    51
This page left blank intentionally.
                                SECTION VI -
                        ORGANIZATION AND MANAGEMENT
A. ORGANIZATION AND STAFFING                               agencies and entities with respect to
                                                           matters relating to the promotion of
   DOT OIG was created as a result of the IG               economy and efficiency in the admin-
Act of 1978 (P.L. 95-452) in order to create an            istration of, or for the prevention and
independent and objective unit:                            detection of fraud, waste, and abuse
                                                           in programs and operations adminis-
    •	   to conduct and supervise audits and               tered or funded by DOT, or the iden-
         investigations relating to the programs           tification and prosecution of partici-
         and operations of the Department;                 pants in such fraud and abuse.

    • 	 to provide leadership and coordina-           The IG Act Amendments of 1988 (P.L.
        tion, and to recommend policies for        100-504) provided certain technical amend-
        the Department designed to promote         ments designed to strengthen the indepen-
        economy, efficiency, and effective-        dence and effectiveness of OIGs and required
        ness in the administration of pro-         the reporting of management decisions on
        grams and operations and also pre-         OIG audit reports regarding final action by
        vent and detect fraud, waste, and          management officials for those reports.
        abuse in such programs and opera-
        tions;                                        OIG is divided into three major functional
                                                   units: Office of Assistant Inspector General
    • 	 to keep the Secretary and Congress         for Auditing, Office of Assistant Inspector
        fully and currently informed about         General for Inspections and Evaluations, and
        problems and deficiencies relating to      Office of Assistant Inspector General for
        the administration of such programs        Investigations; and two support units: Office
        and operations and the necessity for       of Legal Counsel and the Directorate of
        and progress of corrective actions;        Administration. Nationwide, the Assistant
        and                                        Inspector General for Auditing, Assistant
                                                   Inspector General for Inspections and Evalua-
    • 	 to recommend policies for, and to          tions, and Assistant Inspector General for
        conduct, supervise, or coordinate          Investigations are supported by Headquarters
        relationships between DOT and other        and regional staffs.




                                                               53
SECTION VI - ORGANIZATIONAND MANAGEMENT




  The organization of OIG follows:




                                          54

                                                                                            SECTION VI - ORGANIZATIONAND MANAGEMENT




   To perform its mission, OIG onboard staffing as of September 30, 1996 was 421 employees.


                                            Table 14
                            Onboard Staffing as of September 30, 1996

                                            Headquarters          Field           Total

          Auditors                               95                153             248
          Inspectors                              0                 22              22
          Investigators                           5                 69              74
          Other Professionals                    36                  0              36
          Administrative/Clerical                18                 23              41
               TOTALS                           154                267             421



B. CONGRESSIONAL TESTIMONY                                2. Assessment of FAAInspections
                                                          In testimony before the Senate Subcommit-
   OIG testified before several congressional         tee on Oversight of Government Management
committees during FY 1996, highlighting               and the District of Columbia (April 1996),
activity in areas which included diversion of         OIG focused on FAA inspection procedures
airport revenues, and the assessment of FAA           for commercial aircraft. OIG testified FAA
inspections of commercial aircraft.                   inspection resources were not being targeted to
                                                      entities having the greatest risk, that signifi-
   1. Diversion of Airport Revenues                   cant differences existed between repair sta-
   Testifying before the Senate Subcommittee          tions, and that FAA did not target major or
on Aviation, Committee on Commerce, Sci-              safety-critical repair stations for higher levels
ence, and Transportation (May 1996), OIG              of surveillance. OIG concluded significant
addressed the issue of the effectiveness of FAA       improvements in FAA’s safety inspection pro-
oversight of airport revenue and the use of these     grams are necessary, and FAA management
revenues by 65 airports and their 43 sponsors.        can do much to improve the effectiveness of
OIG audits identified prohibited diversions           its safety inspectors. On September 18, a spe-
totaling $170 million by 23 airport sponsors.         cial study group established by the FAA
OIG testified FAA has been reluctant to act           Administrator made 30 recommendations to
expeditiously, aggressively, or reasonably in         improve FAA’s oversight of airlines.
bringing grantees into compliance with regula-
tions, in getting diverted revenues returned, or      C. PROCESSING FOIA REQUESTS
in penalizing grantees for illegal diversions.
OIG made several recommendations to Con-                 The pending inventory of FOIA requests as
gress to address the revenue diversion issue.         of April 1, 1996, was 82. During this report-
On September 18, the Senate passed legislation        ing period, OIG received 145 new FOIA
aimed at eliminating the types of fund diver-         requests. As of September 30, 1996, 112
sions identified in OIG audits.                       requests are still awaiting processing. In addi-
                                                      tion, OIG received 12 administrative appeals
                                                      of FOIA determinations. As of September 30,
                                                      two appeals are awaiting processing.




                                                                    55
This page left blank intentionally.
             GLOSSARY OF ACRONYMS AND TERMS
                   USED IN THIS REPORT

                                                                         ACRONYMS

AAP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Advanced Automation Program
ABX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Airborne Express
AC&C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Aeronautical Charting and Cartography
ADO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Airport District Office
AIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Assistant Inspector General
AIP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Airport Improvement Program
ATC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Air Traffic Control
C.F.R. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Code of Federal Regulations
CAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Civil Aviation Security Division
CA/THT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Central Artery/Third Harbor Tunnel
CEO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Chief Executive Officer
CFO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Chief Financial Officer
CRAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Capital Region Airport Authority
CY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Calendar Year
DCAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Defense Contract Audit Agency
DCIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Defense Criminal Investigative Service
DITCO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Defense Information Technology Contracting Office
DMA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Defense Mapping Agency
DOC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Department of Commerce
DoD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Department of Defense
DOJ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Department of Justice
DOL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Department of Labor
DOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Department of Transportation
DRMO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Defense Reutilization Marketing Organization
EPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Environmental Protection Agency
FAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Aviation Administration
FBI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Bureau of Investigation
FHWA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Highway Administration
FMVS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Motor Vehicle Safety
FOIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Freedom of Information Act
FRA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Railroad Administration
FTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Federal Transit Administration
FY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Fiscal Year
GPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Global Positioning System




                                                                            A-1

HAB TCC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . High Availability Basic Tower Control Computer Complex

HAZMAT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Hazardous Material

HDOT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Hawaii Department of Transportation

I/A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Interagency Agreement

IG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Inspector General

IRS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Internal Revenue Service

MARAD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Maritime Administration

MFET . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Motor Fuel Excise Tax

MMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Minerals Management Service

MOU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Memorandum of Understanding

NAS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Airspace System

NASA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Aeronautics and Space Administration

NCIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Naval Criminal Investigative Service

NHTSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Highway Traffic Safety Administration

NOAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Oceanic and Atmospheric Administration

NPRM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Notice of Proposed Rulemaking

NTI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Transit Institute

OA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Operating Administration

OATS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office Automation Technology and Services

ODS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Operating Differential Subsidy

OHA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Hawaiian Affairs

OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General

OMB . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Management and Budget

OMC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Motor Carriers

OST . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of the Secretary of Transportation

PBO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Performance-Based Organization

PCIE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . President's Council on Integrity and Efficiency

P.L. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Public Law

PRHTA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Puerto Rico Highway and Transportation Authority

RSPA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Research and Special Programs Administration

SHA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . State Highway Agency

SLSDC . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Saint Lawrence Seaway Development Corporation

SMA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Surface Movement Advisor

STURAA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Surface Transportation and Uniform Relocation Assistance

                                                                           Act of 1987
SUPs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Suspected Unapproved Parts
T&A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Time and Attendance
TAP . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Tower Automation Platform



                                                                           A-2
U.S.C. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . United States Code

USCG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . United States Coast Guard

USGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . United States Geological Survey

VIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . San Antonio Metropolitan Transit Authority

VSCS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Voice Switching and Control System

WCF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Working Capital Fund





                                                                        A-3
This page left blank intentionally.
                                                        TERMS

COSTS QUESTIONED - Costs that are questioned by OIG because of: (i) an alleged violation of a provision of a law, regu-
lation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of funds; (ii) a
finding that, at the time of the audit, such cost is not supported by adequate documentation; or (iii) a finding that the
expenditure of funds for the intended purpose is unnecessary or unreasonable.

COSTS UNSUPPORTED - Costs that are questioned by OIG because it found, at the time of the audit, such costs were not
supported by adequate documentation.

DISALLOWED COSTS - Questioned costs that management, in managerial decisions, has sustained or agreed should not be
charged to the Government.

EC O N O M YA N D EFFICIENCY AUDITS - These audits include determining: (i) whether the entity is acquiring, protecting,
and using its resources economically and efficiently; (ii) the causes of inefficiencies or uneconomical practices; and (iii)
whether the entity has complied with laws and regulations concerning matters of economy and efficiency.

FINAL ACTION - The completion of all actions management has concluded, in its decision, are necessary with respect to
the findings and recommendations included in an audit report; and in the event management concludes no action is nec-
essary, final action occurs when a management decision has been made.

FINANCIAL STATEMENT AUDITS - These audits determine: (i) whether the financial statements of an audited entity pre-
sent fairly, in all material respects, the financial position, results of operations and changes in net position, cash flows,
and budget and actual expenses in accordance with generally accepted accounting principles; (ii) whether the associated
internal controls are adequate to ensure the integrity of financial transaction processing; and (iii) whether the entity has
complied with laws and regulations for those transactions and events that may have a direct and material effect on the
principal financial statements.

FINANCIAL-RELATED AUDITS - These audits include reviews of accounting records and other financial information for
purposes of assisting DOT management in determining if amounts claimed or billed as indirect rates are reasonable and
allowable, and, if appropriate, financial regulations were followed.

INVESTIGATIVE RECOVERIES - The recoveries of money or property of the Federal Government as a result of OIG inves-
tigations. The amounts shown represent: (i) recoveries which management has committed to achieve as the result of
investigations during the reporting period; (ii) recoveries where a contractor, during the reporting period, agrees to return
funds as a result of investigations; and (iii) actual recoveries during the reporting period not previously reported in this
category. These recoveries are the direct result of investigative efforts of OIG.

INVESTIGATIVE REFERRALS - These cases require additional investigative work, civil or criminal prosecution, or discipli-
nary action. These cases are also referred by OIG to investigative and prosecutive agencies at the Federal, state, or local
level, or to agencies for management or administrative action. An individual case may be referred for disposition in one
or more of these categories.

MANAGEMENT DECISIONS DURING THE PERIOD - The evaluation by management of the findings and recommendations
included in an audit report and the issuance of a final decision by management concerning its response to such findings
and recommendations, including actions concluded to be necessary.

OIG H OTLINE COMPLAINT CENTER - Activities consist of the receipt, evaluation, and referral of complaints for addi-
tional investigation, audit, inspection and evaluation, or administrative action.

PROACTIVE INVESTIGATIONs - OIG-initiated efforts which focus on DOT operations or activities that are vulnerable to
fraud, waste, and abuse. They may be narrow in scope and test a specific activity or broader-based, systemic reviews
with an emphasis on the development and refinement of preventive measures. Proactive investigations can be initiated
upon prior indications or, as in most cases, based on analysis showing a particular vulnerability. Quite often, during the
course of the assignments, specific targets (companies and/or individuals) are identified and reactive cases are initiated.
Most of these cases are complex, sensitive, and of a protracted nature which require a substantial amount of investigative
resources.


                                                            A-5
PROGRAM AUDITS - These audits include determining: (i) the extent to which the desired results or benefits established
by Congress or other authorizing body are being achieved; (ii) the effectiveness of organizations, programs, activities,
or functions; and (iii) whether the entity has complied with laws and regulations applicable to the program.

QUESTIONED COSTS FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE - Costs questioned by OIG on which
management has not made a determination of eligibility for reimbursement, or on which there remains disagreement
between OIG and management. The Department has formally established procedures for determining the ineligibility
of costs questioned. Because this process takes considerable time, this category may include costs that were questioned
in both this and prior reporting periods.

REACTIVE INVESTIGATIONS - These investigations primarily focus on specific individuals or companies that are usually
targets at the outset of an investigation based on some alleged or suspected violation of the law. Reactive investigations
continue to be the area of greatest emphasis and dedication of staff effort.

RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE - Recommendations by OIG that funds could be more effi-
ciently used if management took actions to implement and complete the recommendations, including: (i) reductions in
outlays; (ii) deobligations of funds from programs or operations; (iii) withdrawal of interest subsidy costs on loans or
loan guarantees, insurance, or bonds; (iv) costs not incurred by implementing recommended improvements related to
the operations of the establishment, a contractor or grantee; (v) avoidance of unnecessary expenditures noted in
preaward reviews of contract or grant agreements; or (vi) any other savings which are specifically identified. (Note:
Dollar amounts identified in this category may not always allow for direct budgetary actions, but generally allow the
Department to use the amounts more effectively in accomplishment of program objectives.)




                                                            A-6
                                                                                                       Appendix B

                                    OFFICE OF INSPECTOR GENERAL

                                       LISTING OF AUDIT REPORTS

                                APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                                   FEDERAL AVIATION ADMINISTRATION



INTERNAL AUDITS - 9 Reports
REPORT      DATE             SUBJECT                          LOCATION              RECOMMENDATIONS MADE
ASFA6009   96/04/04 Voice Switching and Control System        Washington, DC        Procedural
                    Hotline Complaint
ASFA6010   96/08/29 Advisory Memorandum on Adv anced          Washington, DC        Procedural
                    Automation Program
R0FA6005   96/08/13 Advisory Memorandum on Disposal of        Denver, CO            No Recommendations
                    Stapleton International Airport
R4FA6026   96/04/09 Suspected Unapproved Parts Program        Washington, DC        Procedural
R7FA6002   96/04/22 Aging Commuter Airplane Program           Washington, DC        Procedural
R9FA6011   96/05/17 Management Advisory on Los Angeles        Los Angeles, CA       Procedural
                    Airport Transfer of $58.8 Million to
                    City of Los Angeles
R9FA6014   96/07/03 Airport Security Federal Avi ation        Washington, DC        Procedural
                    Administration
R5FA6011   96/09/19 Cable Looping Program                     Washington, DC        Procedural
R9FA6015   96/09/19 Airport Improvement Program Grants        Honolulu, HI          $3,000,000 Questioned
                    Provided to Hawaii Department of                                $36,400,000 Better Use
                    Transportation Procedural


GRANT AUDIT - POSTAWARD - 17 Reports
REPORT      DATE             SUBJECT                          LOCATION              RECOMMENDATIONS MADE
R2FA6020   96/06/05 Port Authority of New York                New York, NY          No Recommendations
                    and New Jersey
Y4FA6031   96/04/02 Port of Portland                          Portland, OR          No   Recommendations
Y4FA6032   96/04/02 City of Springfield                       Springfield, MO       No   Recommendations
Y4FA6034   96/04/03 City of Albuquerque                       Albuquerque, NM       No   Recommendations
Y4FA6042   96/04/18 Port Authority of New York                New York, NY          No   Recommendations
                    and New Jersey
Y4FA6044   96/04/30 City of Dubuque, Iowa                     Dubuque, IA           No Recommendations
Y4FA6048   96/05/15 St. Mary's County                         Leonardtown, MD       No Recommendations
Y4FA6050   96/05/15 New Mexico State Highway and              Santa Fe, NM          $103,372 Questioned
                    Transportation Depa rtment
Y4FA6062   96/07/16 Rhode Island Airport Corporation          Providence, RI        No Recommendations
Y4FA6064   96/08/07 Massachusetts Port Authority              Boston, MA            No Recommendations
Y4FA6069   96/08/19 State of Hawaii, Department of            Honolulu, HI          No Recommendations
                    Transportation, Airport Division
Y4FA6070   96/08/19 City of Dallas, Texas                     Dallas, TX            No   Recommendations
R4FA6072   96/08/27 Birmingham Airport Authority              Birmingham, AL        No   Recommendations
Y4FA6073   96/08/27 Palm Beach County                         West Palm Beach, FL   No   Recommendations
Y4FA6075   96/09/03 Pitkin County                             Aspen, CO             No   Recommendations
R6FA6013   96/09/16 City of San Antonio                       San Antonio, TX       No   Recommendations
R7FA6005   96/06/19 City and County of Denver                 Denver, CO            No   Recommendations




                                                       B-1

                                                                                                          Appendix B

                                     OFFICE OF INSPECTOR GENERAL

                                        LISTING OF AUDIT REPORTS

                                 APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                                    FEDERAL AVIATION ADMINISTRATION



CONTRACT PROPOSAL AUDITS - 23 Reports
REPORT      DATE             SUBJECT                             LOCATION              RECOMMENDATIONS MADE
UKFA6085   96/04/05 Proposal FA-96-509 Ohio University           Athens, OH            $186,049 Better   Use
UKFA6086   96/04/05 Proposal FA-96-510 SEB Sensitive             Washington, DC        $157,924 Better   Use
                                                                                       Procedural
UKFA6096   96/04/19 Proposal FA-96-512 Northrop Grumman          Baltimore, MD         $546,007 Better   Use
                    Electronic Sensors                                                 Procedural
UKFA6097   96/04/19 Proposal FA-96-513 Northrop Grumman          Baltimore, MD         $369,146 Better   Use
                    Electronic Sensors                                                 Procedural
UKFA6125   96/05/31 Proposal FA-96-515 Northrop Grumman          Baltimore, MD         $108,992 Better   Use
                    Electronic Sensors
UKFA6129   96/06/14 Proposed Rates FA-96-518                     Moorestown, NJ        No Recommendations
                    Computer Sciences Corporation
UKFA6136   96/06/28 Proposal FA-96-516 Motorola, Inc.            Scottsdale, AZ        No Recommendations
UKFA6137   96/06/28 Proposal FA-96-519 PRC, Inc.                 McLean, VA            No Recommendations
UKFA6138   96/06/28 Proposal FA-96-520                           Bedford, MA           $399,488 Better Use
                    Raytheon Electronic Systems                                        $73,616 Unsupported
UKFA6139   96/06/28 Proposal FA-96-521                           Baltimore, MD         $109,741 Better Use
                    Northrop Grumman Corporation
UKFA6143   96/06/28 Proposal Lockheed Martin Federal Systems     Gaithersburg, MD      No Recommendations
UKFA6162   96/08/09 Proposal FA-96-522                           Arlington, VA         No Recommendations
                    Infotech Enterprises, Inc.
UKFA6183   96/08/23 Proposal FA-96-517                           Philadelphia, PA      $57,750 Better Use
                    Lockheed Martin Corporation                                        $28,549 Unsupported
UKFA6194   96/08/23 Proposed Rates FA-96-523 GIS/Trans, Ltd.     Cambridge, MA         Procedural
UXFA6113   96/05/03 Proposal FA-96-024 Rail Company              Towson, MD            No Recommendations
UXFA6118   96/05/17 Proposal FA-96-026 Analytical                Sunnyvale, CA         No Recommendations
                    Technological Applications Company
UXFA6119   96/05/17 Proposal FA-96-027 Promodel Corporation      Orem, UT              $76,619 Better Use
UXFA6135   96/06/28 Proposed Rates FA-96-031                     Manassas, VA          Procedural
                    Navcom Systems, Inc.
UXFA6139   96/07/12 Proposed Rates FA-96-030                     Fort Worth, TX        No Recommendations
                    Sabre Decision Technologies
UXFA6143   96/07/26 Proposed Rates FA-96-042 CSSI, Inc.          Washington, DC        No Recommendations
UXFA6144   96/07/26 Proposal FA-96-042                           Huntsville, AL        No Recommendations
                    Nichols Research Corporation
UXFA6145   96/07/26 Proposed Rates FA-96043                      Plymouth, MN          No Recommendations
                    JR Associates, Inc.
UXFA6158   96/08/23 Proposal F A-96-022                          El Paso, TX           $75,259 Better Use
                    Mike Garcia Merchant Security, Inc.


CONTRACT AUDITS - 75 Reports
REPORT      DATE             SUBJECT                             LOCATION              RECOMMENDATIONS MADE
UKFA6087   96/04/05 Progress Payment No. 18 FA-96-908            Fort Lauderdale, FL   $262,590 Questioned
                     DME Corporation
UKFA6090   96/04/05 CAS 408 Compliance                           Gaithersburg, MD      No Recommendations
                     Loral Federal Systems Group
UKFA6091   96/04/05 Cost Impact Proposal                         Gaithersburg, MD      No Recommendations
                     Loral Federal Systems Group
UKFA6095   96/04/19 Revised Disclos ure Statement FY 1997        St. Paul, MN          Procedural
                     Loral Federal Systems - Eagan FA-96-1512a
UKFA6100   96/05/03	 Divisional Labor and Material Transfers     Rockville, MD         No Recommendations
                     Loral Federal Systems - Air Traffic
                     Control FA-95-1510


                                    FEDERAL AVIATION ADMINISTRATION



                                                         B-2

                                                                                                      Appendix B

                                     OFFICE OF INSPECTOR GENERAL

                                        LISTING OF AUDIT REPORTS

                                 APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996




CONTRACT AUDITS


REPORT      DATE             SUBJECT                              LOCATION           RECOMMENDATIONS MADE

UKFA6101   96/05/03	 Disclosure Statement Revision FA-96-1512b    Rockville, MD      Procedural
                     Loral Federal Systems - Air Traffic
                     Control
UKFA6102   96/05/03	 Disclosure Stateme nt Revision FA-96-1512c   Rockville, MD      No Recommendations
                     Loral Federal Systems - Air Traffic
                     Control
UKFA6103   96/05/03	 Final Overhead Rate Claim CY 1994 Loral      St. Paul, MN       No Recommendations
                     Defense Systems-Eagan FA-96-1508
UKFA6104   96/05/03	 Travel Costs/Variances FY 1992               Rockville, MD      No Recommendations
                     Loral Federal Systems - Air Traffic
                     Control FA-96-1507h
UKFA6105   96/05/03	 Verification of Costs FA-96-903              Herndon, VA        No Recommendations
                     Aero Tech Services and Associates
UKFA6106   96/05/03	 Corporate Wide Labor Accounting              San Diego, CA      No Recommendations
                     Policies/Procedures Science
                     Applications International Corporation
UKFA6110   96/05/17	 Termination Proposal FA-96-910               Sudbury, MA        $1,299,729 Questioned
                     Raytheon Electronic Systems
UKFA6112   96/05/17	 Personal Property Taxes FY 1992              Rockville, MD      No Recommendations
                     Loral Federal Systems FA-96-1507d
UKFA6113   96/05/17	 Incurred Provided Labor FY 1992              Rockville, MD      No Recommendations
                     Loral Federal Systems FA-96-1507e
UKFA6114   96/05/17	 Disclosure Statement FA-96-1512d             Gaithersburg, MD   No Recommendations
                     Loral Federal Systems Group
UKFA6115   96/05/17	 Purchases Direct Adjusting Journal           Rockville, MD      No Recommendations
                     Entries Loral Federal Systems FA-96-1518
                     FYs 1992-1995
UKFA6116   96/05/17	 Progress Payment FA-96-1528                  Rockville, MD      No Recommendations
                     Lockheed Martin Tactical Sector
UKFA6117   96/05/17	 Direct Labor Adjusting Journal Entries       Rockville, MD      No Recommendations
                     Loral Federal Systems FA-96-1521 FY 1992
UKFA6118   96/05/17	 Cost Impact-De ferred Vacation Accounting    Armonk, NY         No Recommendations
                     Change, IBM Corporate Headquarters
UKFA6119   96/05/17	 Cost Impact QCC Cash Award Accounting        Armonk, NY         No Recommendations
                     Change, IBM Corporate Headquarters
UKFA6120   96/05/17	 Cost Impact-Adoption Assistance              Armonk, NY         No Recommendations
                     Accounting Change,
                     IBM Corporate Headquarters
UKFA6121   96/05/17	 Cost Impact-Accrued Vacation Accounting      Armonk, NY         No Recommendations
                     Change, IBM Corporate Headquarters
UKFA6122   96/05/31	 Incurred Cost FY 1989 FA-93-819              Falls Church, VA   No Recommendations
                     Computer Sciences Corporation
UKFA6126   96/05/31	 Contracted Purchased Services FY 1992        Rockville, MD      No Recommendations
                     Lockheed Martin Federal System
                     FA-96-1507f
UKFA6127   96/05/31	 Cost Accounting Standard FA-96-1504          Rockville, MD      No Recommendations
                     Lockheed Martin Air Traffic Management
UKFA6128   96/05/31	 Incurred Cost FY 1992 FA-95-1528             Bethesda, MD       $2,635,443 Questioned
                     Loral Federal Systems - Owego
UKFA6130   96/06/14	 Incurred Cost 1992 Intra-Company T ransfer   Rockville, MD      No Recommendations
                     Lockheed Martin Air Traffic Management
                     FA-96-1507b
UKFA6131   96/06/14	 Noncompliance of Cost Accounting             Baltimore, MD      Procedural
                     Standards FA-96-514a Northrop Grumman
UKFA6133   96/06/14	 Incurred Cost 1992 Summary FA-96-1529        Rockville, MD      No Recommendations
                     Loral Federal Systems

                                    FEDERAL AVIATION ADMINISTRATION


CONTRACT AUDITS


                                                        B-3

                                                                                                          Appendix B

                                     OFFICE OF INSPECTOR GENERAL

                                        LISTING OF AUDIT REPORTS

                                 APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996




REPORT      DATE             SUBJECT                            LOCATION              RECOMMENDATIONS MADE
UKFA6140   96/06/28 Incurred Costs FYs 1992-1993 FA-95-806      Lanham, MD            No Recommendation s
                     Diversified International Sciences Corporation
UKFA6141   96/06/28 Incurred Costs FYs 1993-1994                Arlington, VA         Procedural
                     MSI Services, Inc. FA-95-808
UKFA6142   96/06/28 Incurred Costs FYs 1992-1994                Arlington, VA         No Recommendations
                     RBC, Inc.
UKFA6144   96/06/28 Estimating System Survey FA-96-1500         Rockville, MD         Procedural
                     Loral Federal Systems Company
UKFA6145   96/07/12 Timekeeping Practices                       Calverton, MD         No Recommendations
                     Computer Sciences Corporation
UKFA6146   96/07/12 Incurred Cost FY 1990                       Lanham, MD            No Recommendations
                     Hughes STX Corporation
UKFA6147   96/07/12 Incurred Cost FY 1995 FA-96-906a            Arlington, VA         No Recommendations
                     MSI Services, Inc.
UKFA6148   96/07/12 Incurred Costs FY 1991 FA-91-581            Calverton, MD         $99,750 Questioned
                     Computer Sciences Corporation
UKFA6152   96/07/26 Closing Statement MSI Services, Inc.        Arlington, VA         No Recommendations
UKFA6153   96/07/26 Direct Labor Adjusting Journal FY 1993      Rockville, MD         No Recommendations
                     Lockheed Martin Air Traffic Management
                     FA-96-1526
UKFA6155   96/07/26 Supplement Incurred Cost FY 1990            Bethesda, MD          No Recommendations
                     Information Systems and Networks
UKFA6156   96/07/26 Closing Statement FA-95-826                 Arlington, VA         No Recommendations
                     MSI Services, Inc.
UKFA6157   96/07/26 Occupancy Costs FY 1993 FA-96-1520a         Rockville, MD         No Recommendations
                     Lockheed Martin Air Traffic Management
UKFA6161   96/08/09 Incurred Costs FYs 1992-1995 FA-94-815      Arlington, VA         No Recommendations
                     Fu Associates, Ltd.
UKFA6163   96/08/09 Incurred Costs FY 1992 FA-91-602            Calverton, MD         $8,905 Questioned
                     Computer Sciences Corporation
UKFA6164   96/08/09 Personal Property Taxes FY 1993             Rockville, MD         No Recommendations
                     Lockheed Martin Air Traffic Management
                     FA-96-1507dl
UKFA6165   96/08/09 Incurred Cost FY 1994 FA-95-807as           Bedford, MA           No Recommendations
                     The Mitre Corporation
UKFA6166   96/08/09 Final Voucher FA-96-607 Eba, Inc.           Washington, DC        No Recommendations
UKFA6167   96/08/09 Closing Statement FA-96-906s                Arlington, VA         No Recommendations
                     MSI Services, Inc.
UKFA6168   96/08/05 General and Ad ministrative Bid Rates       Rockville, MD         Procedural
                     Lockheed Martin Air Traffic Management
UKFA6169   96/08/09 Accounting System FA-95-513a1 Aerospace     Landover, MD          No Recommendations
                     Engineering and Research Associates
UKFA6170   96/08/09 Financial Capability FA-96-908a             Fort Lauderdale, FL   No Recommendations
                     DME Corporation
UKFA6184   96/08/23 Incurred Costs CY 1991 FA-94-806a           St. Paul, MN          No Recommendations
                     Unisys Corporation
UKFA6185   96/08/23 Direct Travel System FA-94-806b             St. Paul, MN          No Recommendations
                     Unisys Corporation
UKFA6186   96/08/23 Incurred Costs FYs 1992-1995 FA-96-811      Alexandria, VA        No Recommendations
                     Software Systems Associates, Inc.
UKFA6187   96/08/23 Labor Time Charging FA-96-1509a             St. Paul, MN          No Recommendations
                     Loral Defense Systems - Eagan
UKFA6188   96/08/23 Labor Time Charging FA-96-1509b             St. Paul, MN          No Recommendations
                     Loral Defense Systems - Eagan
UKFA6189   96/08/23	 Purchase Existence and Consumption         St. Paul, MN          No Recommendations
                     FA-96-1509c
                     Lockheed Martin Tactical Defense
                                   FEDERAL AVIATION ADMINISTRATION


CONTRACT AUDITS




                                                        B-4

                                                                                                      Appendix B

                                     OFFICE OF INSPECTOR GENERAL

                                        LISTING OF AUDIT REPORTS

                                 APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



REPORT      DATE             SUBJECT                             LOCATION            RECOMMENDATIONS MADE
UKFA6190   96/08/23	 Labor Charging and Timekeeping FA-96-1535   St. Paul, MN        No Recommendations
                     Lockheed Martin Tactical Defense
UKFA6191   96/08/23	 Billed Costs FA-94-922 Data                 New York, NY        No Recommendations
                     Transformation Corporation
UKFA6192   96/08/23	 General and Administrative Expense Rates    Armonk, NY          No Recommendations
                     IBM Corporate Headquarters FA-95-1508b
UKFA6193   96/08/23	 Labor Charging and Timekeeping FY 1996      Rockville, MD       No Recommendations
                     FA-96-1519 Lockheed Martin Tactical
                     Defense
UKFA6195   96/08/23	 Progress Payment No. 14 FA-95-920           Chicago, IL         No Recommendations
                     Sonicraft, Inc.
UKFA6196   96/08/23	 Incurred Costs FYs 1991-1992                Vienna, VA          No Recommendations
                     FA-95-803 Cexec, Inc.
UKFA6197   96/08/23	 Closing Statement FA-96-906s                Arlington, VA       No Recommendations
                     MSI Services, Inc.
UXFA6101   96/04/19	 Equitable Adjustment FA-95-019 Swagger      Angola, IN          $59,844 Questioned
                     Communications, Inc.
UXFA6120   96/05/17	 Preaward Accounting System FA-96-027a       Orem, UT            Procedural
                     Promodel Corporation
UXFA6146   96/07/26	 Closing Statement FA-96-008 Systems         Arlington, VA       No Recommendations
                     Integration and Research, Inc.
UXFA6147   96/07/26	 Incurred Costs FYs 1992-1993 FA-96-028      Mays Landing, NJ    No Recommendations
                     Atlantic Science and Technology
                     Corporation
UXFA6153   96/08/09	 Incurred Labor Hours FA-96-012              Oklahoma City, OK   No Recommendations
                     Raytheon Support Services Company
UXFA6154   96/08/09	 Final Incurred Costs F A-93-046             Dallas, TX          No Recommendations
                     Aviall, Inc.
UXFA6165   96/08/23	 Billing System and Internal Controls        Mays Landing, NJ    No Recommendations
                     Atlantic Science and Technology
                     Corporation
UXFA6169   96/08/23	 Equitable Adjustment FA-95-099              San Juan, PR        $16,923 Questioned
                     Q.B. Construction S.E.
UXFA6170   96/08/23	 Incurred Costs FYs 1992-1994 FA-95-014      Oklahoma City, OK   No Recommendations
                     TVR Communications, Inc.
UXFA6178   96/08/23	 Incurred Costs FYs 1991-1992 FA-95-041      Chelmsford, MA      No Recommendations
                     Thermedics Detection, Inc.
UXFA6179   96/08/23 Billing System Stanford University           Stanford, CA        No Recommendations


CONTRACT MODIFICATIONS - 3 Reports
REPORT      DATE             SUBJECT                             LOCATION            RECOMMENDATIONS MADE
UKFA6088   96/04/05 Modification Price Adjustment FA-96-909      Baltimore, MD       $19,535 Questioned
                    Westinghouse Electric Corporation
UKFA6109   96/05/17 Modification FA-96-514 Northrop Grumman      Baltimore, MD       $510,237 Questioned
                    Electronic Sensors
UKFA6154   96/07/26 Modification No. 256 FA-96-1534              Rockville, MD       No Recommendations
                    Lockheed Martin Air Traffic Management




                                                        B-5

                                                                                                        Appendix B

                                      OFFICE OF INSPECTOR GENERAL

                                         LISTING OF AUDIT REPORTS

                                  APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                                     FEDERAL HIGHWAY ADMINISTRATION



INTERNAL AUDITS - 4 Reports


REPORT      DATE              SUBJECT                              LOCATION            RECOMMENDATIONS MADE

R2FH6015   96/05/16 Personal Property Management Central           Boston, MA          $2,600,000 Better Use
                    Artery/Third Harbor Tunnel Project             Procedural
                    Region 1
R4FH6052   96/06/03 Controls Over Federal-Aid Highway              Atlanta, GA         No Recommendations
                    Construction Projects GA Division
R4FH6065   96/08/16 Controls Over Federal-Aid Highway              Raleigh, NC         Procedural
                    Construction Projects NC Division
R4FH6068   96/09/19 Control Over Federal-Aid Highway               Nashville, TN       Procedural
                    Construction Projects TN Division


GRANT AUDIT - POSTAWARD - 13 Reports

REPORT      DATE              SUBJECT                              LOCATION            RECOMMENDATIONS MADE
Y4FH6030   6/04/01    South Carolina Department of                 Columbia, SC        No Recommendations
                      Transportation
Y4FH6035   96/04/09   Idaho Transportation Department              Boise, ID           $1,114,112 Questioned
Y4FH6040   96/04/17   Michigan Department of                       Lansing, MI         $2,907,228 Questioned
                      Transport ation
Y4FH6053   96/06/04   Commonwealth of Massachusetts                Boston, MA          $3,614,135 Questioned
Y4FH6054   96/06/05   State of Alabama                             Montgomery, AL      No Recommendations
Y4FH6059   96/06/20   Hawaii Department of Transportation          Honolulu, HI        No Recommendations
                      Highways Division
Y4FH606    96/06/24   Arkansas State Highway and                   Little Rock, AR     No Recommendations
                      Transportation Department
Y4FH6061   96/06/27   State of Maryland                            Annapolis, MD       No Recommendations
Y4FH6066   96/08/13   State of Oklahoma                            Oklahoma City, OK   $116,824 Quest ioned
                                                                                       Procedural
Y4FH6071   96/08/23 District of Columbia Department of             Washington, DC      No Recommendations
                    Public Works
Z4FH6076   96/09/03 State of North Carolina                        Raleigh, NC         No Recommendations
R5FH6004   96/04/02 Illinois Department of Transportation          Springfield, IL     No Recommendations
R7FH6004   96/06/27 Wyoming Department of Transportation           Cheyenne, WY        No Recommendations


CONTRACT PROPOSAL AUDITS - 3 Reports

REPORT      DATE              SUBJECT                              LOCATION            RECOMMENDATIONS MADE
UXFH6121   96/05/17 Proposed Rates FH-96-012 P arsons              New York, NY        No Recommendations
                    Brinckerhoff Farradyne, Inc.
UXFH6131   96/05/31 Proposal FH-96-011 JHK and                     Emeryville, CA      Procedural
                    Associates, Inc.
UXFH6148   96/07/26 Supplemental Proposal FH-96-011s               Emeryville, CA      Procedural
                    JHK and Associates, Inc.




                                     FEDERAL HIGHWAY ADMINISTRATION





                                                            B-6

                                                                                                        Appendix B

                                    OFFICE OF INSPECTOR GENERAL

                                       LISTING OF AUDIT REPORTS

                                APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996




CONTRACT AUDITS - 13 Reports


REPORT      DATE             SUBJECT                             LOCATION              RECOMMENDATIONS MADE

UXFH6092   96/04/05 Incurred Cost FY 1991 FH-93-014a             New York, NY          No Recommendations
                    Parsons Brinckerhoff Quade and Doug las
UXFH6093   96/04/05 Incurred Cost FY 1992 FH-93-014              New York, NY          No Recommendations
                    Parsons Brinckerhoff Quade and Douglas
UXFH6094   96/04/05 Incurred Cost CYs 1989-1991                  Middlesboro, KY       No Recommendations
                    Vaughn and Melton Engineers FH-93-011
UXFH6095   96/04/05 Government Caused Delay Claim                Fort Lauderdale, FL   No Recommendations
                    FH-96-006 Archer-Western Contractors, Ltd.
UXFH6102   96/04/19 Incurred Costs FYs 1993-1994                 Fairport Harbor, OH   No Recommendations
                    Eltech Research Corporation
UXFH6122   96/05/17 Incurred Cost FY 1995                        Kansas City, MO       No Recommendations
                    Midwest Research Institute
UXFH6132   96/05/31 Accounting System Audit FH-96-011a           Emeryville, CA        Procedural
                    JHK and Associates, Inc.
UXFH6136   96/06/28 Accounting System FH-96-008a                 Alexandria, VA        Procedural
                    ATA Foundation
UXFH6140   96/07/12 Incurred Costs FY 1992 FH-90-008d            Atlanta, GA           No Recommendations
                    Golder Associates, Inc.
UXFH6141   96/07/12 Incurred Costs FY 1993 FH-90-008e            Atlanta, GA           No Recommendations
                    Golder Associates, Inc.
UXFH6149   96/07/26 Timekeeping FH-96-011b                       Emeryville, CA        No Recommendations
                    JHK and Associates, Inc.
UXFH6171   96/08/23 Equitable Adjustment FH-95-006               Naranjito, PR         $262,376 Questioned
                    Three O Construction, S.E.                                         Procedural
UXFH6175   96/08/23 Incurred Costs FYs 1989-1990                 Arlington, VA         $22,301 Questioned
                    FH-94-002 The Scientex Corporation




                                                       B-7

                                                                                                    Appendix B

                                    OFFICE OF INSPECTOR GENERAL

                                       LISTING OF AUDIT REPORTS

                                APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                                   FEDERAL RAILROAD ADMINISTRATION



CONTRACT AUDITS - 2 Reports


REPORT      DATE             SUBJECT                          LOCATION             RECOMMENDATIONS MADE

UXFR6096   96/04/05 Incurred Cost CY 1993 FR-94-012           Research Triangle,   Procedural
                    Compuchem Laboratories, Inc.              Park, NC
UXFR6103   96/04/19 Incurred Cost Vehicle Track Dynamics      Chicago, IL          No Recommendations
                    Association of American Railroads
                    FR-96-001a




                                                       B-8

                                                                                                       Appendix B

                                     OFFICE OF INSPECTOR GENERAL

                                        LISTING OF AUDIT REPORTS

                                 APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                                          MARITIME ADMINISTRATION



GRANT AUDIT - POSTAWARD - 1 Report


REPORT      DATE             SUBJECT                              LOCATION            RECOMMENDATIONS MADE

R4MA6058   96/06/12 Gulfcoast Transit                             Tampa, FL           No Recommendations



CONTRACT PROPOSAL AUDITS - 24 Reports


REPORT      DATE             SUBJECT                              LOCATION            RECOMMENDATIONS MADE

UXMA6098   96/04/05 Proposal MA-96-017 Pragma tics, Inc.          McLean, VA          $106,659 Better Use
                                                                                      $2,490,009 Unaudited
UXMA6099   96/04/05 Proposal MA-96-018 Seta Corporation           McLean, VA          $34,566 Better Use
UXMA6105   96/04/19 Proposal MA-96-020                            Conshohocken, PA    No Recommendations
                    Shepard-Patterson, Inc.
UXMA6106   96/04/19 Proposal MA-96-021 International              Springfield, VA     Procedural
                    Management, Development and Training, Inc.
UXMA6107   96/04/19 Proposal MA-96-023 Technology,                Arlington, VA       No Recommendations
                    Management and Analysis Corporation
UXMA6108   96/04/19 Proposal MA-96-026                            Bensalem, PA        $200,664 Better Use
                    Information Network Systems, Inc.
UXMA6109   96/04/19 Proposal MA-96-028                            Lanham, MD          Procedural
                    Trandes Corporation
UXMA6110   96/04/19 Proposal MA-96-030                            Fairfax, VA         Procedural
                    Soza and Company, Ltd.
UXMA6111   96/04/19 Proposal MA-96-032                            Moorestown, NJ      No Recommendations
                    Computer Sciences Corporation
UXMA6112   96/04/19 Proposal MA-96-037                            Arlington, VA       No Recommendations
                    Madentech Consulting, Inc.
UXMA6114   96/05/03 Proposal MA-96-016 Automated                  Landover, MD        No Recommendations
                    Business Systems and Services Inc.
UXMA6115   96/05/03 Proposal MA-96-029 PRC, Inc.                  McLean, VA          $125,951 Better Use
UXMA6116   96/05/03 Proposal MA-96-027 Mitech, Inc.               Rockville, MD       $3,194,420 Unaudited
UXMA6123   96/05/17 Proposal MA-96-031                            Washington, DC      $496,803 Better Use
                    North American Telecommunications, Inc.
UXMA6124   96/05/17 Proposals MA-96-033                           Lanham, MD          No Recommendations
                    Systems Integration Group, Inc.
UXMA6125   96/05/17 Proposal MA-96-036                            Rockville, MD       Procedural
                    Advanced Information Network Systems
UXMA6126   96/05/17 Proposal MA-96-041 Cexec, Inc.                Vienna, VA          No Recommendations
UXMA6127   96/05/17 Proposal MA-96-042                            Silver Spring, MD   Procedural
                    Information Systems and Services, Inc.
UXMA6128   96/05/17 Proposal MA-96-045                            Burlington, MA      Procedural
                    Systems Resources Corporation
UXMA6138   96/06/28 Proposal MA-96-047                            Arlington, VA       $3,354,066 Unaudited
                    Software Control International
UXMA6142   96/07/12 Proposal MA-96-043                            Washington, DC      No Recommendations
                    Advanced Management Tech nology
UXMA6150   96/07/26 Proposal MA-96-049                            Sturgeon Bay, WI    No Recommendations
                    Peterson Builders, Inc.
UXMA6155   96/08/09 Proposal MA-96-012                            Beaumont, TX        $1,695 Better Use
                    United Marine Enterprise, Inc.                                    $160,189 Unsupported
                                                                                      Procedural
UXMA6176   96/08/23	 Proposal MA-96-028a,                         Arlington, VA       No Recommendations
                     Technology Management and Analysis
                     Corporation



                                          MARITIME ADMINISTRATION



                                                           B-9

                                                                                                       Appendix B

                                    OFFICE OF INSPECTOR GENERAL

                                       LISTING OF AUDIT REPORTS

                                APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996




CONTRACT AUDITS - 12 Reports


REPORT      DATE             SUBJECT                           LOCATION            RECOMMENDATIONS MADE

UXMA6097   96/04/05 Termination Settle ment MA-96-015          Middle Island, NY   $264,310 Questioned
                    All Marine Services, Ltd.
UXMA6137   96/06/28 Incurred Costs CYs 1992-1993               New York, NY        $122,572 Questioned
                    Omi Ship Management MA-96-008
R2MA6017   96/06/06 Protection and Indemnity Deductible        New York, NY        $9,566 Questioned
                    Costs For Asbestosis Claims
                    Farrell Lines CY 1995
R2MA6018   96/06/06 Farrell Lines Inc. Subsidizable Costs      New York, NY        Procedural
                    Protection and Indemnity and
                    Maintenance and Repair Deductibles
R2MA6019   96/06/06 NPR, Inc. Con struction Subsidy            Edison, NJ          Procedural
                    Refund
R2MA6021   96/06/19 OMI Corporation Subsidizable               New York, NY        Procedural
                    Costs For Per Diem Calculations
                    CY 1996
R2MA6024   96/07/12 Mormac Marine Transport, Inc.              Stamford, CT        $166,397 Questioned
                    Maintenance and Repair Costs                                   Procedural
R2MA6025   96/07/15 Elko Marine Corporation Bulk               Staten Island, NY   Procedural
                    Preference Cargo Rates
R3MA6009   96/07/09 Keystone Shipping Company                  Philadelphia, PA    $43,705 Unsupported
                    General Agent Agreement
R3MA6010   96/07/24 Maintenance and Repair Expenses            Bala Cynwyd, PA     No Recommendations
                    Chesnut Shipping Company
R3MA6012   96/08/29 Officer and Crew Wage Expenses             Bala Cynwyd, PA     No Recommendations
                    Chestnut Shipping Company
R3MA6013   96/09/13 Protection and Indemnity Deductible        Bala Cynwyd, PA     No Recommendations
                    Expenses Chestnut Shipping Company




                                                       B-10

                                                                                                   Appendix B

                                    OFFICE OF INSPECTOR GENERAL

                                       LISTING OF AUDIT REPORTS

                                APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                        NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION



CONTRACT AUDITS - 6 Reports
REPORT      DATE             SUBJECT                             LOCATION         RECOMMENDATIONS MADE
UXNH6129   96/05/17 Incurred Cost FY 1994 NH-96- 001             Arlington, VA    No Recommendations
                    Advanced Systems Development, Inc.
UXNH6133   96/05/31 Incurred Cost FYs 1990-1994                  McLean, VA       No Recommendations
                    Planning Analysis Corporation
                    NH-95-002a
UXNH6161   96/08/23 Incurred Costs FY 1991 NH-93-005d            Orlando, FL      No Recommendations
                    Khri, Inc.
UXNH6162   96/08/23 Incurred Costs FY 1991 NH-93-005c            Orlando, FL      No Recommendations
                    Khri, Inc.
UXNH6174   96/08/23 Incurred Costs FY 1994                       Stillwater, OK   No Recommendations
                    Frontier Engineering, Inc.
R2NH6022   96/07/03 Advisory Memorandum on                       Washington, DC   Procedural
                    Printing of Traffic Technical
                    Publication


CONTRACT OVERHEAD AUDITS - 1 Report

REPORT      DATE             SUBJECT                             LOCATION         RECOMMENDATIONS MADE
UXNH6160   96/08/23 Indirect Expense Rates NH-92-004             Buffalo, NY      No Recommendations
                    Technology Center




                                                         B-11

                                                                                                  Appendix B

                                    OFFICE OF INSPECTOR GENERAL

                                       LISTING OF AUDIT REPORTS

                                APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                            OFFICE OF THE SECRETARY OF TRANSPORTATION



INTERNAL AUDITS - 1 Report


REPORT      DATE             SUBJECT                         LOCATION            RECOMMENDATIONS MADE

ADOT6008   96/09/19 Lobbying Activities in FY 1995           Washington, DC      Procedural
                    Departmentwide


GRANT AUDIT - POSTAWARD - 1 Report

REPORT      DATE             SUBJECT                         LOCATION            RECOMMENDATIONS MADE
Y4OT6056   96/06/05 Howard County                            Ellicott City, MD   No Recommendations




                                                     B-12

                                                                                                        Appendix B

                                     OFFICE OF INSPECTOR GENERAL

                                        LISTING OF AUDIT REPORTS

                                 APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                          RESEARCH AND SPECIAL PROGRAMS ADMINISTRATION



INTERNAL AUDITS - 1 Report


REPORT      DATE             SUBJECT                            LOCATION               RECOMMENDATIONS MADE

ADRS6007   96/09/19	 Supplementary Report on Internal           Cambridge, MA          Procedural
                     Control Systems Related to Volpe
                     Center FYs 1994-1995 Financial
                     Statements


CONTRACT PROPOSAL AUDITS - 7 Reports

REPORT      DATE             SUBJECT                            LOCATION               RECOMMENDATIONSMADE
UXRS6100   96/04/05 Proposed Rates TS-96-030                    Lake Oswego, OR        Procedural
                    CDC/ESI Joint Venture
UXRS6130   96/05/17 Proposed Rates TS-96-032                    Oklahoma City, OK      No Recommendations
                    Datacom Sciences, Inc.
UXRS6156   96/08/09 Proposal RS-96-002                          Columbus, OH           No Recommendations
                    Battelle Memorial Institute
UXRS6157   96/08/09 Proposal TS-96-014 Reebie Associates        Greenwich, CT          No Recommendations
UXRS6159   96/08/23 Proposed Rates TS-96-022                    Madison, WI            Procedural
                    Orbital Technologies Corporation
UXRS6166   96/08/23 Proposed Rates TS-96-016 Smith              Plymouth Meeting, PA   No Recommendations
                    Environmental Technologies Corporation.
UXRS6167   96/08/23 Proposed Rates TS-96-027                    Marietta, GA           $366,981 Unaudited
                    The Colography Group, Inc.                                         $195,300 Unsupported
                                                                                       Procedural


CONTRACT AUDITS - 7 Reports

REPORT      DATE             SUBJECT                            LOCATION               RECOMMENDATIONS MADE
UXRS6117   96/05/03 Incurred Costs FY 1994                      Beltsville, MD         No Recommendations
                    Omar Mccall and Associates, Inc.
UXRS6151   96/08/09 Incurred Costs FY 1993 TS-96-024            McLean, VA             No Recommendations
                    PRC, Inc.
UXRS6152   96/08/09 Incurred Costs FY 1993 TS-96-024a           McLean, VA             No Recommendations
UXRS6168   96/08/23 Preaward Accounting System                  Marietta, GA           No Recommendations
                    TS-96-027a The Colography Group, Inc.
UXRS6172   96/08/23 Closing Statement TS-94-006                 Boston, MA             No Recommendations
                    Charles River Associates
UXRS6173   96/08/23 Incurred Costs FY 1994 TS-95-018            Cambridge, MA          No Recommendations
                    Massachusetts Institute of Technology
UXRS6177   96/08/23 Costs Claimed FY 1995 TS-96-026a            McLean, VA             No Recommendations
                    Booz-Allen and Hamilton, Inc.




                          RESEARCH AND SPECIAL PROGRAMS ADMINISTRATION




                                                        B-13

                                                                                              Appendix B

                                     OFFICE OF INSPECTOR GENERAL

                                        LISTING OF AUDIT REPORTS

                                 APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996




CONTRACT MODIFICATIONS - 1 Report


REPORT      DATE             SUBJECT                      LOCATION           RECOMMENDATIONS MADE

UXRS6163   96/08/23	 Modification TS-96-020               Concord, MA        $20,585 Questioned
                     Earth Tech, Inc.




                                                  B-14

                                                                                                       Appendix B

                                     OFFICE OF INSPECTOR GENERAL

                                        LISTING OF AUDIT REPORTS

                                 APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                                        UNITED STATES COAST GUARD



INTERNAL AUDITS - 5 Reports


REPORT      DATE             SUBJECT                           LOCATION               RECOMMENDATIONS MADE

R3CG6011   96/08/08 Internal Control Systems and Compliance    Washington, DC         Procedural
                    FY 1994 Coast Guard Fina ncial Statement
R3CG6006   96/04/19 Coast Guard Procurement Activities         Baltimore, MD          Procedural
                    Supply Center Baltimore
R3CG6007   96/04/19 Advisory Memo on Inspection of             Washington, DC         Procedural
                    Foreign Flagged Vessels
R6CG6011   96/06/06 Inspection of Waterfront Facilities        Washington, DC         Procedural
                    United States Coast Guard
R6CG6012   96/08/28 Inspection of Offshore Facilities          Washington, DC         Procedural


CONTRACT PROPOSAL AUDITS - 11 Reports

REPORT      DATE             SUBJECT                           LOCATION               RECOMMENDATIONS MADE
UKCG6084   96/04/05 Proposed Rates CG-96-513 SEB Sensitive     Washington, DC         No Recommendations
UKCG6092   96/04/19 Proposal CG-96-524 Piquniq Management      Anchorage, AK          $5,804,078 Better Use
                    Corporation
UKCG6094   96/04/19 Proposed Rates CG-96-521 SEB Sensitive     Washington, DC         Procedural
UKCG6099   96/05/03 Proposal CG-96-526                         Seattle, WA            $122,227 Better Use
                    Seattle Security Services, Inc.
UKCG6123   96/05/31 Proposed Rates CG-96-529                   Kansas City, MO        Procedural
                    Tra Architect Engineering Planning
UKCG6159   96/07/26 Proposal CG-96-53 5                        Arlington, VA          $60,477 Better Use
                    IQ Management Corporation
UKCG6171   96/08/09 Proposal CG-96-542 Sonalysts, Inc.         Waterford, CT          No Recommendations
UKCG6172   96/08/09 Proposal CG-96-543                         West Mystic, CT        No Recommendations
                    Microsystems Integration, Inc.
UKCG6173   96/08/09 Proposed Rates CG-96-540                   Seattle, WA            No Recommendations
                    Cadd Production Services
UKCG6176   96/08/23 Proposed Rates CG-96-548                   Boulder, CO            No Recommendations
                    Micro Analysis and Design, Inc.
UKCG6182   96/08/23 Proposal CG-96-523 Space Mark, Inc.        Colorado Springs, CO   $16,920,825 Better Use
                                                                                      $15,852,062 Unaudited




                                                       B-15

                                                                                                   Appendix B

                                    OFFICE OF INSPECTOR GENERAL

                                       LISTING OF AUDIT REPORTS

                                APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                                       UNITED STATES COAST GUARD



CONTRACT AUDITS - 23 Reports


REPORT      DATE             SUBJECT                           LOCATION           RECOMMENDATIONS MADE

UKCG6089   96/04/05 Forward Pricing Rate CYs 1995-1998         Phoenix, AZ        No Recommendations
                    AlliedSignal Inc.
UKCG6093   96/04/19 Accounting System CG-96-516                Columbia, MD       Procedural
                    Scientific Systems and Software
                    International
UKCG6098   96/05/03 Revised Cost of Money Factors CY 1996      Phoenix, AZ        No Recommendations
                    AlliedSignal Inc.
UKCG6107   96/05/17 Billed Contract Costs CG-96-508            Philadelphia, PA   No Recommendations
                    University of Pennsylvania
UKCG6108   96/05/17 Forward Pricing Rates CYs 1996-1998        Phoenix, AZ        No Recommendations
                    AlliedSignal Inc.
UKCG6111   96/05/17 Incurred Costs FYs 1989-1992               Falls Church, VA   No Recommendations
                    Ultra Technologies, Inc. CG-90-570
UKCG6124   96/05/31 Equitable Adjustment Claim CG-96-530       Burlington, MA     $148,384 Questioned
                    System Resources Corporation
UKCG6132   96/06/14 Termination Claim CG-96-53 1               Anchorage, AK      $32,700 Questioned
                    Linder Construction, Inc.
UKCG6134   96/06/28 Supplemental Termination Claim Linder      Anchorage, AK      $40,399 Questioned
                    Construction, Inc. CG-96-531.S
UKCG6135   96/06/28 Billing System                             Burlington, MA     No Recommendations
                    System Resources Corporation
UKCG6149   96/07/12 Incurred Cost FY 1992 CG-96-510a           Dunwoody, GA       No Recommendations
                    Dynamic Resources, Inc.
UKCG6150   96/07/12 Incurred Costs FY 1993 CG-96-510b          Dunwoody, GA       No Recommendations
                    Dynamic Resources, Inc.
UKCG6151   96/07/12 Incurred Costs FY 1994 CG-96-510c          Dunwoody, GA       No Recommendations
                    Dynamic Resources, Inc.
UKCG6158   96/07/26 Financial Capability CG-96-533             Oakland, CA        No Recommendations
                    National Automotive Corporation
UKCG6160   96/07/26 Incurred Costs FY 1995                     San Antonio, TX    No Recommendations
                    Southwest Research Institute
UKCG6174   96/08/09 Timekeeping and Floorcheck CG-96-510a      Dunwoody, GA       No Recommendations
                    Dynamic Resources, Inc.
UKCG6175   96/08/23 Post Award CG-96-522                       Albuquerque, NM    No Recommendations
                    MCI Industries, Inc.
UKCG6177   96/08/23 Progress Payment CG-96-538                 Marinette, WI      No Recommendations
                    Marinette Marine Corporation
UKCG6178   96/08/23 Progress Payment CG-96-539                 Marinette, WI      No Recommendations
                    Marinette Marine Corporation
UKCG6179   96/08/23 Incurred Costs FY 1994 CG-96-510b          Dunwoody, GA       No Recommendations
                    Dynamic Resources, Inc.
UKCG6180   96/08/23 Incurred Costs FY 1993 CG-96-510a          Dunwoody, GA       No Recommendations
                    Dynamic Resources, Inc.
UKCG6181   96/08/23 Incurred Costs FY 1992 CG-96-510           Dunwoody, GA       No Recommendations
                    Dynamic Resources, Inc.
R2CG6023   96/07/03 Advisory Memorandum on Printing of         Washington, DC     Procedural
                    Local Notice To Mariners, USCG




                                                       B-16

                                                                                                        Appendix B

                                     OFFICE OF INSPECTOR GENERAL

                                        LISTING OF AUDIT REPORTS

                                 APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996



                                    FEDERAL TRANSIT ADMINISTRATION



INTERNAL AUDITS - 2 Reports
REPORT      DATE             SUBJECT                              LOCATION           RECOMMENDATIONS MADE
R3FT6008   96/07/26 Bus Manufacturer Compliance with              Washington, DC     Procedural
                    Technical Requirements
R5FT6008   96/07/02 Memorandum on Issues Affecting                Washington, DC     $59,900,000 Better Use
                    Termination of Chicago Central Area                              $20,200,000 Unsupported
                    Circulator Project


GRANT AUDIT - POSTAWARD - 26 Reports

REPORT      DATE             SUBJECT                              LOCATION           RECOMMENDATIONS MADE
R2FT6026   96/09/11 Niagara Frontier Transportation Authority     Buffalo, NY        No Recommendations
Z4FT6033   96/04/02 City of Racine                                Racine, WI         No Recommendations
Y4FT6036   96/04/09 Sacramento Regional Transportation            Sacramento, CA     $1 Questioned
                    District
Y4FT6037   96/04/15 City of Madison, Wisconsin                    Madison, WI        No   Recommendations
Y4FT6038   96/04/15 City of Phoenix                               Phoenix, AZ        No   Recommendations
Y4FT6039   96/04/15 City of Pueblo                                Pueblo, CO         No   Recommendations
Y4FT6041   96/04/17 Long Beach Public Transportation              Long Beach, CA     No   Recommendations
                    Company
Y4FT6043   96/04/30 City of Cedar Rapids, Iowa                    Cedar Rapids, IA   No   Recommendations
Z4FT6045   96/04/30 City of Tallahassee, Florida                  Tallahassee, FL    No   Recommendations
Y4FT6046   96/05/15 City of Lincoln, Nebraska                     Lincoln, NE        No   Recommendations
Y4FT6047   96/05/15 City of Roanoke, Virginia                     Roanoke, VA        No   Recommendations
Y4FT6049   96/05/15 Pierce Coun ty Public Transportation          Tacoma, WA         No   Recommendations
                    Benefit Area Authority
Y4FT6051   96/05/22 Niagara Frontier Transportation Authority     Buffalo, NY        No Recommendations
Y4FT6055   96/06/05 Greater Portland Transit District             Portland, ME       $7,783 Questioned
R4FT6057   96/06/05 City of Tallahassee                           Tallahassee, FL    No Recommendations
Y4FT6063   96/07/31 City of Baltimore, Maryland                   Baltimore, MD      No Recommendations
Y4FT6074   96/08/29 Northern Indiana Commuter Transit             Chesterton, IN     No Recommendations
R5FT6005   96/04/24 City of Detroit, Michigan                     Detroit, MI        No Recommendations
R5FT6006   96/05/31 Pace, The Suburban Bus Division of the        Arlington, IL      No Recommendations
                    Regional Transportation Authority
R5FT6007   96/06/18 Regional Transportation Authority             Chicago, IL        No   Recommendations
R5FT6009   96/08/15 City of Racine                                Racine, WI         No   Recommendations
R5FT6010   96/08/19 Central Ohio Transit Authority                Columbus, OH       No   Recommendations
R7FT6006   96/07/03 Pitkin County                                 Aspen, CO          No   Recommendations
R7FT6007   96/08/05 Bi-State Development Agen cy of               St. Louis, MO      No   Recommendations
                    Missouri-Illinois Metro. District
R9FT6012   96/06/28 Sacramento Regional Transit District          Sacramento, CA     No Recommendations
R9FT6013   96/06/27 Long Beach Public Transportation              Long Beach, CA     No Recommendations
                    Company


CONTRACT PROPOSAL AUDITS - 1 Report
REPORT      DATE             SUBJECT                              LOCATION           RECOMMENDATIONS MADE
UXFT6104   96/04/19	 Proposal FT-96-005                           Largo, MD          No Recommendations
                     R-E Systems Corporation




                                    FEDERAL TRANSIT ADMINISTRATION




                                                          B-17

                                                                                               Appendix B

                                    OFFICE OF INSPECTOR GENERAL

                                       LISTING OF AUDIT REPORTS

                                APRIL 1, 1996 THROUGH SEPTEMBER 30, 1996




CONTRACT AUDITS - 3 Reports
REPORT      DATE             SUBJECT                           LOCATION       RECOMMENDATIONS MADE
UXFT6091   96/04/05 Incurred Cost FY 1990 FT-93-051            New York, NY   No Recommendations
                    Parsons, Brinckerhoff, Quade and Douglas
UXFT6134   96/05/31 Billing System                             New York, NY   No Recommendations
                    Parsons, Brinckerhoff, Quade and Douglas
UXFT6164   96/08/23 Final Voucher No. 29 FT-94-003             New York, NY   No Recommendations
                    Interactive Elements, Inc.




                                                       B-18

                                REPORTING REQUIREMENTS

   To facilitate the reader’s understanding of OIG’s compliance with the specific statutory reporting requirements
prescribed in the IG Act of 1978, as amended, the following list is provided.


                                                       REQUIREMENTS                                                                       Page

Section 4(a)(2) - Review of Existing and Proposed Legislation and Regulations...................................... 51

Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies ............................................................... 3

Section 5(a)(2) - Recommendations for Corrective Actions......................................................................... 3
                  with Respect to Significant Problems, Abuses, and Deficiencies

Section 5(a)(3) - Prior Recommendations Not Yet Implemented ............................................................... 14

Section 5(a)(4) - Matters Referred to Prosecutive Authorities.................................................................... 34

Section 5(a)(5) - Summary of Instances Where Information Was Unreasonably Refused.......................... iv

Section 5(a)(6) - List of Audit Reports...................................................................................................... B-1

Section 5(a)(7) - Summary of Particularly Significant Reports.................................................................... 3

Section 5(a)(8) - Statistical Table of Management Decisions on Questioned Costs................................... 12

Section 5(a)(9) - Statistical Table on Management Decisions on............................................................... 12
                  Recommendations That Funds Be Put To Better Use

Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old....................................................... 15
                   for Which No Management Decision Has Been Made

Section 5(a)(11) - Description and Explanation for Any Significant............................................................ 24
                   Revised Management Decisions

Section 5(a)(12) - Information on Any Significant Management Decisions ................................................ 24
                   with Which the IG Disagrees




                                                                           C-1

This page left blank intentionally.
                       WANT TO KNOW MORE ?

   To meet the needs of readers who wish to know more about a particular audit, inspection, or
evaluation discussed in this report, OIG has provided a tear-out card at the bottom of this page
that folds into a self-mailer (postage required). Please identify those reports (by report number)
you would like to receive and include your name and mailing address. The reports will be sent
to you as soon as possible.
  Thank you for your interest in the work of OIG. OIG will continue to explore ways to make
these reports responsive to the readers’ needs within the parameters of OIG’s statutory require-
ments. Please address any questions or comments to OIG, U.S. Department of Transportation,
Room 7422, 400 Seventh Street, S.W., Washington, DC 20590.


                  Please send me the following report(s):
   ___ AD-RS-6-007                ___ E5-FA-6-005                ___ R4-FH-6-068
   ___ AS-FA-6-010                ___ E5-OS-6-006                ___ R5-FT-6-008
   ___ E1-FA-6-010                ___ R2-FH-6-015                ___ R6-CG-6-012
   ___ E1-FA-6-011                ___ R3-CG-6-011                ___ R7-FA-6-002
   ___ E1-FA-6-012                ___ R3-FT-6-008                ___ R9-FA-6-014
   ___ E1-FA-6-014                ___ R4-FA-6-026                ___ R9-FA-6-015
   ___ E1-FT-6-006                ___ R4-FH-6-065




        Name:
     Address:

Office of Inspector General

U.S. Department of Transportation

Room 7422

400 Seventh Street S.W.

Washington, DC 20590





             Staple
